<html>
<title> - PERSPECTIVES ON 9/11: BUILDING EFFECTIVELY ON HARD LESSONS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
       PERSPECTIVES ON 9/11: BUILDING EFFECTIVELY ON HARD LESSONS

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2003

                               __________

                           Serial No. 108-25

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2004

96-971 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-00012004




                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

               David H. Schanzer, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, Chairman Select Committee on 
  Homeland Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     4

The Honorable Dave Camp, Chairman Subcommittee on Infrastructure 
  and Border Security............................................    10

The Honorable Donna M. Christensen, a Representative in Congress 
  From U.S. Virgin Islands.......................................    62

The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    48

The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     8
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina
  Oral Statement.................................................    14
  Prepared Statement.............................................    14
The Honorable James S. Gilmore, Former Governor of the 
  Commonwealth of Virginia & Chairman Advisory Panel to Assess 
  the Capabilities for Domestic Response to Terrorism Involving 
  Weapons of Mass Destruction
  Oral Statement.................................................    27
  Prepared Statement.............................................    30

The Honorable Porter Goss, Chairman Select Committee on 
  Intelligence...................................................    10

The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................     9
Ms. Eleanor Hill, Staff Director, Joint Intelligence Committee 
  Inquiry
  Oral Statement.................................................    17
  Prepared Statement.............................................    20

The Honorable Peter T. King, a Representative in Congresss From 
  the State of New York..........................................    56

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    16

The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    59

The Honorable Nita M. Lowey, a Representative in Congress From 
  the State New York.............................................    12

The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    68

The Honorable Eleanor Holmes Norton, a Representative in Congress 
  From the District of Columbia..................................    15

The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    11

The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connnecticut.................................    51
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York
  Prepared Statement.............................................    13

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    54

The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                   MATERIAL SUBMITTED FOR THE RECORD

Questions and Responses submitted for the Record.................    72


       PRESPECTIVES ON 9/11: BUILDING EFFECTIVELY ON HARD LESSONS

                              ----------                              


                     Wednesday, September 10, 2003

                     U.S. House of Representatives,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:45 p.m., in Room 
345, Cannon House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Smith, Shays, Goss, 
Camp, King, Linder, Thornberry, Gibbons, Granger, Sessions, 
Sweeney, Turner, Thompson, Sanchez, Dicks, Harman, Cardin, 
Slaughter, DeFazio, Lowey, Norton, Lofgren, McCarthy, Jackson-
Lee, Pascrell, Christensen, Etheridge, Lucas, Langevin, Meek, 
Weldon and Diaz-Balart.
    Chairman Cox. This hearing will come to order. The full 
Committee on Homeland Security is meeting today to consider 
perspectives on September 11th, one day before its anniversary. 
Our hearing is titled ``Building Effectively on Hard Lessons.'' 
Our witnesses will be Ms. Eleanor Hill, the Staff Director of 
the Joint Intelligence Committee inquiry, and the Honorable Jim 
Gilmore, former Governor of Virginia and Chairman of the 
Advisory Panel to Assess Domestic Response Capabilities for 
Terrorism Involving Weapons of Mass Destruction.
    We will shortly welcome our witnesses after brief opening 
statements.
    I think everyone recognized what a beautiful day it was 
today in Washington, D.C. in fact, the weatherman, as I drove 
in this morning, said it was the nicest day that he remembers 
in our Nation's Capital. Two years ago it was very different. 
The view across the Potomac, as I evacuated as a Member of the 
House leadership down 295, was all black over the Pentagon and 
it appeared in fact that the entire cityscape of Washington, 
D.C. was aflame in smoke and that our government was threatened 
as we had witnessed only in featured films.
    I don't think we will ever forget, any of us, where we were 
that day or what went through our minds. And in that sense, 2 
years ago was very recent. We can always draw it back. For my 
part, I spent the morning of September 11th, as it happened, at 
the Pentagon in the private dining room of the Secretary of 
Defense, Don Rumsfeld. Paul Wolfowitz was there as well, and we 
were discussing how important it was for Congress to take a 
different look at our national security to prepare for 
unconventional threats, not to fight the old wars of the past 
but to deal with the future. And Secretary Rumsfeld told me 
that day he expected another unexpected event, that that is 
always what brings America to its attention, and of course his 
words could not have been any more prophetic. Just minutes 
later, the Pentagon itself was attacked.
    Those catastrophic terrorist events of September 11th that 
killed thousands of Americans exposed the vulnerability of our 
own country and the shortcomings of U.S. intelligence services 
whose mission it is to prevent such attacks.
    Today, on this sad anniversary, in the midst of our war on 
terrorists worldwide, our questions have become more seasoned, 
or less raw, than they were just 2 years ago.
    We are here today to ask what lessons our intelligence 
services have learned and how they can be applied to protect 
the American people from another terrorist attack. We ask what 
went wrong in order to make sure that we now have it right, or 
nearly so at least. We ask what has been done these last 2 
years to make us safe against our new everyday reality that 
terrorists will always, have us, our children, our homeland, 
and our way of life in their murderous sights until they and 
their supporters are eradicated. We must live with that. And we 
know how much has been done, but today we ask can it be even 
better.
    Many of us were stunned by the coordinated nature of the 
attacks, which immediately suggested training at a remarkably 
sophisticated level and elaborate planning on an international 
scale. We were also stunned by the devastating impact of these 
attacks. In a little more than an hour and a half on that 
beautiful, clear, early autumn morning, 19 hijackers 
successfully converted four heavily fuel-laden commercial 
aircraft into deadly missiles that destroyed the majestic World 
Trade Center in New York City. They blew a massive crater into 
what many thought was the impenetrable Pentagon, and they 
brutally took the lives of 3,000 innocent people.
    That day brought the worst from heartless terrorists and 
the best in the American people. We still vividly recall the 
courageous acts of the passengers of United Flight 93 who, 
responding to Todd Beamer's charge, ``Let's roll,'' attacked 
the terrorists who commandeered the plane.
    We saw first responders, police, firefighters and emergency 
medical personnel in New York and Washington act with great 
skill and selfless dedication to protect people, to relieve 
suffering, and to contain its damage. As we know, many of 
them--too many of them--lost their own lives in this noble 
service to others. We have not forgotten them.
    As President Bush stated on that awful day, we owe it to 
these victims and to all Americans to ensure that no such 
attack will ever occur again on our soil. The President moved 
quickly to provide our intelligence services with the 
capabilities they would need to prevent terrorism, and he 
established, with the leadership of the Congress, the 
Department of Homeland Security to develop an essential new 
capability to enhance our security, including promoting the 
integrity of the critical infrastructure on which we so heavily 
depend.
    We won't know how far we have come without recalling where 
we began. The Joint Inquiry of the House and Senate 
Intelligence Committees recently published its declassified 
version of its report. The bottom line is that we did not know 
what we needed to know, and what we did know did not get where 
it was needed most when it was needed.
    The Joint Inquiry produced detailed factual findings as 
well as a number of systemic findings. We are fortunate to have 
Eleanor Hill, Staff Director of the Joint Inquiry, here today. 
She is unequaled in her ability to discuss all aspects of the 
Inquiry's conclusions, but since we are here to consider our 
progress in fighting terrorism and securing our homeland over 
the past 2 years, I want to highlight a half dozen of the 
Inquiry's systemic findings this afternoon:
    First, the CIA's failure to watch list suspected terrorists 
aggressively.
    Second, the CIA's lack of a process designed to protect the 
homeland from the terrorist threat.
    Third, the Intelligence Community's insufficient analytical 
focus on al Qaeda and the insufficient quality of that 
analysis, particularly in terms of strategic analysis.
    Fourth, the failure of the U.S. Government to bring 
together in one place all terrorism-related information from 
all sources.
    Fifth, information was not sufficiently shared not only 
between different Intelligence Community agencies but also 
within individual agencies. Nor was information sufficiently 
shared between the Intelligence and Law Enforcement 
Communities.
    Sixth, while technology remains one of this Nation's 
greatest advantages, it has not been fully and most effectively 
applied in support of U.S. counterterrorism efforts.
    The report makes many additional points, of course, but I 
have chosen these six because each of them points to a solution 
the Department of Homeland Security was created to address. The 
Department of Homeland Security is intended to bring together 
and focus the efforts of 22 formerly distinct and disparate 
agencies across the Federal Government. All those agencies and 
their employees now have a single, shared, and overarching 
mission of preventing terrorism, protecting our Nation, our 
people, territory, critical infrastructure, and way of life and 
preparing to respond to another attack should one occur.
    We now talk about State and local governments as partners, 
not as distant, little known, and inconvenient civic cousins. 
The private sector and the government now share a mission: to 
protect the critical infrastructure on which our dynamic 
economy depends. And more than ever before, we look for the 
answers to the otherwise intractable problems of maintaining 
our security to the creativity of our own private sector.
    The Department is, in a sense, the hub of the wheel. It 
holds our entire homeland security enterprise together, focuses 
it and gives us strength, but we must make it still stronger. 
We on this committee have from the outset been pressing for 
full implementation of the Department's statutory mandate. The 
Homeland Security Act requires that there be an intelligence 
analytic unit in the Department, entitled by statute to 
receive, quote, ``all reports, including information reports 
containing intelligence which has not been fully evaluated, 
assessments, and analytical information relating to threats of 
terrorism against the United States.'' That appears in section 
202.
    That the purpose of this is to identify--and now I am again 
quoting from the statute--``and assess the nature and scope of 
terrorist threats to the homeland, detect and identify threats 
of terrorism against the United States, and understand such 
threats in light of actual and potential vulnerabilities of the 
homeland.'' That is section 201(d)(1).
    But what is happening now is that the Department currently 
is relying upon a nonstatutory construct called the TTIC, the 
Terrorist Threat Integration Center, to serve the all-source-
based analytic function. The Department is merely one of its 
customers. That--and I believe my colleagues on both sides of 
the aisle share this view--may be a useful interim approach but 
it is certainly no part of the Homeland Security Act nor the 
intent of Congress in passing it.
    We must use the hard lessons of 9/11 to look forward. We 
all can use the factual and systemic findings of the Joint 
Inquiry's report as a road map, a basis for asking where we are 
and whether we are well on the way to where we must go. We 
think, for example, of two of the 9/11 terrorists slipping in 
and out of the United States, and, 2 years later, ask do we in 
fact have a single consolidated watchlist now; and if we don't, 
why? And where better to place that responsibility than in the 
Department of Homeland Security? We consider the report's 
finding that there were, quote, ``serious problems in 
information sharing prior to September 11th between the 
Intelligence Community and relevant nonintelligence community 
agencies, including other Federal agencies as well as State and 
local authorities.
    We ask 2 years on, has the culture of the Intelligence 
Community adapted to the information sharing requirements of 
the post-9/11 world? Is the Department of Homeland Security 
receiving all the terrorism-related information to which it is 
entitled, regardless of its source? Is the Department getting 
that information to those who need it in order to protect us, 
wherever they are? And this committee will go on, because it is 
the responsibility of our committee, the Select Committee on 
Homeland Security, to assist the new Department in developing 
these capabilities. We will exercise our oversight role 
constructively and responsibly and effectively, because the 
security of the American people depend upon it.
    I want to welcome again Governor Gilmore and Ms. Hill here 
today, and I look forward to your testimony.

 PREPARED STATEMENT OF THE HONORABLE CHRISTOPHER COX, CHAIRMAN, HOUSE 
                 SELECT COMMITTEE ON HOMELAND SECURITY

    The catastrophic terrorist attacks of September 11, 2001, exposed 
the vulnerability of the American homeland and the shortcomings of US 
intelligence services whose mission it is to prevent such attacks. 
Today, on this sad anniversary of the ``9/11'' attacks, in the midst of 
our war on terrorists worldwide, our questions have become more 
seasoned, are now less raw, than they were just two years ago.
    We are here today to ask what lessons our intelligence services 
have learned and how they can be applied to protect the American people 
from another terrorist attack. We ask what went wrong in order to make 
sure that we now have it right--or at least nearly so. We ask what has 
been done these last two years to make us safe against our new everyday 
reality: that terrorists will always, until they and their supporters 
are eradicated, have us, our children, our homeland, and our way of 
life in their murderous sights. We must live with that. And we know 
much has been done, but today we ask: can it be even better?
    In little more than an hour on that beautiful, clear early autumn 
morning, nineteen Middle Eastern hijackers successfully converted four 
heavily fuel laden commercial aircraft into deadly missiles that 
destroyed the majestic World Trade Center in New York City, that blew a 
massive crater into what many thought was the impenetrable Pentagon, 
and that brutally took the lives of 3,000 innocent people. A day that 
brought out the worst from heartless terrorists also brought out the 
best in the American people. We still recall vividly the courageous 
acts of the passengers of United flight 93, who responding to Todd 
Beamer's charge, ``Let's roll,'' attacked the terrorists who had 
commandeered the plane. We saw first responders--police, firefighters, 
and emergency medical personnel--in New York and Washington act with 
great skill and selfless dedication to protect people, to relieve 
suffering, and to contain its damage. As we know, many of them--too 
many of them--lost their own lives in this noble service to others; we 
have not forgotten them.
    As President Bush stated on that awful day, we owe it to these 
victims and to all Americans to ensure that no such attack will ever 
occur again on our soil. The President moved quickly to provide our 
intelligence services with the capabilities they would need to prevent 
terrorism. And he established with Congress, the Department of Homeland 
Security to develop an essential, new capability to enhancing our 
national security, including promoting the integrity of the critical 
infrastructure on which we so heavily depend.
    We won't know how far we've come without recalling where we began. 
The joint inquiry of the House and Senate intelligence committees 
recently published its declassified version of its report. The bottom 
line is we did not know what we needed to know--and what we did know 
did not get where it was most needed when it was needed.
    The joint inquiry produced detailed factual findings, as well as a 
number of systemic findings. We are fortunate to have Eleanor Hill, 
staff director of the joint inquiry, here today; she is unequalled in 
her ability to discuss all aspects of the inquiry's conclusions. But, 
since we are here to consider our progress in fighting terrorism and 
securing our homeland over the past two years, I want to highlight a 
half-dozen of the inquiry's ``systemic findings'' this afternoon.
        1. ``The CIA's failure to watchlist suspected terrorists;'' 
        [#1]
        2. ``[T] lack of emphasis on a process designed to protect the 
        homeland from the terrorist threat;'' [#1]
        3. ``Prior to September 11, the Intelligence Community's 
        understanding of al Qu'aida was hampered by insufficient 
        analytic focus and quality, particularly in terms of strategic 
        analysis.'' [#5]
        4. The failure of the U.S. Government to ``bring together in 
        one place all terrorism-related information from all sources'' 
        [#9]
        5. ``Information was not sufficiently shared, not only between 
        different Intelligence Community agencies, but also within 
        individual agencies, and between the intelligence and the law 
        enforcement agencies.'' [#9]
        6. ``While technology remains one of this nation's greatest 
        advantages, it has not been fully and most effectively applied 
        in support of U.S. counterterrorism efforts.'' [#4]
    The report makes many additional points, of course, but I have 
chosen these six because each of them points to a solution the 
Department of Homeland Security was created to address.
    The Department of Homeland Security is intended to bring together 
and focus the efforts of 22 formerly distinct and disparate agencies 
from across the federal Government. All those agencies and their 
employees now have a single shared and overarching mission: Prevent 
terrorism, protect our nation--our people, territory, critical 
infrastructure, and way of life--and prepare to respond effectively to 
any attack.
    We now talk about State and local governments as partners, not as 
distant, little known, and inconvenient civic cousins. The private 
sector and the Government now share a mission--to protect the critical 
infrastructure on which our dynamic economy depends. And more than ever 
before, we look for the answers to the otherwise intractable problems 
of maintaining our security to the creativity of our private sector. 
The Department is, in a sense, the hub of the wheel. It holds our 
entire, homeland security enterprise together, focuses it and gives it 
strength.
    But we must make it still stronger. We, on this committee have, 
from the outset, been pressing for full implementation of the 
Department's statutory mandate.
    The Homeland Security Act requires that there be an analytic unit 
in the Department entitled, by statute, to receive:
    ``all reports (including information reports containing 
intelligence which has not been fully evaluated), assessments, and 
analytical information relating to threats of terrorism against the 
United States .. . ,'' [sec. 202]
    in order to
    ``identify and assess the nature and scope of terrorist threats to 
the homeland; detect and identify threats of terrorism against the 
United States; and understand such threats in light of actual and 
potential vulnerabilities of the homeland.'' [ 201(d)(1)]
    We have, instead, been hearing that a non-statutory construct 
called the ``TTIC''--the ``Terrorist Threat Integration Center''--is 
going to serve the all-source-based analytic function, with the 
Department as one of its customers. That--and I believe my colleagues 
on both sides of the aisle share this view--was certainly no part of 
the intent of Congress in passing the Homeland Security Act.
    But we must use the hard lessons of ``9/11'' to look forward. And, 
while we can have mixed views of some of the recommendations of the 
joint inquiry, we all can use the factual and systemic findings in the 
joint inquiry's report as a roadmap--a basis for asking where we are 
and whether we are well on the way to where we must go.
    We think, for example, of two of the 9/11 terrorists slipping in 
and out of the United States and, two years later, ask: Do we, in fact, 
have a single, consolidated watch-list now? And if we don't, why--and 
where better to place that responsibility than in the Department of 
Homeland Security?
    We consider the Report's finding that there were ``serious problems 
in information sharing ... prior to September 11, between the 
Intelligence Community and relevant non-Intelligence Community 
agencies,'' including other federal agencies as well as state and local 
authorities? [# 10]. We ask, two years on: Has the culture of the 
Intelligence Community adapted to the information sharing requirements 
of the post-9/11 world? Is the Department of Homeland Security 
receiving all the terrorism related information to which it is 
entitled, regardless of its source, and is the Department getting that 
information to those who need it in order to protect us, wherever they 
are?

    I yield now to the distinguished ranking member of this 
committee, the gentleman from Texas, Mr. Turner, for his 
opening statement.
    Mr. Turner. Thank you, Mr. Chairman. I know as you opened 
your remarks discussing the events of your day on September 
11th of 2001, everyone here also recalled our own experiences. 
And it is still hard to comprehend that we lost over 3,000 
lives, the largest loss of life in a single day in the history 
of our country. We all remember those pictures of the Twin 
Towers, pictures of the Pentagon, the pictures of that gaping 
hole in the ground in the field in Pennsylvania, and we all 
remember the determination in the eyes of those firefighters 
and those rescue workers who went into those infernos to save 
people they did not know. It truly was a dreadful day in 
America, and I think we will all recollect that on that day 
each of us said to ourselves and collectively that never again 
would we be caught unprepared. Never again would we send some 
of our bravest citizens, our police, our firefighters, our 
emergency crews into harm's way, unable to do the basic things 
like communicate with one another. We said never again would we 
allow security gaps to be exploited by those who seek to do us 
harm.
    We have learned a lot over the last 2 years about how 
vulnerable we are to terrorist acts. Our eyes clearly were 
opened on September 11th to the malice and the evil and the 
capability of our enemies, and we also have learned that that 
threat will not abate.
    We have taken important steps over the past 2 years to 
protect America. The men and women of our armed services and 
intelligence services have dismantled the Taliban regime and 
disrupted the senior leadership of al Qaeda. In Congress we 
have taken measures to fortify our seaports, our borders, 
overhaul airport security, provide intelligence and law 
enforcement agencies with tools they need to track down 
terrorists here and abroad.
    We have also created the new Department of Homeland 
Security in an effort to make America more secure. We must do 
all that we can as a committee and as a Congress to ensure that 
that Department is successful. Yet, we all know that much 
remains to be done. It is the goal of this committee, a goal 
that I share with the Chairman and every member, to ensure that 
America is as secure as it can be. We must accept nothing less.
    Today we are doing exactly what we as legislators must do; 
that is, to learn everything we can about the failures that 
enabled the attacks to occur 2 years ago, and then to take 
absolutely every measure possible to prevent it from happening 
again. This hearing is an important part of achieving that 
goal.
    We will hear from two very distinguished experts today 
whose experience in how to prevent and prepare for, and, if the 
worst befalls us, to respond to terrorist attacks have meant 
much to all of us, and I am pleased to welcome each of our 
witnesses.
    Ms. Eleanor Hill comes highly regarded by both sides of the 
aisle in directing the enormously challenging work of the 
Congressional Joint Inquiry into the Terrorist Attacks of 
September 11. The report of that Inquiry led by our colleagues 
Porter Goss, Jane Harman--who serves with us on this 
committee--and minority leader Pelosi propose 19 
recommendations to prevent further terrorist attacks. I have 
read the report and I commend you on the work. And I look 
forward to the thoughts of our witnesses today on how the 
report's recommendations have been implemented over the past 8 
months and what work remains to be done.
    This committee stands ready to work alongside others to 
make whatever change is necessary to meet the difficult 
challenge of preventing and responding to terrorist attacks.
    Governor Gilmore was studying and advocating for homeland 
security before it became a household word. He presided over 
four reports to date as Chairman of the Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism Involving 
Weapons of Mass Destruction, and we look forward to the fifth 
report. It is a testament to the value of these reports that 
the Congress continues to reauthorize your work, Governor. I 
look forward to hearing your testimony on the findings and 
recommendations of the Gilmore Commission. Your recommendations 
have already been incorporated in much of our thinking, and it 
will be helpful to hear from you to allow you to discuss what 
government organizational changes needed to be made now and 
what investments we must make to improve our defenses.
    Homeland security is not a partisan issue, it is an 
American issue, and we all share the same goal: to do all we 
can to prevent terrorist attacks and to fulfill our 
constitutional duty to provide for the common defense. 
Protecting America is the first responsibility of government, 
and nothing else matters if we fail to achieve that goal.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman.
    [The information follows:]

               PREPARED STATEMENT OF THE HON. JIM TURNER

    Tomorrow our nation commemorates the attacks on America that 
changed the history of our nation and the world. Today, and every day, 
we honor the memories of those we lost by redoubling our resolve to do 
all we can to protect America, said Congressman Jim Turner, Ranking 
Member of the House Select Committee on Homeland Security.
    Turner spoke before a meeting of the Committee to discuss the 
results of the Joint Congressional Inquiry on the Attacks of September 
11th.
    We remember the horror of the Twin Towers, the Pentagon and the 
crash in an open field in Pennsylvania. We remember the determination 
on the faces of the firefighters and workers who entered the fiery 
inferno in a valiant attempt to save people they did not know.
    Never again, we said, would we be caught unprepared. Never again 
would we send some of our bravest citizens--our police, firefighters 
and emergency crews-into harm's way unable to communicate with one 
another. Never again would we allow large gaps in our security that 
could be exploited by those who seek us harm.
    ?It is our duty to move faster and stronger to protect America. We 
have been told we are safer than we were on September 11, 2001. But 
that is not the test we must pass. The question before us is ``Are we 
as safe as we must be to protect the American people?''
    Today's hearing is an important step in achieving that goal. We 
will hear from two experts who have significant experience in 
understanding how to best prevent, prepare for and respond to terrorist 
attacks on our nation.
    Today, we are doing exactly what we as legislators must do--learn 
everything we can about the failures that enabled the attacks of two 
years ago to succeed, and then take absolutely every measure in our 
power to prevent them from happening again.
    That is our solemn vow to the American people.

    Chairman Cox. The Vice Chairwoman of the full committee, 
the gentlelady from the State of Washington, Ms. Dunn, is 
recognized for purposes of an opening statement.
    Ms. Dunn. Thank you very much, Mr. Chairman, and I welcome 
our witnesses today and look forward to what they have to say.
    We have come together today, on the eve of the second 
anniversary of 9/11, determined to honor the lives lost on that 
horrible day by continuing our discussion about how to best 
ensure that we don't ever witness another September 11th, 2001.
    The President and Congress have shown an unfaltering 
commitment to this effort. Over $75 billion have been spent 
making our airports safer, securing our seaports, protecting 
our citizens against biological attacks. Everyone recognized 
that reform was needed to coordinate overgrown Federal agencies 
so that critical intelligence would no longer fall through the 
cracks. On March 1st of this year, the Department of Homeland 
Security came to life, harmonizing the efforts of 22 Federal 
agencies all sharing a common mission to wage the war on terror 
here at home.
    The Department of Homeland Security's job is no small one. 
This committee's role is to oversee the Department as it 
organizes and spends resources to protect every aspect of 
security on the homefront, and so far we have been successful. 
There have been no further attacks on United States soil. 
However, we know from reports issued by experts such as the 
witnesses who sit before us today, as well as from firsthand 
knowledge as an oversight committee, that there always is room 
for more improvement. That is why we have made it a priority to 
find out what is working well in this effort and what needs to 
be changed in the first stages before we devote endless amounts 
of resources.
    Like any other Federal Government undertaking, our 
oversight of DHS includes practicing fiscal responsibility and 
continuing to look for the most efficient ways of getting money 
from Washington, D.C. directly to the people who need it. This 
committee must and always will be open to constructive 
discussion about how the homeland security effort can be made 
more efficient and more effective.
    On this day we also recognize how far we have come in 
securing America against terrorism, whether it be as we enter 
the airport gate or as we walk our children to the baseball 
stadium. The permanent safety of the American people is 
paramount to any other responsibility of the Federal 
Government, and Congress will continue to demonstrate, through 
resources appropriated and responsible oversight of the 
Department charged with carrying out that responsibility, our 
commitment to this most critical duty.
    I look forward to the testimony of our witnesses today, and 
I yield back.
    Chairman Cox. I thank the gentlelady.
    Chairman Cox. The gentleman from the State of Washington, 
Mr. Dicks, is recognized for purposes of an opening statement.
    Mr. Dicks. I don't have an opening statement, Mr. Chairman. 
I am going to reserve my time for additional questions.
    Chairman Cox. The gentleman reserves his time, and the 
Chair reminds all members that in lieu of making a 3-minute 
opening statement, it is the member's option to add that time 
to the 5-minute rule for purposes of questioning the witnesses 
if you so desire.
    Next in order of appearance, the Chair would recognize for 
purposes of an opening statement the gentlelady from 
California, Ms. Harman, if you wish to make an opening 
statement.
    Ms. Harman. Thank you, Mr. Chairman.
    Chairman Cox. And as you do that, I want to thank you for 
your role in the preparation of this report. And as I recognize 
each of the members, including Chairman Goss who serves on this 
committee, for the purposes of their opening statement, I will 
do the same. But we are deeply indebted to you for your service 
on this committee, because it will make our coordinating 
function work so much better. Thank you for your service there 
and here.
    Ms. Harman. Thank you, Mr. Chairman, I appreciate that. I 
would also note, as Ms. Hill knows, that the Joint Inquiry was 
the product of 37 members, on a bicameral, bipartisan basis, 
coming together to slog through the tough issues and to produce 
something that is not only readable but extremely useful. Ms. 
Hill had to do the hard work of getting it declassified, and I 
think it would take too many hours to relate all those wars, 
but the recommendations are very valuable, as are the 
recommendations in the four Gilmore reports to date, which I 
also have here, and the one to come, as are the recommendations 
in a lot of other reports that are out there, one of which is 
called the Bremer Commission. That was a commission on which I 
served, and I just hope we all take advantage of the 
information out there that highlights problems and directs us 
to the right fixes.
    Let me make one more comment, which is that on the way over 
here, we all voted on a motion to instruct conferees on the 
homeland security spending legislation. That vote was 347 to 
74. The House can be a bipartisan place, let us remind 
ourselves. What that instruction motion does is to instruct 
conferees to take the highest possible level of funding and 
also insist on the Markey amendment on screening all cargo 
carried on passenger aircraft. I am very pleased that we were 
able to find such a large margin to approve that motion to 
instruct.
    I just have a few brief comments in my remaining minute or 
so, and the first is that good intelligence now more than ever 
is the key to security, internationally and domestically. 
Intelligence is crucial to preventing another deadly terrorist 
attack on America and to winning the war on terrorism. It is 
also crucial to persuading our citizens and other nations of 
the correctness of our policies and actions.
    With respect to the events of September 11, no one will 
ever know what might have happened had more dots been connected 
between the disparate pieces of information, but we do know now 
of the systemic failures that caused a breakdown in our 
intelligence systems, and we are on notice of what it will take 
to fix those failures. And we haven't yet done enough.
    The current instability in Iraq should instruct us that 
good intelligence is more critical than ever in Iraq, and as 
the Ranking Member on the House Intelligence Committee, I am 
absolutely determined to complete our full and unbiased review 
of what went wrong with prewar intelligence and to make sure we 
fix the problem, not in the regular order, but immediately.
    I see Mr. Gibbons here. He is another member of our 
committee. We have a bipartisan culture there, and hopefully it 
will work.
    Finally, Mr. Chairman, let me just say to you that this 
committee has a huge opportunity, not just to make the 
Department of Homeland Security work, which is a critical 
assignment, but also to get it right in terms of the strategy 
that we need to protect the homeland. More Americans will die 
here if we have another major terrorist attack than will die 
probably in Iraq or other places around the world. So we are 
rightly focused here, and I commend you for holding this 
hearing. Thank you.
    Chairman Cox. Thank the gentlelady.
    Chairman Cox. The gentleman from Connecticut.
    Mr. Shays. I would like to reserve my remarks.
    Chairman Cox. All right. The Chairman of the Select 
Committee on Intelligence, the gentleman from Florida, Mr. 
Goss, to whom this entire committee and the American people as 
well, I am sure, owe a debt of gratitude for your work in 
conducting this Joint Inquiry, the gentleman is recognized for 
purposes of an opening statement.
    Mr. Goss. Thank you, Mr. Chairman. I would like to reserve 
my time but extend some of that gratitude to Ms. Hill.
    Chairman Cox. The gentleman from Michigan, the subcommittee 
Chairman on Infrastructure and Border Protection, Mr. Camp.
    Mr. Camp. I will reserve my time, Mr. Chairman.

 PREPARED STATEMENT OF THE HONORABLE DAVE CAMP, CHAIRMAN, SUBCOMMITTEE 
                 ON INFRASTRUCTURE AND BORDER SECURITY

    Thank you Mr. Chairman. I would like to make a brief statement and 
begin by thanking our witnesses, Ms. Eleanor Hill and former Governor 
Jim Gilmore, for joining us for this important hearing.
    September 11th forced our nation to take stock of the international 
threats and our vulnerabilities to those threats. The Gilmore 
Commission, the Hart-Rudman Commission and the Joint Inquiry, along 
with other government and private sector studies and working groups are 
providing new ideas and proposals to address the problems identified by 
the September 11th attacks.
    Since the September 11th terrorist attacks, there has been a major 
shift in focus on and within the Intelligence Community. Although 
international terrorism has been a major concern for the last decade, 
the Intelligence Community did not provide a specific warning of the 
September 11, 2001 attacks. Intelligence agencies face an enormous 
challenge in acquiring information about the composition, location, 
capabilities, plans, and ambitions of terrorist groups. Meeting this 
challenge requires unique and specialized skills.
    Counterterrorism requires strong human intelligence, the use of 
agents to acquire information and, in certain circumstances, to carry 
out covert actions. The importance of recruitment and training has been 
highlighted and need continual support and attention from Congress.
    Countering terrorism also requires close cooperation between law 
enforcement and intelligence agencies. While the bureaucratic obstacles 
that have previously hampered information sharing between different 
intelligence agencies are being addressed, more work needs to be done, 
while remaining watchful of civil liberty and privacy protections. The 
network between federal intelligence agencies and our state and local 
first responders can be strengthened.
    Congress and the Administration created the Department of Homeland 
Security a little over six months ago and tasked the new agency with 
the large responsibility of intelligence analysis and evaluation. 
While, DHS is still organizing and restructuring, Congress has the 
responsibility to provide a clear framework to guide the unprecedented 
and uncertain evolution of intelligence sharing and organization. 
Today's hearing is another step in this oversight process.
    I would again like to thank Ms. Hill and Governor Gilmore for their 
participation and willingness to testify before the Select Committee on 
Homeland Security. Your past experiences in evaluating and in-depth 
analyses of the intelligence environment prior to the terrorist attacks 
are of great value to this Committee.
    I yield back my time.

    Chairman Cox. Let me ask this. Does any member on this side 
wish to be recognized for purposes of an opening statement?
    Does any member on the minority side--oh, I am sorry. Mr. 
Linder. No. I am sorry. Does any member on the minority side 
wish to be recognized for purposes of an opening statement?
    Mr. Pascrell wishes to be recognized and is recognized for 
3 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    The anniversary of the terror attacks against our American 
family looms over us this week, its presence felt in everything 
we do, but I am glad that, along with the congressional 
tributes and remembrances, that this committee is focused on 
specific issues and ideas designed to make Americans safer and 
more secure from those who wish to bring us suffering and pain.
    The victims of September the 11th came from 735 towns and 
cities in 40 different States, all members of one American 
family. My district, like so many others, lost wonderful 
people, brothers and sisters and mothers and fathers, dear 
friends. Fifty-four people from the Eighth Congressional 
District died that day, so I take my role on this committee 
very seriously, as all of you do. And it is with great 
frustration that we sit here, 2 years after the attacks, with 
much more still to do. There is still no single database or an 
integrated list of suspected terrorists for the worldwide use 
of intelligence officers, Federal, State and local law 
enforcement, border inspectors and immigration officials. State 
and local law enforcement officials, at least in my district, 
currently receive inadequate levels of information from the 
Federal Government. And there is still no threat vulnerability 
assessment. Yet, we are spending money, perhaps much of it 
being misused.
    These are things that must be completed. One could argue 
that all other items on the agenda should not have been up for 
discussion until we took care of these national security needs 
earlier. So before us today are two distinguished professional 
people who have given up large portions of their lives to study 
homeland security. I appreciate their willingness to be before 
us today.
    In the report, Mr. Chairman, on page 5 in the Executive 
Summary, we talk about the Intelligence Community failed to 
capitalize on both the individual and collective significance. 
And I take issue with that, because the Intelligence Committee 
really is a reflection of those in Washington who determine 
foreign policy for this Nation. And it would seem to me that if 
we are going to direct criticism at that Intelligence 
Committee, we ought to be a lot more careful in examining the 
very foreign policy which created and precipitated terror 
throughout this country and continues to do throughout this 
world.
    A foreign policy to a point should not be color-blind, 
culturally blind, or spiritually blind. And if it is, we must 
understand what the consequences may be. What in foreign policy 
stimulated perhaps and precipitated terror? What in our foreign 
policy continues to do that? And I mean this for both political 
parties.
    Which leads me to a final point, Mr. Chairman, if I may.
    Chairman Cox. The gentleman's time has expired.
    Mr. Pascrell. I make a suggestion to this committee that we 
change what we look like. And my suggestion today through the 
Chair, and not for discussion but hopefully would be 
considered, that this committee which is statutorily--which 
statutorily exists, fashion itself after the Ethics Committee, 
which is the only other committee that I know of in the 
Congress of the United States which is split 50-50 where we 
have co-chairmanships. If the issue of protecting our children 
and our grandchildren and our neighborhoods is so significant--
and I believe it is, and all of us here think that it is--then 
this committee should be absolutely bipartisan and we should 
have shared chairmanships in order to move on. This is a 
disservice to the majority and a disservice to the minority 
where we move more political than in the public's interest, Mr. 
Chairman, and I ask that this be taken under consideration at a 
proper time.
    Chairman Cox. I appreciate the gentleman's suggestion. The 
gentleman's time is expired.
    Chairman Cox. Does any other member on the minority side 
seek to be recognized? The gentlelady from New York, Mrs. 
Lowey, is recognized for 3 minutes.
    Mrs. Lowey. Thank you, Mr. Chairman. I would like to join 
you in welcoming our witnesses, and we look forward to your 
testimony.
    Tomorrow many of us will return home to commemorate 
September 11th in our communities, and as I meet with my 
constituents, with first responders and doctors, school 
superintendents and parents, those families and that day are 
always in our minds.
    Today we will discuss opportunities and challenges to 
increase homeland security, but we must remember the people we 
represent, and on Sept. 11th as today, our communities depend 
first and foremost on firefighters and police to protect them 
and to help them in times of crisis. And I believe it is the 
responsibility of this Congress to make sure that local 
communities are prepared to prevent or respond to an attack.
    So as we look through this material, we always have to keep 
our local communities in mind. And with this hearing, I hope we 
have time to address intelligence as it relates to local 
communities. It is extremely important that first responders be 
integrated into our national intelligence network, and this has 
been discussed at previous meetings, but with the information I 
have to date, it has not been done effectively.
    So as far as I am concerned, it is important that they can 
also contribute to intelligence gathering, prevention and 
response to an attack in ways that are both smart and 
effective. They must be able to communicate quickly with 
Federal, State, and other local officials in order to have a 
clear understanding of the situation and to react in the best 
and fastest possible way.
    And there are many lessons, as we know, that we learned 
about September 11th. Let's have no doubt that one of the most 
important one centers on people; within the buildings and 
cities targeted on September 11th were people from all over the 
world. Our community, the idea of America, was attacked. We are 
here today to make our country better prepared, and to do that 
we must make sure that our communities are better prepared.
    So I want to thank the witnesses once again for joining us, 
and I will save the balance of my time for questions. Thank 
you.
    Chairman Cox. Thank the gentlelady.
    Chairman Cox. Who seeks recognition?
    Ms. Slaughter. Mr. Chairman, I have an opening statement, 
but in the interest of time I would ask unanimous consent to 
just insert it in the record.
    Chairman Cox. By all means. Without objection, so ordered.
    [The information follows:]

   PREPARED STATEMENT OF THE HONORABLE LOUISE McINTOSH SLAUGHTER, A 
         REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK

    With this anniversary, we remember one of the greatest tragedies in 
our nation's history. We commemorate the three thousand innocent lives 
that were lost when terrorists murdered in the name of hate. We pay 
tribute to the bravery and courage displayed by the first responders 
who served in New York City, at the Pentagon and in Pennsylvania. We 
pray for the families who lost loved ones on that terrible day.
    From the calamity emerged strength, hope and an outpouring of 
charity that could happen only in America. All Americans came together 
to support each other and aid victims. In my district, thousands opened 
their hearts to help the harmed. Without a second thought, dozens of 
firefighters, paramedics and other first responders rushed to New York 
City. Ordinary citizens got in their cars and drove for hours to offer 
their help.
    Businesses and citizens gave whatever they could. Wegman's Food 
Markets literally sent tons of food and supplies to New York City. 
LaRocca's restaurant in Rochester opened up on their day off and gave 
all their profits to the Red Cross. Mitchell Green, a 5-year-old from 
Rochester, raised $50 for the Red Cross by selling American flags he 
printed out. Hundreds of other children in Western New York collected 
pennies, washed cars or sold lemonade to raise money for victims.
    Acts likes these helped our nation to emerge stronger and more full 
of pride than ever before. We stand unified in the war against terror 
and the battle to protect/maintain America's freedom.
    Eternal vigilance is the price of liberty. Even as we pause to 
remember so must we move forward. Duty obliges us to prepare, prevent, 
and protect. This committee and this Congress must remain ever vigilant 
in our ongoing efforts to secure this great nation. Thank you for 
taking the time to appear before us today and share the results of your 
hard work.

    Chairman Cox. The gentlelady from--oh, I am sorry, Mr. 
Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. I ask--
    Chairman Cox. Mr. Etheridge is recognized for 5 minutes for 
purposes of an opening statement.
    Mr. Etheridge. I ask unanimous consent that the balance of 
my statement be included in the record.
    Chairman Cox. Without objection.
    Mr. Etheridge. I have a brief opening statement.
    Let me welcome our witnesses today, and like all Americans 
I will never forget the experience of 9/11 and where I was. We 
were having our annual meeting of roughly 200 business people 
from North Carolina who were here in Washington that day, and 
they were in a seminar at the time that a plane crashed into 
the World Trade Center. I remember seeing with my own eyes the 
smoke pouring out of the Pentagon as we walked out of the 
building to evacuate it. And I will never forget the sight of 
that proud building, which represents so much of our Nation's 
strength, charred and wounded. Among all of us there was fear 
for our own situation and grief for those that we had lost, but 
there was an underlying defiance that we would never be 
cowered.
    Since then, Congress has made great strides in our efforts 
to protect our Nation. Last year we passed a Homeland Security 
Act which established the Department of Homeland Security. This 
year saw the formation of this Select Committee on Homeland 
Security which has been charged with the oversight of that 
newly created Department.
    However, my service on this committee has given me the 
opportunity here in all of the evolution of the Department and 
meet with many first responders, as my colleague first talked 
about, and we need to do more in this area. We aren't doing as 
much as we need to. I am afraid that our progress is slowing, 
and other events are drawing attention away from the critical 
need to secure our Nation from terrorist threats.
    Ms. Hill has appropriately pointed out that the 
administration has not learned the right lessons from the al 
Qaeda terrorists. The American people deserve to know that the 
leaders of the Federal Government are taking all appropriate 
actions to protect them from harm, and this administration's 
effort has been inadequate thus far.
    Recent news reports as well of the two distinguished 
witnesses today clearly indicate the need to make the Select 
Committee on Homeland Security permanent, and clarifies 
jurisdiction and oversight function. And I would trust the 
leadership of this House would move forward and ensure that 
this body will be permanent and empower the committee to carry 
out its necessary functions.
    I will reserve the balance of my time and insert the 
balance in the record, Mr. Chairman.
    Chairman Cox. I thank the gentleman.
    [The information follows:]

              PREPARED STATEMENT OF THE HON. BOB ETHERIDGE

    Thank you, Chairman Cox and Ranking Member Turner, for giving 
members of the Homeland Security Committee the opportunity to speak 
about our experiences on 9/11 and share some thoughts on the progress 
our nation has made in the areas of domestic security.
    Like all Americans, I will never forget my experiences on 9/11. We 
were in the middle of our annual Washington meeting with members of 
North Carolina's business community. There were about 200 people from 
across North Carolina in a seminar with us, when we learned that a 
plane had crashed into the World Trade Center.
    I remember seeing with my own eyes the smoke pouring out of the 
Pentagon. I will never forget the sight of that proud building, which 
represents so much of our nation's strength, charred and wounded. Among 
all of us, there was fear for our own situation and grief for those who 
had been lost, but there was an underlying defiance that we would not 
be cowered.
    Since then Congress has made great strides in its effort to protect 
our nation. Last year we passed the Homeland Security Act which 
established the Department of Homeland Security. This year saw the 
formation of the Select Committee on Homeland Security, which was 
charged with oversight of the newly created Department. It is an honor 
to join so many other distinguished members of the House and to serve 
under the solid leadership of Chairman Cox and Ranking Member Turner.
    However, my service on this Committee has given me the opportunity 
to hear a follow the evolution of the Department of Homeland Security 
and meet with first responders from all over my state. I'm afraid that 
our progress is slowing, and other events are drawing attention away 
from the critical need to secure our nation from terrorist threats.
    Ms. Hill has appropriately pointed out that the Administration 
still has not learned the right lessons about the Al Qaida terrorists. 
The American people deserve to know that the leaders of the federal 
government are taking all appropriate actions to protect them from 
harm, and this Administration's effort has been inadequate at best.
    Recent news reports, as well as the reports of the two 
distinguished witnesses today clearly indicate the need to make the 
Select Committee on Homeland Security permanent and clarify its 
jurisdictional and oversight functions once and for all.
    Unfortunately, the Republican leadership in the House has failed to 
provide the assurance that this body will permanently empower the 
Committee to carry out these necessary functions.
    On Sunday the President indicated that terrorists continue to 
threaten our nation, so we must put aside our differences and give this 
committee the authority it needs to provide effective oversight of the 
Department of Homeland Security's critical functions.
    I also want to take this opportunity to mention the need for our 
leaders to recognize the danger terrorists pose to our nation's 
agricultural system and food supply. A bioterror attack could have 
devastating and far-reaching consequences on our nation's economy. 
Although people would not lose their lives, the impact on the 
agricultural and transportation systems could bring our economy to its 
knees, and it is already crouching now.
    Agriculture is hugely important to North Carolina and this nation, 
and I want this committee to conduct a field hearing in my district to 
hear from folks on the front lines of what could be one of our most 
vulnerable soft targets for terrorist attack.
    Finally, I would like to close by thanking our witnesses for their 
testimony here today, and to remember the victims, and heroes of that 
tragic day two years ago.

    Chairman Cox. The gentlelady from the District of Columbia, 
Delegate Eleanor Holmes Norton, is recognized for purposes of 
an opening statement for 3 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I too want to welcome 
today's witnesses and look forward to clarifications from them 
in light of their most important reports.
    9/11 is likely to be for this generation what the 
assassination of President Kennedy was for my generation. That 
is to say, the event by which other events will be measured, 
the event that makes you ask where were you on that date. But I 
know where I was: with three school children and three teachers 
who went down in that plane in the Pentagon along with a 
significant number of other D.C. residents, the school children 
and the teachers who were being rewarded for good marks and for 
service to their schools.
    Of course today we are told that we should direct ourselves 
to the threat against our homeland in Iraq. Maybe so. But this 
committee is going to be held accountable for vulnerabilities 
to the homeland right under our nose. That is why the two 
reports are so important.
    I want to raise two issues right under our noses, not in a 
faraway land, that concern me and that are simply 
representative, I think, of the plethora of outstanding issues: 
the absence of clear intelligence priorities based on threats 
and vulnerabilities. What am I to do when the security chief at 
Union Station comes to see me and says that there is nothing 
that has been done about security in the train system? The 
station is the center of the commuter train travel across 
boundaries. He talks about tracks, passengers, cargo. How am I 
to assess whether that--whether we are where we should be in 
that regard, with no sense of what the priorities in homeland 
security are in the first place? I can't tell him, well, we are 
going to get to that. I can't tell him that is happening. This 
is the kind of problem that I think that--and he comes to see 
me in part because I am a member of the Homeland Security 
Committee.
    Or, let's take charter service. It is down in this region. 
But generally it is a part of airline service. We haven't even 
gotten to that yet. When are we going to get to it? Where does 
it stand in the priorities?
    Or, you look at television, and somebody says that there is 
construction and an airport is wide open. Very different from 
if you happen to be an employee at the airport. How am I to 
measure whether that is good or bad if there are no priorities 
that exist that I can point to that I know we are getting to or 
we have gotten there?
    Finally, let me say a word about watchlists. If you happen 
to represent the Nation's Capital, you live here and you know 
that 2 years after 9/11 there still isn't any database of 
suspected terrorists from around the world, you really don't 
feel safer than you did on 9/11. I don't want to oversimplify 
this, but we are not asking that all the terrorists in the 
world be identified, just that they be put in one place on the 
same list, and that local and State officials have access to 
them. I know this is more than pushing a button or doing a 
computer run, but it does seem to me that 2 years later, one 
list somewhere where local law enforcement officers or people 
at ports of entry can go to is not too much to ask.
    Those are representative of the kind of tasks, issues, that 
I think need to be raised here this afternoon. And I thank you, 
Mr. Chairman.
    Chairman Cox. Thank the gentlelady.
    Chairman Cox. Does any other member seek recognition?
    Mr. Langevin.
    Mr. Langevin. Mr. Chairman, I ask unanimous consent to--
    Chairman Cox. Mr. Langevin is recognized for 3 minutes for 
purposes of an opening statement.
    Mr. Langevin. Could I just ask unanimous consent to insert 
my statement into the record?
    Chairman Cox. All members are advised that the record will 
be left open for the balance of the week, until the close of 
business on Friday, for purposes of additions to the record. 
Without objection.
    Chairman Cox. Does any other member seek recognition? If 
not, I invite our witnesses to the table. And while our 
witnesses are taking their seats, I want to thank all of the 
members of this committee--Mr. Goss, Ms. Harman, Mr. Boehlert, 
Mr. Gibbons-- who served on the Joint Inquiry for your work in 
getting us to this point. We look very much forward, Governor 
Gilmore, Ms. Hill, to your testimony today.
    Normally we ask that witness statements be limited to 5 
minutes, but by prior arrangement with the committee, Ms. Hill, 
your testimony is going to be summarized in something more like 
7 to 8 minutes. Take the time that you think is necessary for 
that purpose, because this is an important topic.
    Welcome.

 STATEMENT OF ELEANOR HILL, STAFF DIRECTOR, JOINT INTELLIGENCE 
                       COMMITTEE INQUIRY

    Ms. Hill. Thank you, Mr. Chairman. I have--
    Chairman Cox. We need your microphone.
    Ms. Hill. Thank you. I have a long written statement which 
I would like to offer to be included for the record, but I am 
going to try to briefly summarize it.
    Part of the hazards of writing a report that is 800 pages 
and is full of facts is that it is very difficult to summarize 
that in a few minutes, but I think I can do that.
    So with that preface, good afternoon, Chairman Cox, Ranking 
Member Turner, and members of the committee. I appreciate your 
invitation to discuss with you the final report of the Joint 
Inquiry by the House and Senate Intelligence Committees which, 
as you know, focused on the activities of the Intelligence 
Community as they related to the terrorist attacks of September 
11th and, as such, is clearly relevant to your focus on 
homeland security.
    Several members of this committee, as you know--Mr. Goss, 
Ms. Harman, Mr. Boehlert and Mr. Gibbons--also served on our 
Joint Inquiry. They have considerable familiarity with these 
issues, and I am sure they will prove tremendously helpful to 
you as this committee considers how to best apply the lessons 
of September 11 to the challenges of homeland security.
    Our unclassified version of the Joint Inquiry's report was 
released on July 24th, 2003, and it numbers over 800 pages in 
length. That report was the culmination of a tremendous and I 
believe unprecedented amount of joint work and joint effort by 
two permanent congressional committees, which included review 
of 500,000 pages of relevant documents, investigative 
interviews and discussions with over 600 individuals, testimony 
and evidence produced at 13 closed sessions of the two 
committees, and 9 public hearings and nearly 7 months of 
difficult and often frustrating declassification negotiations 
with the Intelligence Community.
    From the outset, the inquiry faced considerable, even 
daunting challenges: a huge amount of investigative work in a 
limited time frame, undertaken by two House and Senate 
committees with a single nonpartisan investigative staff, 
during a period of unquestioned national crisis, emotional 
upheaval, and open skepticism about the effectiveness and the 
objectivity of a congressional review. Given all those 
circumstances, any chance of success would have been impossible 
absent strong, steady, and committed leadership at the helm.
    In the House we were very fortunate to have Chairman Goss 
and Ranking Member Pelosi, and, in the Senate, Chairman Graham 
and Vice Chairman Shelby. I cannot tell you how important their 
support and their constant determination to work together was 
to our ability to uncover the facts and to achieve bipartisan 
consensus on recommendations.
    Let me just say a few words about Chairman Goss, who is a 
member of your committee and is here this afternoon, and with 
whom I have had the very great pleasure and privilege of 
working throughout the course of this Joint Inquiry. Much of 
the Inquiry's success can be and should be credited to his very 
hard work, his unflagging support, and his strong commitment to 
follow the facts thoroughly and objectively throughout the 
entire effort. In short, he made my job far easier, and I thank 
him again for his help and support.
    With that, let me skip over some of this and focus on three 
of the repeated themes that I think run through the systemic 
findings. My statement goes into much more detail as to the 
factual systemic findings and also the recommendations.
    The report does have 16, what we term systemic findings, 
which identify and explain systemic weaknesses that the 
committees felt hindered the Intelligence Community's 
counterterrorism efforts prior to September 11th. Many of those 
findings relate in whole or in part to three problem areas 
that, at least in my view, are critically important and 
repeatedly surface throughout the course of the Inquiry. Those 
three are a lack of access to relevant information, a lack of 
adequate focus on the terrorist threat to the domestic United 
States, and a lack of sufficient quality in both analytic and 
investigative efforts.
    On the topic of access, even the best intelligence will 
prove worthless if our Intelligence Community is unable to 
deliver that intelligence to those who need it in time for them 
to act on it. The report finds that within the community, 
agencies did not adequately share relevant counterterrorism 
information for a host of reasons, including differences in 
missions, legal authorities, and agency cultures.
    Serious problems in information sharing also persisted 
between Intelligence Community agencies and other Federal 
agencies as well as State and local authorities. The report 
contains numerous examples of these problems. The information 
on al-Midhar and al-Hazmi's travel to the United States, 
despite numerous opportunities, never reached the San Diego FBI 
in time for them to capitalize on their informant's contacts 
with the two hijackers.
    Prior to September 11th, the Phoenix electronic 
communication was not shared with the FBI agents handling 
Zacarias Moussaoui or with the FBI agent whose informant knew 
that al-Hazmi was taking flight training in Arizona which, of 
course, was part of the subject of of the Phoenix memo.
    The Phoenix memo was also not shared even with the FAA. The 
FAA also did not receive all of the intelligence reporting on 
the possible use of aircraft as weapons. The CIA also did not 
provide the State Department with almost 1,500 terrorism-
related intelligence reports until after September 11th. Other 
nonintelligence Federal agencies as well as State and local 
authorities complained about their lack of access to relevant 
intelligence. Even Intelligence Community analysts complained 
about their inability to have access to raw but highly relevant 
intelligence information held within other Intelligence 
Community agencies.
    Lack of focus. Even in instances where relevant information 
was available, there was a lack of sufficient focus on the bin 
Laden threat to the domestic United States.
    The report concludes that the U.S. foreign intelligence 
agencies paid inadequate attention to the potential for a 
domestic attack, and that, at home, counterterrorism efforts 
suffered from the lack of an effective domestic intelligence 
capability.
    Again, examples are plentiful in the report. While the DCI 
had declared war on bin Laden in December of 1998, the Director 
of the National Security Agency at the time told the Inquiry 
that he believed, quote, ``The DCI was speaking for CIA only.'' 
The report found that prior to September 11th neither the FBI 
nor NSA focused on the importance of identifying and then 
ensuring coverage of communications between the United States 
and suspected terrorist facilities abroad. And the report goes 
on to state that, in fact, we now know that one of the 
hijackers did communicate with a known terrorist facility in 
the Middle East while he was living in the United States.
    Former Secretary of Defense John Hame told the Inquiry that 
he could not recall ever seeing an intelligence report on the 
existence of terrorist sleeper cells in the United States. He 
noted, ``We thought we were dealing in important things, but we 
missed the domestic threat from international terrorism.''
    Former National Coordinator for Counterterrorism, Richard 
Clark, stated that when he visited FBI field offices to 
increase their focus on al Qaeda, quote, ``I got sort of blank 
looks of what is al Qaeda.'' The FBI counterterrorism agent 
responsible for the informant that had contacts with the 
hijackers told the Inquiry he never discussed bin Laden or al 
Qaeda with that informant before September 11th, because that 
was, quote, ``not an issue in terms of my assignments.''
    The former chief of the Counterterrorist Center's bin Laden 
unit testified that between 1996 and 1999, ``the rest of the 
CIA and the Intelligence Community looked on our efforts as 
eccentric and at times fanatic.''
    Finally, lack of quality. The report cites quality problems 
in two critically important areas: analysis and investigation. 
In analysis, the report concludes that there was a dearth of 
creative, aggressive analysis targeting bin Laden and a 
persistent inability to comprehend the collective significance 
of individual pieces of intelligence. There was little or no 
analytic focus on, for example, reports about terrorist 
interests in aircraft as weapons and reports on the likelihood 
that Khalid Shaikh Mohammed was recruiting individuals for 
terrorist activity within the United States.
    The former FBI Assistant Director for Counterterrorism, 
quote, ``could not recall any instance where the FBI 
headquarters' Terrorism Analytic Unit produced an actual 
product that helped out.''
    Richard Clark testified that the FBI, quote, ``never 
provided analysis to us even when we asked for it, and I don't 
think that throughout that 10-year period we had any analytical 
capability of what was going on in this country.''
    In investigations, the report concluded that the FBI was 
unable to identify and monitor effectively the extent of 
activity by al Qaeda and other international terrorist groups 
operating in the United States. While in the United States, a 
number of hijackers successfully eluded FBI detection despite 
their interaction with subjects of FBI counterterrorism 
investigations. Even after the CIA watch-listed al-Midhar and 
al-Hazmi on August 23, 2001, there was less than and all-out 
investigative effort to locate what amounted to two bin Laden 
associated terrorists in the United States during a period when 
the terrorist threat level had escalated to a peak level.
    While the Inquiry found, in its own review of CIA and FBI 
documents, information suggesting specific sources of foreign 
support for some of the hijackers while they were in the United 
States, CIA and FBI officials were unable to definitively 
address the extent or the nature of such support despite the 
serious national security implications of that information. The 
FBI Director acknowledged that it was the Joint Inquiry's 
report that brought some of these facts, which were found in 
CIA and FBI documents, to his attention.
    The Inquiry referred this material to the FBI and CIA for 
further investigation, and the report notes that only recently 
and in part due to the Inquiry's focus on the issue did the CIA 
and FBI strengthen efforts in those areas.
    In closing, let me underscore the importance of the thought 
conveyed by the title of today's hearing, ``Perspectives on 9/
11: Building Effectively on Hard Lessons.'' Those of us 
associated with the Joint Inquiry are convinced that there is 
indeed much to be learned from the story of September 11th, 
both for the Intelligence Community and for our Nation. The 
lessons are hard, they are bitter, and they are tragic, but the 
importance of their message is undeniable. They are our 
clearest road back to a far safer and brighter future for all 
Americans. The Joint Inquiry's report can, I believe, serve as 
an excellent road map for that journey.
    Thank you, Mr. Chairman. I will be, obviously, glad to 
answer any questions.
    Chairman Cox. Thank you, Ms. Hill.
    [The statement of Ms. Hill follows:]

                 PREPARED STATEMENT OF MS. ELEANOR HILL

    Good afternoon, Chairman Cox, Ranking Member Turner, and Members of 
the Committee. I very much appreciate your invitation to discuss with 
you the Final Report of the Joint Inquiry by the House and Senate 
Intelligence Committees. That Inquiry focused on the activities of the 
Intelligence Community as they related to the terrorist attacks of 
September 11th, 2001 and, as such, is clearly relevant to this 
Committee's focus on homeland security. Several Members of this 
Committee--Mr. Goss, Ms. Harman, Mr. Boehlert, and Mr. Gibbons--also 
served on the Joint Inquiry. Their considerable familiarity with these 
issues will also, I am sure, prove tremendously helpful as this 
Committee considers how to best apply the lessons of September 11th to 
the challenges of homeland security.
    As you know, on July 24, 2003, an unclassified version of the Joint 
Inquiry's Report, numbering over 800 pages in length, was publicly 
released. That Report was the culmination of a tremendous, and 
unprecedented, amount of joint work and joint effort by two permanent 
Congressional Committees, including: the review of 500,000 pages of 
relevant documents; investigative interviews and discussions with over 
600 individuals; testimony and evidence produced at 13 closed sessions 
and 9 public hearings; and nearly seven months of difficult and often 
frustrating declassification negotiations with the Intelligence 
Community. I served as the Joint Inquiry's staff director and, as a 
result, this report, and the investigation and hearings on which it is 
based, consumed most of my focus and my life for the last year. It was, 
in all respects, an intense and extraordinary experience for me. I am, 
in short, grateful and glad to have been a part of the Committees' 
historic and bipartisan effort to move the country forward, in a 
constructive manner, from the trauma of September 11th.
    From the outset, the Inquiry faced considerable, even daunting, 
challenges: a huge amount of investigative work in a limited timeframe, 
undertaken by two House and Senate Committees with a single nonpartisan 
investigative staff, during a period of unquestioned national crisis, 
emotional upheaval, and open skepticism about the effectiveness and 
objectivity of a Congressional review. Given all those circumstances, 
any chance for success would have been impossible absent strong, 
steady, and committed leadership at the helm: - in the House, we were 
fortunate to have Chairman Goss and Ranking Member Pelosi, and, in the 
Senate, Chairman Graham and Vice Chairman Shelby. I cannot tell you how 
important their support and their determination to work together was to 
our ability to uncover the facts and to achieve bipartisan consensus on 
recommendations of substance for needed reform. Let me say just a few 
words about Chairman Goss, who also serves on this Committee, and with 
whom I have had the great pleasure and privilege of working throughout 
the course of the Joint Inquiry. Much of the Inquiry's success can be 
credited to his hard work, his unflagging support, and his strong 
commitment to ``follow the facts'' thoroughly and objectively 
throughout the entire effort. In short, he made my job far easier and I 
thank him again for his help and his support.
    Let me now turn to the unclassified version of the Joint Inquiry's 
Report, which is the focus of today's hearing. As I mentioned, the 
Report is quite lengthy and sets forth numerous findings and 
recommendations, along with a considerable amount of supporting 
discussion and factual detail. My testimony is intended to highlight, 
as you requested, some of the Report's central themes and some, but not 
necessarily all, of the findings and recommendations. For a more 
complete picture, I encourage the Members of this Committee to read the 
findings, discussion, and recommendations sections of the Report.
    Taken together, those findings and recommendations reflect, to a 
large degree, the Joint Inquiry's three principal goals:
    - Determine what the Intelligence Community knew or should have 
known prior to September 11th, regarding the international terrorist 
threat to the United States, including the scope and nature of any 
possible terrorist attacks against the United States and its interests;
    - Identify any systemic problems that may have impeded the 
Intelligence Community's ability to discover and prevent the September 
11th attacks in advance; and
    - Make recommendations for reform to correct those problems and 
thus improve the Intelligence Community's ability to prevent similar 
attacks in the future.

        Factual Findings
    The Report begins with a series of ``factual findings'', which 
speak to the question of what the Intelligence Community did or did not 
know, or should have known, prior to September 11th, 2001, regarding 
the attacks. Supported by discussions of specific facts, documents, and 
testimony compiled by the Inquiry, these findings include:
    - While the Community had amassed a great deal of valuable 
intelligence regarding Usama Bin Ladin and his terrorist activities, 
none of it identified the time, place and specific nature of the 
September 11th attacks. While there was no single ``smoking gun'', the 
Report confirms that the Community had various other information that 
was both relevant and significant;
    - During the spring and summer of 2001, the Intelligence Community 
experienced a significant increase in the information indicating that 
Bin Ladin intended to strike United States interests in the very near 
future. The National Security Agency (NSA), for example, reported at 
least 33 communications indicating a possible, imminent terrorist 
attack in 2001. Senior U.S Government officials were advised by the 
Intelligence Community on June 28 and July 10, 200l, for example, that 
the attacks were expected to ``have dramatic consequences on 
governments or cause major casualties'' and that ``[a]ttack 
preparations have been made.'' An August 2001 Assessment by the DCI's 
Counterterrorist Center (CTC) reported: ``for every UBL operative that 
we stop, an estimated 50 operatives slip through our loose net 
undetected. Based on recent arrest, it is clear that UBL is building up 
a worldwide infrastructure which will allow him to launch multiple and 
simultaneous attacks with little or no warning''. Some Community 
personnel described the 2001 increase in threat reporting as 
unprecedented;
    - Beginning in 1998 and continuing into the summer of 2001, the 
Intelligence Community received a modest, but relatively steady stream 
of reporting that indicated the possibility of terrorist attacks within 
the United States. A 1998 intelligence report, for example, suggested 
``UBL is planning attacks in the U.S. [---------] says plans are to 
attack in NY and Washington. Information mentions an attack in 
Washington probably against public places. UBL probably places a high 
priority on conducting attacks in the U.S. ...CIA has little 
information on UBL operatives in the U.S.'' In August 2001, a closely 
held intelligence report for senior government officials advised that 
al-Qa'ida members had resided in or traveled to the United States for 
years and maintained a support structure here. The same report 
included, among other things, FBI judgments about patterns of activity 
consistent with hijackings or other forms of attacks as well as 
information acquired in May 2001 that indicated a group of Bin Ladin 
supporters was planning attacks in the United States with explosives. 
Nonetheless, the predominant Community view, during the spring and 
summer of 2001, was that the threatened Bin Ladin attacks would occur 
overseas. The FBI's Executive Assistant Director for Counterterrorism, 
for example, testified that, in 2001, he thought there was a ``98 
percent'' chance that the attack would be overseas;
    - From at least 1994, the Community had received information 
indicating that terrorists were contemplating, among other means of 
attack, the use of aircraft as weapons. In 1998, for example, 
information was received about a Bin Ladin operation that would involve 
flying an explosive-laden aircraft into a U.S. airport and, in summer 
2001, about a plot to bomb a U.S. embassy from an airplane or crash an 
airplane into it. There was also information suggesting Bin Ladin's 
interest in targeting civil aviation within the United States. In 1998, 
for example, intelligence information indicated that ``...member of UBL 
was planning operations against U.S. targets. Plans to hijack U.S. 
aircraft proceeding well. Two individuals [-------------] had 
successfully evaded checkpoints in a dry run at a NY airport.'' This 
kind of information did not, however, stimulate any specific 
Intelligence Community assessment of, or collective U.S. government 
reaction to, the possible use of aircraft as weapons in a terrorist 
attack;
    - Although, prior to September 11th, relevant information that is 
significant in retrospect regarding the attacks was available to the 
Intelligence Community, the Community failed to focus on that 
information and to appreciate its collective significance in terms of a 
probable terrorist attack. As a result, the Report concludes that the 
Community missed opportunities to disrupt the September 11th plot by 
denying entry to or detaining would-be hijackers; to at least try to 
unravel the plot through surveillance and other investigative work 
within the United States, and to generate a heightened state of alert 
and thus harden the homeland against attack. The Report details the 
information which the Community failed to capitalize on, including:
    - information, which lay dormant within the Community for as long 
as 18 months, that two Bin Ladin associated terrorists would likely 
travel to the United States. The two were Khalid al-Mihdhar and Nawaf 
al-Hazmi, who would ultimately be among the hijackers that crashed 
American Flight 77 into the Pentagon on September 11th. Although the 
CIA knew in January 2000 of al-Mihdhar's likely travel to the United 
States and in March 2000 of travel to the United States by al-Hazmi, 
the CIA missed repeated opportunities to act on this information and 
did not watch list those individuals until August 23, 2001. Despite 
providing the FBI with other, less critical information about the 
Malaysia meeting of al Qa'ida associates attended by the hijackers, the 
CIA did not advise the FBI of their travel to the U.S. until August 23, 
2001. The DCI acknowledged in his testimony that CIA personnel ``did 
not recognize the implications of the information about al-Hazmi and 
al-Mihdhar that they had in their files''. A CIA analyst told the 
Inquiry that he did not tell New York FBI agents, whom he met with in 
June 2001, about al-Mihdhar's and al-Hazmi's travel to the United 
States, because the information ``did not mean anything'' to him, since 
he was interested in terrorist connections to Yemen;
    - during the summer of 2000, a longtime FBI counterterrorism 
informant had numerous contacts with hijackers al-Mihdhar and al-Hazmi, 
while they were living in San Diego, California. The same FBI informant 
apparently had more limited contact with a third hijacker, Hani 
Hanjour, in December 2000. The San Diego FBI office, which handled the 
informant, did not receive, prior to September 11th, any of the 
intelligence information on al-Mihdhar or al-Hazmi that the CIA had as 
early as January 2000 and that FBI headquarters had in August 2001. The 
FBI agent responsible for the informant testified that, had he had such 
information, he would have canvassed sources, found the hijackers, and 
``given them the full court press? in terms of investigation and 
surveillance. He believes he could have uncovered the hijackers'' 
future plans through investigative work. The Report concludes that 
``the informant's contacts with the hijackers, had they been 
capitalized on, would have given the San Diego FBI field office perhaps 
the Intelligence Community's best chance to unravel the September 11th 
plot;
    - information indicating, prior to September 11th, the existence of 
an al-Qa'ida support network inside the United States. Consistent with 
that information, the Report illustrates not only the reliance of at 
least some of the hijackers on the potential support network, but also 
the ease with which they operated despite the FBI's pre-- September 
11th domestic coverage. While former National Security Advisor Sandy 
Berger testified that the FBI had advised policymakers that ``al-Qa'ida 
had limited capacity to operate in the United States and [that] any 
presence here was under [FBI] surveillance'', the Report confirms that 
at least some of the hijackers operated well within the scope of the 
FBI's coverage of radical Islamic extremists within the United States 
and yet completely eluded FBI detection. Several hijackers, including 
Hani Hanjour, Mohammed Atta, Marwan al-Shehhi, Nawaf al-Hazmi, and 
Khalid al-Mihdhar may have had contact with a total of 14 people who 
had come to the FBI's attention during counterterrorism or 
counterintelligence investigations prior to September 11, 2001. Four of 
those fourteen were the subjects of active FBI investigations during 
the time the hijackers were in the United States. In one of those 
cases, the FBI closed the investigation despite the individual's 
contacts with other subjects of counterterrorism investigations and 
despite reports concerning the individual's ties to suspect 
organizations. In another case, the FBI closed its investigation of one 
of the hijackers' contacts during a phone interview, after the 
individual said it would be a ``strain'' to travel to Los Angeles for a 
personal interview and declined to give the FBI his home address;
    - the July 2001 ``Phoenix Electronic Communication'', in which an 
FBI agent expressed concerns that there was a coordinated effort 
underway by Bin Ladin to send students to the United States for civil 
aviation training. In the EC, the agent expressed his suspicion that 
this was an effort to establish a cadre of individuals in civil 
aviation who would conduct future terrorist activity. Despite the high 
threat level in the summer of 2001, this communication generated almost 
no interest at FBI headquarters or at the FBI's New York field office. 
In fact, one of the individuals named in the Phoenix EC was arrested in 
2002 at an al-Qa'ida safehouse in Pakistan with Abu Zubaida. The Report 
concludes that the Phoenix EC, produced by an FBI field agent rather 
than a ``seasoned'' Intelligence Community analyst, was the best 
example of the creative, imaginative and aggressive analysis of 
relevant intelligence that this review has found;
    - the investigation and arrest, in August 2001, of Zacarias 
Moussaoui, whom Minneapolis FBI agents suspected was involved in a 
hijacking plot, possibly involving ``a larger conspiracy'' to seize 
control of an airplane. At the time, CIA stations were advised that 
Moussaoui was a ``suspect airline suicide attacker'' ``who might be 
involved in a larger plot to target airlines traveling from Europe to 
the U.S.'' The FBI agents investigating Moussaoui knew nothing about 
the Phoenix Communication or al-Mihdhar and al-Hazmi. The FBI agent who 
wrote the Phoenix Communication had never heard about Moussaoui or the 
two future hijackers. Neither FBI headquarters nor the DCI's 
Counterterrorist Center (CTC) linked the information about Moussaoui to 
the elevated threat warnings in the summer of 2001, to the Phoenix 
Communication's suspicions about Bin Ladin's interest in civil aviation 
training or to information available on August 23, 2001, that two Bin 
Ladin operatives had entered the United States; and
    - information linking Khalid Shaykh Mohammed (KSM), now believed to 
be the mastermind of the September 11th attacks, to Bin Ladin, to 
terrorist plans to use aircraft as weapons, and to terrorist activity 
in the United States. CIA documents in June 2001 indicated that KSM 
``was recruiting persons to travel to the United States and engage in 
planning terrorist-related activity here. [----------], these persons 
would be `expected to establish contact with individuals already living 
there.' '' The documents also noted that KSM ``continued to travel 
frequently to the United States, including as recently as May 2001''. 
The Report concludes that this information did not ``mobilize'' the 
Community and that the ``Community devoted few analytic or operational 
resources to tracking KSM or understanding his activities. Coordination 
within the Community was irregular at best, and the little information 
that was shared was usually forgotten or dismissed.'' His role in the 
September 11th attacks was a ``surprise'' to the Community and the CIA 
and FBI were unable to confirm whether he had in fact been traveling to 
the United States in the months before September 11th.

        Systemic Findings
    The Report also includes sixteen ``systemic findings'' which 
identify and explain those systemic weaknesses that hindered the 
Intelligence Community's counterterrorism efforts prior to September 
11th. Some of these findings address specific shortcomings in various 
aspects of Intelligence Community counterterrorist efforts, such as the 
inability of the Community to develop and use human sources to 
penetrate the al-Qa'ida inner circle; the Community's excessive 
reliance on foreign liaison services; difficulties with FBI 
applications for Foreign Intelligence Surveillance Act (FISA) 
surveillance; a reluctance to develop and implement new technical 
capabilities aggressively; a shortage of language specialists and 
language-qualified field officers and backlogs in materials awaiting 
translations; and a reluctance to track terrorist funding and close 
down terrorist financial support networks. Many of the systemic 
findings relate, in whole or in part, to three problem areas that, in 
my view, are critically important and repeatedly surfaced throughout 
the course of the Inquiry: a lack of access to relevant information; a 
lack of adequate focus on the terrorist threat to the domestic United 
States; and a lack of sufficient quality in both analytic and 
investigative efforts.

        Lack of Access
    Even the best intelligence will prove worthless if our Intelligence 
Community is unable to deliver that intelligence to those who need it 
in time for them to act on it. The Report finds that within the 
Intelligence Community, agencies did not adequately share relevant 
counterterrorism information for a host of reasons, including 
differences in missions, legal authorities, and agency cultures. 
Serious problems in information sharing also persisted between 
Intelligence Community agencies and other federal agencies as well as 
state and local authorities. Unquestionably, this breakdown in 
communication deprived those other entities, as well as the 
Intelligence Community, of access to potentially valuable information 
in the ``war'' against Bin Ladin.
    The Report contains numerous examples of these problems. The 
information on al-Mihdhar and al-Hazmi's travel to the United States, 
despite numerous opportunities, never reached the San Diego FBI in time 
for them to capitalize on their informant's contacts with the two 
hijackers. Ironically, the CIA employee who, in January 2000, briefed 
FBI personnel about al-Mihdhar, but not about his visa and potential 
travel to the United States, told the Inquiry that his assignment, at 
the time, was to fix problems ``in communicating between the CIA and 
the FBI''. The FBI agent responsible for the informant, in his 
testimony, candidly described information sharing problems between the 
FBI and CIA: ``If I had to rate it on a ten-point scale, I'd give them 
a 2 or 1.5 in terms of sharing information....Normally,...you have some 
information you want the Agency to check on. You end up writing it up, 
sending it back through electronic communications or teletype,...or 
memo...And then the Bureau, FBI headquarters, runs it across the street 
to the Agency. And then, maybe six months, eight months, a year later, 
you might get some sort of response.''
    Prior to September 11th, the Phoenix EC was not shared with the FBI 
agents handling Zacarias Moussaoui, or with the FBI agent whose 
informant knew that al-Hazmi was taking flight training in Arizona, or 
even with the FAA. In fact, FAA officials first learned of the Phoenix 
EC from the Joint Inquiry in early 2002. The FAA also did not receive 
all of the intelligence reporting on the possible use of aircraft as 
terrorist weapons. Beyond the failure to watchlist al-Mihdhar and al-
Hazmi, the CIA also did not provide the State Department with almost 
1500 terrorism-related intelligence reports until after September 11, 
2001. Other non-intelligence federal agencies as well as state and 
local authorities complained about their lack of access to relevant 
intelligence information. Even Intelligence community analysts 
complained about their inability to have access to raw, but highly 
relevant, intelligence information held within other intelligence 
community agencies.

        Lack of Focus
    Even in instances where relevant information was available, there 
was a lack of sufficient focus on the Bin Ladin threat to the domestic 
United States. The Report concludes that the U.S. foreign intelligence 
agencies paid inadequate attention to the potential for a domestic 
attack and that, at home, the counterterrorism effort suffered from the 
lack of an effective domestic intelligence capability. The Report found 
gaps between NSA's coverage of foreign communications and the FBI's 
coverage of domestic communications that suggested a lack of sufficient 
attention to the domestic threat. There was no comprehensive 
counterterrorist strategy for combating the threat posed by Bin Ladin 
and the Director of Central Intelligence (DCI) was ``either unwilling 
or unable to marshal the full range of Intelligence Community resources 
to combat the growing threat to the United States.''
    Again, examples are plentiful in the Report. While the DCI had 
declared ``war'' on Bin Ladin in December 1998, insisting that no 
resources be spared in the effort, the Director of the National 
Security Agency at the time told the Inquiry that he believed ``the DCI 
was speaking for CIA only''. The Report found that, prior to September 
11th, neither the FBI nor the NSA focused on the importance of 
identifying and then ensuring coverage of communications between the 
United States and suspected terrorist facilities abroad. The Inquiry 
determined that one of the hijackers did communicate with a known 
terrorist facility in the Middle East while he was living in the United 
States. The Intelligence Community did not, however, identify the 
domestic origin of those communications before September 11th, so that 
additional FBI investigative efforts could be coordinated. There was, 
in short, insufficient focus on what many would have thought was among 
the most critically important kinds of terrorist-related 
communications, at least in terms of protecting the Homeland.
    Former Secretary of Defense John Hamre told the Inquiry that ``he 
could not recall ever seeing an intelligence report on the existence of 
terrorist sleeper cells in the United States'' and noted ``we thought 
we were dealing in important things, but we missed the domestic threat 
from international terrorism''. Former National Coordinator for 
Counterterrorism Richard Clarke stated that when he visited FBI field 
offices to increase their focus on al Qa'ida, ``I got sort of blank 
looks of `what is al Qa'ida' '' The FBI counterterrorism agent 
responsible for the informant that had contacts with the hijackers said 
he did not discuss Bin Ladin or al-Qa'ida with the informant before 
September 11th because that was ``not an issue in terms of my 
assignments''. The former chief of the Counterterrorist Center's Bin 
Ladin Unit testified that between 1996 and 1999 ``the rest of the CIA 
and the Intelligence Community looked on our efforts as eccentric and, 
at times, fanatic''.

        Lack of Quality
    The Report cites quality problems in two critically important 
areas, analysis and investigation. In analysis, the Inquiry found 
quality was inconsistent, and many analysts were ``inexperienced, 
unqualified, under-trained, and without access to critical 
information.'' The Report concludes that there was ``a dearth of 
creative, aggressive analysis targeting Bin Ladin and a persistent 
inability to comprehend the collective significance of individual 
pieces of intelligence''. There was little or no analytic focus on, for 
example, reports about terrorist interest in aircraft as weapons and 
the likelihood that Khalid Shaykh Mohammed was recruiting individuals 
for terrorist activity within the United States. The former FBI 
Assistant Director for Counterterrorism ``could not recall any instance 
where the FBI Headquarters terrorism analytical unit produced `an 
actual product that helped out' ''. Richard Clarke testified that the 
FBI ``never provided analysis to us, even when we asked for it, and I 
don't think that throughout that 10-year period we had an analytical 
capability of what was going on in this country.''
    In investigations, the Report concluded that ``the FBI was unable 
to identify and monitor effectively the extent of activity by al-Qa'ida 
and other international terrorist groups operating in the United 
States.'' While in the United States, a number of hijackers 
successfully eluded FBI detection despite their interaction with 
subjects of FBI counterterrorism investigations. Even after the CIA 
watchlisted al-Mihdhar and al-Hazmi on August 23, 2001, there was less 
than an all-out investigative effort to locate what amounted to two Bin 
Ladin-associated terrorists in the United States during a period when 
the terrorist threat level had escalated to a peak level. In conducting 
that search, the FBI never sought relevant information from FBI 
counterterrorism sources, including the California informant, or from 
relevant databases held by other federal agencies. Representatives of 
those agencies testified that, had the FBI done so, they believe they 
might have been able to locate the two hijackers using those agencies' 
databases.
    While the Inquiry found, in its review of CIA and FBI documents, 
information suggesting specific sources of foreign support for some of 
the September 11 hijackers while they were in the United States, CIA 
and FBI officials were unable to definitively address the extent or 
nature of such support. Despite the serious national security 
implications of the information, the FBI Director acknowledged that it 
was the Joint Inquiry's work that brought some of these facts, found in 
CIA and FBI documents, to his attention. The Inquiry referred this 
material to the FBI and CIA for further investigation and the Report 
notes that only recently, and in part due to the Inquiry's focus on 
this issue, did the CIA and FBI strengthen efforts in this area.

        Related Findings
    Finally, the Report includes three ``related findings'', at least 
two of which appear directly relevant to this Committee's focus on 
homeland security. These findings address issues that, while not 
entirely within the scope or control of the Intelligence Community, 
impacted the Community's counterterrorism efforts before September 
11th. They are:
    - Despite intelligence reporting that Bin Ladin's terrorist network 
intended to strike within the United States, the United States 
Government did not undertake a comprehensive effort to implement 
defensive measures in the United States;
    - Between 1996 and 2001, the counterterrorism strategy adopted by 
the U.S. government did not succeed in eliminating Afghanistan as a 
sanctuary and training ground for Bin Ladin's terrorist network; and
    - Prior to September 11th, U.S. counterterrorism efforts operated 
largely without the benefit of an alert, mobilized and committed 
American public. The assumption prevailed in the U.S. government that 
attacks of the magnitude of September 11th could not happen here and, 
as a result, there was insufficient effort to alert the American public 
to the reality and the gravity of the threat.

        Recommendations
    The Report also looks beyond the mistakes of the past to the 
future, and the need to strengthen our ability to combat the 
international terrorist threat that still faces this nation. Noting 
that ``the cataclysmic events of September 11th provide a unique and 
compelling mandate for strong leadership and constructive change'', the 
Committees agreed on nineteen recommendations for reform which are set 
forth in the Report. Among other things, the recommendations propose:
    - the creation of a statutory, Cabinet level, Director of National 
Intelligence (DNI), vested with the full range of management, 
budgetary, and personnel responsibilities needed to make the entire 
Intelligence Community operate as a coherent whole. No person could 
serve as both the DNI and the DCI or head of any other intelligence 
agency;
    - the establishment and enforcement of clear, consistent and 
current priorities throughout the Intelligence Community and an annual 
review and update of those priorities;
    - preparation of a U.S. government wide strategy for combating 
terrorism for approval by the President;
    - creation of a National Intelligence Officer for Terrorism on the 
National Intelligence Council;
    - full development within the Department of Homeland Security of an 
effective all-source terrorism information fusion center, with full and 
timely access to all counterterrorism-related intelligence information, 
including ``raw'' supporting data, as needed. This fusion center is 
intended to ``dramatically improve the focus and quality of 
counterterrorism analysis and facilitate the timely dissemination of 
relevant intelligence information, both within and beyond the 
boundaries of the Intelligence Community'';
    - implementation, at the FBI, of numerous specific improvements in 
its domestic intelligence capability, with a report to the President 
and the Congress on the FBI's progress on implementing those reforms;
    - prompt consideration by the Intelligence and Judiciary Committees 
of the Congress, in consultation with the Administration, of the 
question of whether the FBI should continue to perform the domestic 
intelligence function or whether legislation is necessary to create a 
new agency to perform these functions;
    - actions by the Attorney General and the Director of the FBI and 
reviews by the Intelligence and Judiciary Committees of the Congress to 
ensure the fuller and more effective use of FISA authorities to assess 
the threat of international terrorists within the United States;
    - implementation of specific measures to greatly enhance the 
development of a workforce with the intelligence expertise needed for 
success in counterterrorism, including expanded training programs; 
greater development of language capabilities; the use of personnel and 
expertise from outside the Community as needs arise; expansion of 
educational grant programs focused on intelligence-related fields; and 
consideration of legislation, modeled on the Goldwater-Nichols Act of 
1986, to instill the concept of ``jointness'' throughout the 
Intelligence Community;
    - reviews by the President and the Congress of the authorities that 
govern the national security classification of intelligence 
information, in an effort to expand access to relevant information for 
federal agencies outside the Intelligence Community, for state and 
local authorities, and for the American public. The Committees believe 
that Congress should consider the degree to which excessive 
classification has been used in the past and the extent to which the 
emerging threat environment has greatly increased the need for real-
time sharing of sensitive information;
    - implementation, by the DCI and heads of the Intelligence 
Community agencies, of measures designed to ensure accountability 
throughout the Intelligence Community;
    - reviews by the relevant agency Inspectors General of the Inquiry 
record to determine whether and to what extent personnel at all levels 
should be held accountable regarding the identification, prevention, or 
disruption of the September 11th attacks;
    - the full development of a national watchlist center responsible 
for coordinating and integrating all watchlist systems and ensuring a 
comprehensive flow of terrorist names into the center from all points 
of collection; and
    - aggressive action by the FBI and CIA to address the possibility 
that foreign governments are providing support to or are involved in 
terrorist activity targeting the United States and U.S. interests and 
vigorous and continuing oversight of those efforts by the House and 
Senate Intelligence Committees. The FBI and CIA should ``aggressively 
and thoroughly pursue'' related matters developed through the Inquiry 
that have been referred to them for further investigation by the 
Committees.
    While these recommendations do not have the force of law, Senators 
Graham, Rockefeller, and Feinstein recently introduced legislation in 
the Senate intended to statutorily implement the Report's 
recommendations. In the House, I understand that the Intelligence 
Committee is actively addressing those aspects of the recommendations 
that pertain to the Intelligence Community through hearings, continuing 
oversight of the intelligence agencies, and provisions in the 
Intelligence Authorization bill. Even absent legislation, there are 
indications that other efforts are underway to implement reform in at 
least some of the areas addressed by the recommendations. FBI Director 
Mueller, for example, has said that the FBI is addressing the need for 
internal reform in the areas identified by the recommendations. The 
President, as you know, announced the creation of the Terrorist Threat 
Integration Center (TTIC) as a way of achieving greater sharing and 
better analysis of counterterrorism intelligence. At least some of the 
relevant agency Inspectors General are conducting accountability 
reviews, as recommended by the Committees. Absent more detailed 
information about the scope and nature of these efforts, I cannot say 
to what extent they reflect the specific actions called for in the 
recommendations.
    In closing, let me underscore the importance of the thought 
conveyed by the title of today's hearing, ``Perspectives on 9/11--
Building Effectively on Hard Lessons''. Those of us associated with the 
Joint Inquiry are convinced that there is indeed much to be learned 
from the story of September 11th, both for the Intelligence Community 
and for our Nation. The lessons are hard, they are bitter, and they are 
tragic, but the importance of their message is undeniable: they are our 
clearest road back to a far safer and brighter future for all 
Americans. The Joint Inquiry's Report can, I believe, serve as an 
excellent roadmap for that journey.

    Chairman Cox. Governor Gilmore. We have also received your 
written statement, and you are invited to summarize your 
testimony as you see fit.

  STATEMENT OF THE HONORABLE JIM GILMORE, FORMER GOVERNOR OF 
   VIRGINIA AND CHAIRMAN, ADVISORY PANEL TO ASSESS DOMESTIC 
 RESPONSE CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS 
                          DESTRUCTION

    Mr. Gilmore. Mr. Chairman, thank you very much. Mr. 
Chairman, Congressman Turner, distinguished Congressmen and 
women of this committee and of the House, thank you for the 
opportunity to appear here with you today, and I request that 
my more extensive statement be put into the record, Mr. 
Chairman.
    This Commission is your advisory panel. This advisory panel 
was established by the Congress of the United States, Senate 
and the House, in 1999, or 1998 I believe was the public law 
that established this Commission. It is your official advisory 
panel on domestic response capability involving terrorism and 
weapons of mass destruction.
    By your statute, we have reported each year on December the 
15th since 1999. I was approached in 1999, after the passage of 
the law and the establishment of the Commission, to chair the 
Commission by the previous administration's Department of 
Defense and National Security Council.
    The Commission was set up not of your standard people out 
of Washington, D.C., that perhaps you would see, but instead 
police, fire, rescue, emergency services, health care, 
epidemiologists, some retired general officers, some key people 
of this nature in the Intelligence Community.
    The alumni, if you will, of this Commission over the nearly 
now 5 years of its existence include Paul Bremer, General 
Clapper, who now heads the National Mapping and Imagery Agency, 
Ray Downey, a top official with the New York City Fire 
Department until he was killed at the World Trade Center, Rich 
Fairbank, who serves on the staff now in the current White 
House on Homeland Security.
    The Commission went to work, and in 1999 in our first year 
we reported an assessment of the threat to the Congress, which 
was widely reported, and of course copies were sent to each 
Member of the Congress and to the President each year.
    We did a threat assessment in that year, and in the second 
year we did perhaps some of our best policy work. We 
recommended that there be a national strategy. We were 
concerned about the strong probability of conventional attack 
in this country. We recommended that there be a national 
strategy to combat terrorism. We recommended a strategy that 
was national, was not Federal, and remains not Federal. It is 
Federal, State and local, and must contain all three levels of 
government in order to be able to respond to the terrorist 
threat.
    We recommended a need for a national office to establish 
such a strategy, and we had recommendations on intelligence 
sharing and expressed concern about the inability, particularly 
of Federal agencies, to share information back and forth, and 
absolutely the inability to share information up and down the 
Federal structure with Federal, State and local people 
together.
    In the third year, 2001, we focused our attention, as we 
were going out of business under your statute and sunsetting 
after 3 years, we focused our attention for our December the 
15th report in five areas: How to use the local and State 
responders, how to equip them, border controls, health care and 
the public health system, how you use the military in a 
domestic setting, and cyber security.
    This Commission was very largely established under the 
leadership of a Member of this House, Curt Weldon, of the State 
of Pennsylvania, who was very strongly leading in the 
establishment of the Commission, and then we were done. We were 
going out of business just about the time that we sent it up to 
the printer when the 9/11 attack occurred.
    There has been some discussion in opening statements of 
where you were. Ladies and gentlemen, I was Governor of the 
State of Virginia at the time the attack occurred. I was 
Governor of one of the two States directly attacked that day, 
of course New York and Virginia, because that is where the 
Pentagon is, and the responders were Arlington, Alexandria, 
Fairfax, Prince William, later Montgomery County, and then as 
the days wore on people from all across the Nation, local 
responders who came into the Pentagon.
    In 2000, of course this body and the Senate then extended 
the Commission for 2 additional years, for 2002 and then 2003.
    In 2002, we did another extensive report in which we 
focused our attention on some directional areas, particularly 
with respect to the intelligence issues, the Intelligence 
Community. We recommended that there be an intelligence fusion 
center to begin to find some vehicle for drawing together and 
connecting the dots on the intelligence that needed to be done 
in order to connect the FBI, the CIA, the National Security 
Agency, and State and local people who pick up most of the 
information on the street in the first place, and to try to 
create all of this in one place where information could be 
shared.
    We also addressed the issue of the appropriate agency to 
conduct domestic counterterrorism operations here in the United 
States, in the homeland.
    That gives you a quick history, Mr. Chairman, of the 
Commission. It is all fully set out in the statement that we 
put in. Let me speak to you now very quickly as an opening 
statement about the upcoming report. It is still in progress. 
It will be under your statute on December the 15th of this 
year. That will be the fifth report. Then under your statutory 
provisions we will again go out of business and we will not 
exist any longer.
    But we will have done 5 full years of material on this, 
which we hope has been of value to this Congress. It has been 
very extensive, very dispassionate, not grandstanding, as 
professional as we can be, in giving you the information we 
believe necessary for you to make good judgments as a 
legislative body.
    This fifth report as we look ahead, as we are anticipating 
the end of our Commission, we have asked ourselves the 
questions: What should the country look like in 5 or 10 years? 
With all of this that we are doing now, all this legislating 
and all of this administrating and all of this work that is 
being done, and all of this money that is being spent, what do 
we want the country to look like? Jersey walls? Statues all 
over the place? Security everywhere? What do we want the end 
state to be? What is the definition of preparedness? We do not 
today still have a definition of preparedness. What is it? How 
do you implement an appropriate national strategy? How do you 
define readiness? Until you do that, how do you know what to 
spend the money on? How do localities know what they are 
supposed to do and how they are supposed to fit in? Do they 
simply ask for money for their own local priorities or does it 
fit into a national strategy.
    These are the kinds of questions that have to be asked.
    Last week, we did a 2-day meeting, Mr. Chairman, in 
Sacramento, where we held a normal third quarterly meeting. We 
will have one more last meeting, probably in Washington, D.C. 
The RAND Corporation staffs us pursuant to your authority. And 
in that meeting in Sacramento, we had video conferenced in 
Admiral Jim Loy of the Transportation Safety Administration, 
who answered the two fundamental questions that we were asking, 
what do you want the country to look like, and how we protect 
our civil freedoms here in this country while we are doing it?
    We had Mike Armstrong, a representative of the Business 
Roundtable come in and talk to us about how we hook in the 
private sector. We had representatives from the major responder 
and emergency services organizations come in and speak to us in 
Sacramento.
    Then I was invited personally to come the next day to 
Seattle in order to speak to a summit conference of the local 
responder organizations. It was held the following day on 
Friday, and then I think through the weekend, in order to 
discuss where they fit in, because they are trying to 
understand how they should work within the national strategy.
    Let me read, if I could, one or two paragraphs in closing 
from my opening remarks. While the statement is extensive, I 
have written something just for this hearing here today, which 
I think will capture where I think we will be on December the 
15th, even though it is still a work in progress.
    We believe that the national goal must be to implement a 
true national strategy that assesses the true risk to the 
Nation, and reasonably prepares for those risks. Complete 
security is not possible against a terrorist attack, but a good 
national strategy can reduce the risk and direct our resources 
to the correct priorities.
    Only then can we manage the cost of homeland security, and 
know that the money we are spending is effective within a 
national strategy. We must then have a frank dialogue with the 
American people that all risk cannot be eliminated. Everything 
is vulnerable in a free society. All risk cannot be eliminated.
    We must decide what roles are appropriate for Federal, 
State and local governments, the private sector, and the people 
themselves. Then we should return to normalcy. And understand 
our definition of normal. Normalcy will never again be an 
unguarded, inattentive state, but we also must decide how much 
is enough and continue on with the array of priorities that we 
will pursue as a Nation.
    Defining preparedness and the roles of States and 
localities will be a key part of our fifth and final report. We 
also will draw attention to the need to maintain our civil 
freedoms as we make the Nation more secure. Our traditional 
values of liberty cannot be balanced against or traded off for 
security. We must be cautious that those responsible for 
security, all of us who are responsible for security, do not 
simply redefine away our freedoms in the name of security.
    It is preparedness that must be defined, not our definition 
of freedom that has already gained its meaning from the blood 
of American patriots, including those who died on September the 
11th, 2001, and this too will be discussed in the final report 
this December.
    Thank you, Mr. Chairman.
    [The statement of Mr. Gilmore follows:]

            PREPARED STATEMENT OF THE HON. JAMES S. GILMORE

    Chairman Cox, Representative Turner and distinguished Members of 
this Committee, I am honored to be here today. I come before you as the 
Chairman of the Advisory Panel to Assess Domestic Response Capabilities 
for Terrorism Involving Weapons of Mass Destruction. Thank you for the 
opportunity to present the views of the Advisory Panel. This is the 
national commission on terrorism (a.k.a the Gilmore Commission) and we 
have been influential in the development of a national ``Homeland 
Security'' strategy--a strategy that is not federal--but is focused on 
federal, state, and local capabilities to respond to the unthinkable 
acts of terrorism on our homeland.
    On September 11th, our nation saw the unlimited imagination of 
these terrorists. That defining moment in our shared history as 
Americans has forced all of us to recognize that we must be better 
prepared at the state, local, and federal level.
    Gilmore Commission Backgrounder
    The Advisory Panel was established by Section 1405 of the National 
Defense Authorization Act for Fiscal Year 1999, Public Law 105?261 
(H.R. 3616, 105thCongress, 2nd Session) (October 17, 1998). That Act 
directed the Advisory Panel to accomplish several specific tasks. It 
said:
        The panel shall--
        Assess Federal agency efforts to enhance domestic preparedness 
        for incidents involving weapons of mass destruction;
        Assess the progress of Federal training programs for local 
        emergency responses to incidents involving weapons of mass 
        destruction;
        Assess deficiencies in programs for response to incidents 
        involving weapons of mass destruction, including a review of 
        unfunded communications, equipment, and planning requirements, 
        and the needs of maritime regions;
        4. Recommend strategies for ensuring effective coordination 
        with respect to Federal agency weapons of mass destruction 
        response efforts, and for ensuring fully effective local 
        response capabilities for weapons of mass destruction 
        incidents; and
        5. Assess the appropriate roles of State and local government 
        in funding effective local response capabilities.
    That Act required the Advisory Panel to report its findings, 
conclusions, and recommendations for improving Federal, State, and 
local domestic emergency preparedness to respond to incidents involving 
weapons of mass destruction to the President and the Congress three 
times during the course of the Advisory Panel's deliberations?on 
December 15 in 1999, 2000, and 2001.
    The Advisory Panel's tenure was extended for two years in 
accordance with Section 1514 of the National Defense Authorization Act 
for Fiscal Year 2002 (S. 1358, Public Law 107-107, 107th Congress, 
First Session), which was signed into law by the President on December 
28, 2001. By virtue of that legislation, the panel is now required to 
submit two additional reports?one on December 15 of this year, and one 
on December 15, 2003.
    Panel Composition
    Mister Chairman, as I usually do on occasions like this, please 
allow me to pay special tribute to the men and women who serve on our 
panel.
    This Advisory Panel is unique in one very important way. It is not 
the typical national ``blue ribbon'' panel, which in most cases 
historically have been composed almost exclusively of what I will refer 
to as ``Washington Insiders''--people who have spent most of their 
professional careers inside the Beltway. This panel has a sprinkling of 
that kind of experience--a former Member of Congress and Secretary of 
the Army, a former State Department Ambassador-at-Large for 
Counterterrorism, a former senior executive from the CIA and the FBI, a 
former senior member of the Intelligence Community, the former head of 
a national academy on public health, two retired flag-rank military 
officers, a former senior executive in a non-governmental charitable 
organization, and the head of a national law enforcement foundation. 
But what truly makes this panel special and, therefore, causes its 
pronouncement to carry significantly more weight, is the contribution 
from the members of the panel from the rest of the country:
        <bullet> Three directors of state emergency management 
        agencies, from California, Iowa, and Indiana, two of whom now 
        also serve their Governor's as Homeland Security Advisors
        <bullet> The deputy director of a state homeland security 
        agency
        <bullet> A state epidemiologist and director of a state public 
        health agency
        <bullet> A former city manager of a mid-size city
        <bullet> The chief of police of a suburban city in a major 
        metropolitan area
        <bullet> Senior professional and volunteer fire fighters
        <bullet> A senior emergency medical services officer of a major 
        metropolitan area
        <bullet> And, of course--in the person of your witness--a 
        former State governor
        <bullet> These are representatives of the true ``first 
        responders''--those heroic men and women who put their lives on 
        the line every day for the public health and safety of all 
        Americans. Moreover, so many of these panel members are also 
        national leaders in their professions: our EMS member is a past 
        president of the national association of emergency medical 
        technicians; one of our emergency managers is the past 
        president of her national association; our law officer now is 
        president of the international association of chiefs of police; 
        our epidemiologist is past president of her professional 
        organization; one of our local firefighters is chair of the 
        terrorism committee of the international association of fire 
        chiefs; the other is chair of the prestigious national 
        Interagency Board for Equipment Standardization and 
        Interoperability.
    Read our reports and you will understand what that expertise has 
meant to the policy recommendations that we have made, especially for 
the events of last year.
    Those attacks continue to carry much poignancy for us, because of 
the direct loss to the panel. Ray Downey, Department Deputy Chief and 
chief-in-charge of Special Operations Command, Fire Department of the 
City of New York, a friend of many members of Congress, perished in the 
attack on the New York World Trade Center. Although we continue to miss 
Ray's superb advice, counsel, and dedication to these issues, we trust 
that Ray knows that we are carrying on in the tradition that he helped 
us to establish.
    Our Continuing Mission
    Mister Chairman and Members, this Advisory Panel continues to work 
hard to develop the best possible policy recommendations for 
consideration by the President and the Congress. Now, of course, people 
and organizations are coming out of the woodwork, claiming to be all 
manner of ``experts'' in homeland security. At the same time, this 
panel is toiling away, seeking neither fame nor credit for its work, 
simply trying to find some rational and feasible solutions to many 
problems and challenges that still face us.
    Observations about Terrorism Preparedness
    In the course of our deliberations, the Advisory Panel has been 
guided by several basic observations and assumptions that have helped 
to inform our conclusions and policy recommendations for improving our 
preparedness to combat terrorism.
    First, all terrorism is ``local,'' our at least will start locally. 
That fact has a lot to do, in our view, with the emphasis, the 
priorities, and the allocation of resources to address requirements. 
September 11 and the subsequent anthrax attacks were further proof of 
that basic assumption.Second, a major attack anywhere inside our 
borders will likely be beyond the response capabilities of a local 
jurisdiction, and will, therefore, require outside help--perhaps from 
other local jurisdictions, from that jurisdiction's state government or 
multiple state resources, perhaps from the Federal government, if the 
attack is significant enough to exhaust other resources. That principle 
was likewise validated last September.
    Given those two factors, our approach to combating terrorism should 
be from the ``bottom up''--with the requirements of State and local 
response entities foremost in mind. Then national leadership should 
harmonize those local requirements into a true national strategy.
    We note that we have many existing capabilities that we can build 
on in an ``all-hazards'' approach, which can include capabilities for 
combating terrorism.
    Our thorough research and deliberations have also led us to observe 
that there is great apprehension among States and localities that some 
Federal entity will attempt to come in and take charge of all 
activities and displace local response efforts and expertise.
    That was not and likely could not, because of the actual 
circumstances in New York, have been the case in September. But all 
events may not unfold in that fashion.
    Based on a significant amount of analysis and discussion, we have 
been of the view that few if any major structural or legal changes are 
required to improve our collective efforts; and that the ``first 
order'' challenges are policy and better organization-not simply more 
money or new technology.
    With respect to Federal efforts, two years ago we concluded that, 
prior to an actual event, no one cabinet department or agency can 
``supervise'' the efforts of other federal departments or agencies. 
When an event occurs, response will be situational dependent; federal 
agencies can execute responsibilities within existing authority and 
expertise, but under established ``Lead Federal Agency'' coordinating 
processes
    Support for Panel Activities and Reports
    Mister Chairman, it also says something about the foresight of this 
committee that you directed in legislation that analytical and other 
support for the Advisory Panel would be provided by a Federally Funded 
Research and Development Center. We have been exceptionally fortunate 
to have that support provided by The RAND Corporation. The breadth and 
depth of experience at RAND in terrorism and policy issues across a 
broad spectrum have made possible the panel's success in accomplishing 
its mandate. Its assessments of federal programs, its case studies and 
hundreds of interviews across the country and around the world, its 
seminal work in surveying state and local response entities nationwide, 
its facilitation of our discussion--leading to near unanimity of 
members on this broad spectrum of recommendations, its work in drafting 
reports based on our extensive deliberations, all have combined to make 
this effort a most effective and meaningful one.
    Our Reports
    In our first three reports, the advisory panel has, through its 
assessments and recommendations, laid a firm foundation for actions 
that must be taken across a broad spectrum of threats in a number of 
strategic and functional contexts to address this problem more 
effectively.
    First Report--Assessing the Threat
    The Advisory Panel produced a comprehensive assessment in its first 
report of the terrorist threat inside our borders, with a focus on 
chemical, biological, radiological, and nuclear (CBRN) weapons. The 
very thorough analysis in that report can be summarized:
        The Panel concludes that the Nation must be prepared for the 
        entire spectrum of potential terrorist threats-both the 
        unprecedented higher-consequence attack, as well as the 
        historically more frequent, lesser-consequence terrorist 
        attack, which the Panel believes is more likely in the near 
        term. Conventional explosives, traditionally a favorite tool of 
        the terrorist, will likely remain the terrorist weapon of 
        choice in the near term as well. Whether smaller-scale CBRN or 
        conventional, any such lower-consequence event--at least in 
        terms of casualties or destruction--could, nevertheless, 
        accomplish one or more terrorist objectives: exhausting 
        response capabilities, instilling fear, undermining government 
        credibility, or provoking an overreaction by the government. 
        With that in mind, the Panel's report urges a more balanced 
        approach, so that not only higher-consequence scenarios will be 
        considered, but that increasing attention must now also be paid 
        to the historically more frequent, more probable, lesser-
        consequence attack, especially in terms of policy implications 
        for budget priorities or the allocation of other resources, to 
        optimize local response capabilities. A singular focus on 
        preparing for an event potentially affecting thousands or tens 
        of thousands may result in a smaller, but nevertheless lethal 
        attack involving dozens failing to receive an appropriate 
        response in the first critical minutes and hours.
        While noting that the technology currently exists that would 
        allow terrorists to produce one of several lethal CBRN weapons, 
        the report also describes the current difficulties in acquiring 
        or developing and in maintaining, handling, testing, 
        transporting, and delivering a device that truly has the 
        capability to cause ``mass casualties.''
    We suggest that that analysis is still fully valid today.
    Second Report--Toward a National Strategy for Combating Terrorism 
By the second year, the Advisory Panel shifted its emphasis to specific 
policy recommendations for the Executive and the Congress and a broad 
programmatic assessment and functional recommendations for 
consideration in developing an effective national strategy.
    The capstone recommendation in the second report was the need for a 
comprehensive, coherent, functional national strategy: The President 
should develop and present to the Congress a national strategy for 
combating terrorism within one year of assuming office. As part of that 
recommendation, the panel identified the essential characteristics for 
a national strategy:
        <bullet> It must be truly national in scope, not just Federal.
        <bullet> It must be comprehensive, encompassing the full 
        spectrum of deterrence, prevention, preparedness, and response 
        against domestic and international threats.
        <bullet> For domestic programs, it must be responsive to 
        requirements from and fully coordinated with state and local 
        officials as partners throughout the development and 
        implementation process.
        <bullet> It should be built on existing emergency response 
        systems.
        <bullet> It must include all key functional domains--
        intelligence, law enforcement, fire services, emergency medical 
        services, public health, medical care providers, emergency 
        management, and the military.
        <bullet> It must be fully resourced and based on measurable 
        performance.
    Of course, the Panel recognizes that in light of September 11, 2001 
this objective has been difficult to achieve. However, the principles 
contained within this strategy and their requirements remain the same.
    The Second Annual Report included a discussion of more effective 
Federal structures to address the national efforts to combat terrorism. 
We determined that the solutions offered by others who have studied the 
problem provided only partial answers. The Advisory Panel attempted to 
craft recommendations to address the full spectrum of issues. 
Therefore, we submitted the following recommendation: The President 
should establish a senior level coordination entity in the Executive 
Office of the President. The characteristics of the office identified 
in that recommendation included:
        <bullet> Director appointed by the President, by and with the 
        advice and consent of the Senate, at ``cabinet-level'' rank
        <bullet> Located in the Executive Office of the President
        <bullet> Authority to exercise certain program and budget 
        controls over those agencies with responsibilities for 
        combating terrorism
        <bullet> Responsibility for intelligence coordination and 
        analysis
        <bullet> Tasking for strategy formulation and implementation
        <bullet> Responsibility for reviewing State and local plans and 
        to serve as an information clearinghouse
        <bullet> An interdisciplinary Advisory Board to assist in 
        strategy development
        <bullet> Multidisciplinary staff (including Federal, State, and 
        local expertise)
        <bullet> No operational control
    We included a thorough explanation of each characteristic in our 
Second Annual Report. For instance, we determined that this office 
should have the authority to direct the creation, modification, or 
cessation of programs within the Federal Interagency, and that it have 
authority to direct modifications to agency budgets and the application 
of resources. We also recommended that the new entity have authority to 
review State and geographical area strategic plans and, at the request 
of State entities, to review local plans or programs for combating 
terrorism for consistency with the national strategy. Although not 
completely structured around our recommendations, the model for the 
creation of the Office of Homeland Security came from this 
recommendation.
    To complement our recommendations for the federal executive 
structure, we also included the following recommendation for the 
Congress: The Congress should establish a Special Committee for 
Combating Terrorism--either a joint committee between the Houses or 
separate committees in each House--to address authority and funding, 
and to provide congressional oversight, for Federal programs and 
authority for combating terrorism. The philosophy behind this 
recommendation is much the same as it is for the creation of the office 
in the Executive Office of the President. There needs to be a focal 
point in the Congress for the Administration to present its strategy 
and supporting plans, programs, and budgets, as well as a legislative 
``clearinghouse'' where relevant measures are considered. We recognize 
that Congress is still in the process of working towards this 
objective.
    In conjunction with these structural recommendations, the Advisory 
Panel made a number of recommendations addressing functional 
requirements for the implementation of an effective strategy for 
combating terrorism. The recommendation listed below are discussed 
thoroughly in the Second Annual Report:
    Enhance Intelligence/Threat Assessments/Information Sharing
    -- Improve human intelligence by the rescission of that portion of 
the 1995 guidelines, promulgated by the Director of Central 
Intelligence, which prohibits the engagement of certain foreign 
intelligence informants who may have previously been involved in human 
rights violations
    -- Improve Measurement and Signature Intelligence (MASINT) through 
an expansion in research, development, test, and evaluation (RDT&E) of 
reliable sensors and rapid readout capability and the subsequent 
fielding of a new generation of MASINT technology based on enhanced 
RDT&E efforts
    -- Review statutory and regulatory authorities in an effort to 
strengthen investigative and enforcement processes
    -- Improve forensics capabilities to identify and warn of terrorist 
use of unconventional weapons
    -- Expand information sharing and improve threat assessments
    Foster Better Planning/Coordination/Operations
    -- Designate the senior emergency management entity in each State 
as the focal point for that State for coordination with the Federal 
government for preparedness for terrorism
    -- Improve collective planning among Federal, State, and local 
entities
    -- Enhance coordination of programs and activities
    -- Improve operational command and control of domestic responses
    -- The President should always designate a Federal civilian agency 
other than the Department of Defense (DoD) as the Lead Federal Agency
    Enhance Training, Equipping, and Exercising
    -- Improve training through better coordination with State and 
local jurisdictions
    -- Make exercise programs more realistic and responsive
    Improve Health and Medical Capabilities
    -- Establish a national advisory board composed of Federal, State, 
and local public health officials and representatives of public and 
private medical care providers as an adjunct to the new office, to 
ensure that such issues are an important part of the national strategy
    -- Improve health and medical education and training programs 
through actions that include licensing and certification requirements
    -- Establish standards and protocols for treatment facilities, 
laboratories, and reporting mechanisms
    -- Clarify authorities and procedures for health and medical 
response
    -- Medical entities, such as the Joint Commission on Accreditation 
of Healthcare Organizations, should conduct periodic assessments of 
medical facilities and capabilities
    Promote Better Research and Development and Create National 
Standards
    -- That the new office, in coordination with the Office of Science 
and Technology Policy, develop a comprehensive plan for RDT&E, as a 
major component of the national strategy
    -- That the new office, in coordination with the National Institute 
for Standards and Technology (NIST) and the National Institute for 
Occupational Safety and Health (NIOSH) establish a national standards 
program for combating terrorism, focusing on equipment, training, and 
laboratory processes
    Third Report--For Ray Downey
        Our Third Annual Report to the President and the Congress 
        builds on findings and recommendations in our First and Second 
        Annual Reports delivered in 1999 and 2000. It reflects a 
        national strategic perspective that encompasses the needs of 
        all three levels of government and the private sector. It seeks 
        to assist those who are dedicated to making our homeland more 
        secure. Our recommendations fall into five categories:
        <bullet> Empowering State and Local Response by ensuring the 
        men and women on the front line of the war against terrorism 
        inside our borders have the tools and resources needed to 
        counter the murderous actions of terrorists;
        <bullet> Enhancing Health and Medical Capacities, both public 
        and private, to help ensure our collective ability to identify 
        attacks quickly and correctly, and to treat the full scope of 
        potential casualties from all forms of terrorist attacks;
        <bullet> Strengthening Immigration and Border Controls to 
        enhance our ability to restrict the movement into this country, 
        by all modes of transportation, of potential terrorists and 
        their weapons and to limit severely their ability to operate 
        within our borders;
        <bullet> Improving Security Against Cyber Attacks and enhancing 
        related critical infrastructure protection to guard essential 
        government, financial, energy, and other critical sector 
        operations against attack;
    Clarifying the Roles and Missions for Use of the Military for 
providing critical and appropriate emergency response and law 
enforcement related support to civilian authorities. Mister Chairmen, I 
should note that the substance of all of the recommendations contained 
in the third report were approved by the panel at its regular meeting 
held on August 27 and 28, 2001--Tuesday the 28th being exactly two 
weeks prior to the attacks of September 11. Although we thoroughly 
reviewed those recommendations subsequently, the panel unanimously 
agreed that all were valid and required no supplementation prior to 
publication.
    The recommendations contained in that report, listed below in 
summary form, are discussed in detail in the body of the report, and 
further supported by material in the report appendices, especially the 
information from the nationwide survey of State and local responders 
covering an array of preparedness and response issues.
    State and Local Response Capabilities
    -- Increase and accelerate the sharing of terrorism-related 
intelligence and threat assessments
    -- Design training and equipment programs for all-hazards 
preparedness
    -- Dedesign Federal training and equipment grant programs to 
include sustainment components
    -- Increase funding to States and localities for combating 
terrorism
    -- Consolidate Federal grant program information and application 
procedures
    -- Design Federal preparedness programs to ensure first responder 
participation, especially volunteers
    -- Establish an information clearinghouse on Federal programs, 
assets, and agencies
    -- Configure Federal military response assets to support and 
reinforce existing structures and systems
    Health and Medical Capabilities
    -- Implement the AMA Recommendations on Medical Preparedness for 
Terrorism
    -- Implement the JCAHO Revised Emergency Standards
    -- Fully resource the CDC Biological and Chemical Terrorism 
Strategic Plan
    -- Fully resource the CDC Laboratory Response Network for 
Bioterrorism
    -- Fully resource the CDC Secure and Rapid Communications Networks
    -- Develop standard medical response models for Federal, State, and 
local levels
    -- Reestablish a pre-hospital Emergency Medical Service Program 
Office
    -- Revise current EMT and PNST training and refresher curricula
    -- Increase Federal resources for exercises for State and local 
health and medical entities
    -- Establish a government-owned, contractor-operated national 
vaccine and therapeutics facility
    -- Review and recommend changes to plans for vaccine stockpiles and 
critical supplies
    -- Develop a comprehensive plan for research on terrorism-related 
health and medical issues
    -- Review MMRS and NDMS authorities, structures, and capabilities
    -- Develop an education plan on the legal and procedural issues for 
health and medical response to terrorism
    -- Develop on-going public education programs on terrorism causes 
and effects
    Immigration and Border Control
    -- Create an intergovernmental border advisory group
    -- Fully integrate all affected entities into local or regional 
``port security committees''
    -- Ensure that all border agencies are partners in intelligence 
collection, analysis, and dissemination
    -- Create, provide resources for, and mandate participation in a 
``Border Security Awareness'' database system
    -- Require shippers to submit cargo manifest information 
simultaneously with shipments transiting U.S. borders
    -- Establish ``Trusted Shipper'' programs
    -- Expand Coast Guard search authority to include U.S. owned--not 
just ``flagged''--vessels
    -- Expand and consolidate research, development, and integration of 
sensor, detection, and warning systems
    -- Increase resources for the U.S. Coast Guard for homeland 
security missions
    -- Negotiate more comprehensive treaties and agreements for 
combating terrorism with Canada and Mexico
    Cyber Security
    -- Include private and State and local representatives on the 
interagency critical infrastructure advisory panel
    -- Create a commission to assess and make recommendations on 
programs for cyber security
    -- Establish a government funded, not-for-profit entity for cyber 
detection, alert, and warning functions
    -- Convene a ``summit'' to address Federal statutory changes that 
would enhance cyber assurance
    -- Create a special ``Cyber Court'' patterned after the court 
established in FISA
    -- Develop and implement a comprehensive plan for cyber security 
research, development, test, and evaluationSec. Use of the Military
    -- Establish a homeland security under secretary position in the 
Department of Defense
    -- Establish a single unified command and control structure to 
execute all military support to civil authorities
    -- Develop detailed plans for the use of the military domestically 
across the spectrum of potential activities
    -- Expand training and exercises in relevant military units and 
with Federal, State, and local responders
    -- Direct new mission areas for the National Guard to provide 
support to civil authorities
    -- Publish a compendium of statutory authorities for using the 
military domestically to combat terrorism
    -- Improve the military full-time liaison elements in the ten 
Federal Emergency Management Agency region
    Status of Our Recommendations
    Mr. Chairman and Members, I can tell you that, according to our 
most recent count, of the 79 major policy recommendations made by the 
Advisory Panel in the first three reports, at least 64 have now been 
adopted in whole or in major part. One major recommendation from our 
fourth report, for an intelligence fusion center, was adopted by the 
President in his State of the Union address and has now become the 
Terrorist Threat Integration Center (TTIC). Having said that, there are 
other recommendations that continue to need to be addressed, and some 
that could still use additional resources or policy direction.
    Fourth Report--Implementing the National Strategy Strategy and 
Structure
    Briefly, the `Strategy and Structure'' Chapter recommends:
        <bullet> That the President create an entity that will become 
        the all-source fusion and analysis center for potential 
        terrorists attacks inside the United States from foreign 
        terrorists and their supporters. That center would also house, 
        in a separate component, the intelligence collection against 
        such terrorists currently in the FBI.
        <bullet> That more comprehensive assessments of threats to the 
        homeland be developed
        <bullet> That the new DHS have the necessary capability and 
        authority to perform the critical infrastructure vulnerability 
        and warning functions envisioned in its enabling legislation
        <bullet> That the President clearly define the responsibilities 
        of DHS and other federal entities before, during, and after an 
        attack has occurred, especially any authority for directing the 
        activities of other federal agencies
        <bullet> That the President direct a restructuring of the 
        Federal interagency mechanisms to ensure better coordination 
        within the federal government, and with states, localities, and 
        the private sector, to avoid confusion and to reduce 
        unnecessary expenditure of limited resources at all levels
    And to repeat an earlier recommendation of the panel:
        <bullet> That each House of the Congress establish a separate 
        authorizing committee and related appropriation subcommittee 
        with jurisdiction over Federal programs and authority for 
        Combating Terrorism/Homeland Security.
    I will be happy to address any questions that Members may have 
concerning those recommendations.
    Use of the Military
    The panel continues to address issues involving the use of the 
military inside the United States for various responses to terrorism. 
In its next report, the panel will make recommendations dealing with:
        <bullet> Command and control issues involving the new U.S. 
        Northern Command (NORTHCOM)
        <bullet> Developing a more comprehensive, coordinated process 
        to identify the potential needs of States and localities, as 
        well as other Federal agencies, for military support against 
        terrorist attacks
        <bullet> Additional authority for use of the National Guard in 
        a Title 32 status
        <bullet> New roles and missions for certain National Guard 
        units
        <bullet> Better training and exercise programs for military 
        units for performing homeland missions
        <bullet> Better structure and policies for DoD civilian 
        oversight of the military
        <bullet> Clarification, consolidation, and explanations of laws 
        for use of the military domestically
    Health and Medical
    The panel continues its efforts to address the important issues in 
health and medical planning, preparedness, and response to terrorism 
and will make recommendations on the following subjects:
        <bullet> Sustaining and prioritizing resources to improve the 
        public health and medical infrastructure
        <bullet> Exercising and training health and medical response 
        entities in the larger emergency management context of 
        terrorism response including exercising the use of the National 
        Pharmaceutical Stockpile
        <bullet> Centralizing, coordinating, and simplifying Federal 
        information on resources, best practices, and research for 
        state and local access
        <bullet> Implementing the full range of research to improve 
        health and medical detection of and response to terrorist 
        attacks
        <bullet> Developing and operationalizing the laws and 
        regulations for health and medical response to a terrorist 
        attack including the clarification of the Health Insurance 
        Portability and Accountability Act (HIPAA) guidelines and the 
        rules for quarantine
        <bullet> Defining who is in charge in response to a 
        bioterrorist attack
        <bullet> Developing a strategic information plan for educating 
        and communicating with the public and the media before, during 
        and after an attack
        <bullet> Improving intelligence collection related to health 
        and medical issues
        <bullet> Establishing a national vaccine strategy
        <bullet> Responding to the threat of a smallpox attack
    Critical Infrastructure Protection
    For the Fourth Report, the panel has expanded its consideration 
beyond cyber security to include issues of physical protection of 
critical infrastructure. It will make CIP recommendations in the 
following areas:
        <bullet> Federal reimbursement for certain costs incurred by 
        States, localities, and the private sector for improvements to 
        infrastructure security
        <bullet> Improved training, standards, and protocols for 
        government and private sector responders, to include 
        facilities, responder equipment, and communications 
        compatibility and interoperability
        <bullet> More comprehensive and concise policies and enhanced 
        capabilities for intelligence and information sharing involving 
        critical infrastructure among government entities and with the 
        private sector
        <bullet> Improvements in security measures for and in the 
        screening of non-passenger cargo aboard commercial aircraft
        <bullet> Development of significantly enhanced security 
        measures for general aviation aircraft, passengers, and 
        facilities
        <bullet> Expanded research and development into CIP security 
        measures
        <bullet> Comprehensive revamping of Federal laws to address 
        privacy, freedom of information, liability, anti-trust, 
        indemnification, insurance, and related issues
        <bullet> Enhanced security for agriculture and the food supply 
        structure
    Agroterrorism
    The panel once again addresses the issue of Agroterrorism, and will 
make recommendations in the following areas:
        <bullet> Developing threat assessments for potential terrorist 
        attacks against U.S. agriculture
        <bullet> Including Agroterrorism as an Emergency Support 
        Function in the principal Federal response plan
        <bullet> Improving processes for testing for and identifying 
        agroterrorism attacks
        <bullet> Creating a system of fair compensation for losses due 
        to an attack
        <bullet> Enhancing education, training, and exercises on 
        attacks to agriculture
    We must develop processes that help us understand better how we set 
priorities for homeland security. We must answer some fundamental 
questions about preparedness, including the overarching one: 
``Preparedness for what''? Without a firm grasp on how to answer that 
question, how will we know that we have out priorities set forth 
correctly, and that the expenditure of scarce resources at every level 
of government is appropriate. A more educated and enlightened 
assessment of the threats we face is critical to answering that basic 
question.
    An integral part of that issue is the absolute necessity to have 
national standards for how entities at all levels of government and in 
the private sector train, equip, and plan for, and then coordinate 
responses to attacks. We are still a long way from having any standards 
for a variety of these issue related to homeland security.
    Mister Chairman, in the panel's second report, submitted in 
December of 2000, we addressed this issue head on. We did so in the 
context of our recommendation at that time for the creation of an 
office in the White House, very similar but not exactly like the Office 
of Homeland Security (OHS) headed by my friend Tom Ridge. We called it 
the National Office for Combating Terrorism, rather than ``Homeland 
Security.'' We would have placed some very specific responsibilities in 
that Office and in other entities for the development of national 
standards and for processes for research, development, test, and 
evaluation (RDT&E) to further the implementation of those standards. 
Those recommendations are worth repeating. (To avoid any confusion, the 
references to the ``National Office'' and ``Assistant Director'' are to 
the specific construct that we recommended in 2000, not to anything 
that currently exists in OHS). We said in 2000:
    ``Improve Plans for Research, Development, Test and Evaluation for 
Combating Terrorism''
        ``The national strategy developed by the National Office for 
        Combating Terrorism must contain a clear set of priorities for 
        RDT&E. The program and budget authority of that office must be 
        exerted to ensure effective application of Federal funds 
        devoted to this purpose.
        ``The White House Office of Science & Technology Policy should 
        play a major role in the effort. We recommend that the 
        Assistant Director for RDT&E and National Standards of the 
        National Office for Combating Terrorism either enter into a 
        formal relationship with OSTP or have appropriate members of 
        the OSTP staff detailed to the National Office for Combating 
        Terrorism on a rotational basis.
    ``Wide varieties of equipment that have potential application for 
combating terrorism are available from commercial vendors. 
Nevertheless, many local responders have told us that some equipment 
they purchased does not meet the specifications described by the 
vendor. At present, no viable program is in place for testing and 
evaluating the effectiveness of equipment for combating terrorism. We 
recommend that the Assistant Director for RDT&E and National Standards 
develop equipment testing protocols and continue to explore the 
prospect of financial support from vendors for equipment live agent 
test and evaluation, leading to Federal certification. We recommend 
that the Assistant Director for RDT&E and National Standards develop, 
as part of the national strategy, a comprehensive plan for long-range 
research for combating terrorism; this should include better 
coordination among the National Laboratories. The focus of those 
efforts by National Laboratories should be dual- or multi-purpose 
applications.
    ``The National Office for Combating Terrorism should also integrate 
other indirect, yet applicable, research and development projects into 
its information-dissemination process. For example, the Deputy 
Directorate for Operations (Combating Terrorism) within the Joint Staff 
provides executive seminars on its Best Practices Study for anti-
terrorism and force protection. This program also collects information 
on ``commercial off the shelf'' resources and equipment to support its 
anti-terrorism mission. These studies and resources may not directly 
relate to policy and standards for combating terrorism at the State and 
local level but may well contribute to State and local preparedness.
    ``The top priorities for targeted research should be responder 
personnel protective equipment (PPE); medical surveillance, 
identification, and forensics; improved sensor and rapid-readout 
capability; vaccines and antidotes; and communications 
interoperability.
    ``Develop National Standards for Equipment, Training, and 
Laboratory Processes
    ``One of our basic assumptions is that no single jurisdiction is 
likely to be capable of responding to a major terrorist attack without 
outside assistance. That leads to the inescapable conclusion that the 
development of national standards is a critical element of any national 
plan. Firefighters or EMS technicians in the jurisdiction where an 
attack takes place must not be concerned that responders from other 
jurisdictions, providing ``mutual assistance,'' will arrive with 
equipment of a different standard than local responders, even at risk 
of becoming casualties themselves.
    ``We recommend that the Assistant Director for RDT&E and National 
Standards in the National Office for Combating Terrorism establish a 
national standards program for combating terrorism, focusing on 
equipment, training, and laboratory processes. The fundamental 
objectives for equipment standards will be nationwide compatibility, 
and dual-/ multi-purpose applications. For training, they will be 
interdisciplinary curricula, and training exercises based on realistic 
scenarios. For laboratories, the focus should be clear, strict 
protocols for identification, forensics, and reporting. The ultimate 
goal of the national standards program should be certification of the 
specific equipment, training, or laboratory and a recapitulation of 
certifications in a ``Consumers Digest,'' for use by response entities 
nationwide.
    ``We recommend that the National Institute for Standards and 
Technology (NIST) and the National Institute for Occupational Safety 
and Health (NIOSH) be designated as Federal ``co-lead agencies'' for 
the technical aspects of standards development. The Executive Branch 
and the Congress should provide resources for the development of 
national standards, and Congress should be presented with a detailed 
budget request for that purpose at the earliest opportunity. In 
addition, the Interagency ``Board for Equipment Standardization and 
InterOperability should be subordinated to the National Office for 
Combating Terrorism.
    ``The Federal co-lead agencies should develop certification 
standards in coordination with appropriate Federal agencies and with 
advice from State and local response entities, professional 
organizations that represent response disciplines, and private and 
quasi-public certifying entities.''
    Mister Chairman, those functions that we recommend now almost two 
years ago still need to be performed, now obviously more urgently that 
before. Unfortunately, we are still a long way from achieving any 
coherence in standards and testing, especially for ``first responder'' 
equipment and communications capability. It is still the case that the 
only ``standards'' available are what vendors say are the capabilities 
of their wares. We continue to need something like an ``underwriters 
laboratory'' for a wide variety of protective equipment and 
communications. We have before and will again recognize the efforts of 
the Interagency Board for Equipment Standardization and 
InterOperability, National Personal Protective Technology Laboratory 
(in the Chairman's home state of Pennsylvania) and the Technical 
Support Working Group. Those efforts will not, however, be nearly 
enough, at least not at the level of current resources.
    For training, the panel is encouraged that the majority of Federal 
training programs, at least those currently in FEMA and DOJ, will 
apparently be combined in the new DHS. Nevertheless, other Federal 
agencies--EPA, DOE, DoD, DHHS as examples--will continue to conduct 
training that will need to conform to a set of national training 
standards. That effort has not yet been undertaken, but it should be 
required on an urgent basis.
    Fifth Report--A Return to Normalcy
    The Commission will end its five years of work on behalf of the 
Congress with its final report on December 15, 2003 to the Congress and 
the President.
    Mister Chairman, in our second report in 2000, we recommended a 
Director of Homeland Security in the Executive Office of the President 
to develop a national strategy, and to direct its implementation among 
the array of cabinet departments and agencies. We recommended that the 
Director have great authority over the Federal bureaucracy, including 
budget certification authority. We did not recommend a separate 
Department of Homeland Security because of concerns that delays 
resulting from setting up the new Department would slow the 
implementation of the national strategy. It has been decided that the 
advantages of a Department organization outweigh that risk, and our 
goal is to assist the new Department and the federal, state, and local 
governments by strategic thinking on Homeland Security.
    We believe that the national goal must be to implement a true 
national strategy that assesses the true risk to the nation and 
reasonably prepares for those risks. Complete security is not possible 
against a stealth terrorist attack, but a good national strategy can 
reduce that risk, and direct our resources to the correct priorities. 
Only then can we manage the costs of Homeland Security and know the 
money we are spending is effective within a national strategy.
    We must then have a frank dialogue with the American people that 
all risk cannot be eliminated. We must decide what roles are 
appropriate for federal, state, and local governments, the private 
sector and the people themselves.
    Then we should return to normalcy, and understand our definition of 
normal. Normalcy will never again be an unguarded or inattentive state, 
but we also must decide how much is enough, and continue on with the 
array of priorities we will pursue as a nation. Defining preparedness 
and the roles of states and localities will be a key part of our Fifth 
Report.
    We also will draw attention to the need to maintain our Civil 
Freedoms as we make the nation more secure. Our traditional values of 
liberty cannot be balanced against or traded off for security. We also 
must be cautious that those responsible for security do not simply 
redefine away our freedoms in the name of security. It is preparedness 
that must be defined, not our definition of freedom that has already 
gained its meaning from the blood of American patriots, including those 
that died on September 11, 2001. This, too, will be discussed in the 
final report this December.
    Conclusion
    The Advisory Panel will continue to be relentless in pursuing 
appropriate solutions to these difficult issues, even if our 
recommendations are controversial and cross some ``turf'' boundaries. 
We will always--always--consider as an overarching concern the impact 
of any legal, policy, or process changes on our civil rights and 
liberties. Our Constitution, our laws, our judicial system, our 
culture, our history all combine to make our way of life unique in all 
the world.
    Thank you again for this opportunity.

    Chairman Cox. Thank you, Governor. Thank you both for your 
outstanding testimony, for the work that you have done in 
preparation for it and for your assistance to the Congress and 
to the President in our work.
    Ms. Hill, one of the Joint Inquiry's recommendations that 
you cited in your own testimony today is for, quote, full 
development within the Department of Homeland Security of an 
effective, all-source terrorism information fusion center.
    That all-source center is supposed to have--continuing to 
quote the recommendation--full and timely access to all 
counterterrorism related intelligence information, including 
raw supporting data as needed.
    We share that view. I stressed in my opening statement that 
I believe this is a bipartisanship view of virtually every 
member of this committee. That is what we think we legislated, 
having read the statute many times over, in creating the 
Information Analysis and Infrastructure Protection Directorate 
within the new Department. We want that mandate implemented, 
and we are somewhat troubled by the implications that perhaps 
it isn't.
    Your testimony notes, for example, creation of the 
Terrorist Threat Integration Center, TTIC, not within the 
Department of Homeland Security but as a nonstatutory DCI-
supervised interagency joint venture.
    Can you outline the reasons that the Joint Inquiry 
specifically recommended full development of an effective, all-
source terrorism information fusion center, quote, within the 
Department of Homeland Security?
    Ms. Hill. I believe, Mr. Chairman, that the reason for a 
fusion center, wherever it is, was the numerous examples, in 
the hearings and our work, of the failure to bring all of that 
information into one place to look at the big picture, to 
connect the dots, to analyze it the way it should be analyzed 
and then to get it to the people who need it.
    So any fusion center is hopefully designed to do that. The 
reason, as I recall that-the recommendation speaks specifically 
to the one in the Department of Homeland Security--was because 
at the time the committees considered these recommendations 
that had been statutorily enacted. They were aware that there 
was a statutory provision to set that up in the Department of 
Homeland Security.
    I think the National inclination was Congress has decided 
that is where it is going to go. If it goes there, it needs to 
be effective. I think a large part of the thrust of the 
recommendation was not just that you should have it at Homeland 
Security but that whatever is set up there should be done the 
right way, specifically, to include things like access to raw 
data, which had been a problem, and a whole host of other 
issues that we had heard about that were problems for the 
analytical community.
    Chairman Cox. Now, I strongly support the use of TTIC as an 
interim step. I don't want us to drop a stitch while we are 
building something new at the Department of Homeland Security, 
and obviously TTIC is an executive creation without any 
Congressional authorization whatsoever. But it is filling a 
gap, and it is ensuring that we are doing things 
professionally, immediately not eventually, and there is some 
eventually when it comes to the creation of this brand new 
Cabinet department.
    But my concern runs to the longer term, because the statute 
hasn't changed since you wrote your report. The very reason you 
made your recommendation, as you have just explained it, 
obtains today. The statute says the same thing now that it did 
then, the legal requirement is exactly the same now as it was 
then.
    And so I am concerned now that there is a risk that the 
DCI, who has pledged his support to TTIC, is now going to have 
to provide support both to TTIC, and to whatever might go into 
Homeland Security. If we want a fusion center, having two of 
them doesn't exactly fit the bill, does it?
    Ms. Hill. No. The whole point is to get it all in one place 
so we make sure that it is analyzed the right way and it is 
disseminated to the people who need it. I do want to just 
clarify that TTIC, as it exists now or is being talked about 
now, did not exist at the time the committees made this 
recommendation.
    So they were making their recommendation based on what they 
saw as a huge problem pre-9/11 and knowing that the Congress 
had put in this provision about a fusion center at the 
Department of Homeland Security.
    Chairman Cox. Well, I think all of us can agree, and it is 
a strong inference that I draw from your testimony, that we 
should not, if we are anxious to fuse intelligence data, create 
competing sources of focus of effort, that we should not draw 
Intelligence Community assistance in providing analysis of 
terrorists threat related information, and so on, to TTIC as 
well as to the Department and dilute that purpose.
    Governor Gilmore, you have been not only spending the last 
several years studying counterterrorism and our 
counterterrorist capabilities, but you have also been a 
Governor of a State with major technological, economic and 
military significance from a standpoint of defending ourselves 
against terrorism.
    You were one of the three States that the terrorists 
thought important enough to attack. The homeland security 
advisory system is supposed to give us strategic and, whenever 
possible, tactical advance warning of terrorist threats, but it 
has been criticized. I would like to have your views on whether 
the security advisory system is effective, on whether the color 
system which has been derided in some corridors is working, on 
whether this can be improved.
    Mr. Gilmore. Mr. Chairman, it seems to me that the color 
code is a shorthand. It is intended to be a quick, simple way 
of communicating a simply concept of what exactly level the 
country is in at any particular point in time. It has been 
derided because it doesn't give any information to tell anybody 
what to do. That is accurate. And there is also a challenge 
too. And that is that as we go forward and we don't have 
information that leads us into a red situation or a highly 
dangerous situation, then we are in a constant yellow state, 
and so there are challenges on all of that.
    It would be good to have a system that can convey the most 
information possible, if not to the general public, at least up 
and down the line to appropriate elected officials, people who 
would have responsibility, particularly in the communities, 
which means that you have to give good information, to the 
greatest extent you can, into the States and into the 
localities. It doesn't have to be something where you go on the 
radio and define it with a color code, but the best possible 
information should be given to the States and to the 
localities. This is the challenge.
    There are cultural challenges. There are cultural 
challenges, by the way, in the fusion center. We recommended 
that and examined it in the year 2002. The challenge to it is 
cultural less than structural.
    And likewise here with this type of response, the question 
is, what kind of information can you get into the hands of the 
people who need it under the people who are actually patrolling 
the chemical plants and patrolling the critical infrastructure 
areas and watching out for the streets.
    To the greatest extent possible, we should give the best 
possible system to get the maximum information to them, and 
culturally there are obstacles to do that.
    Chairman Cox. I appreciate that. One final question for Ms. 
Hill. The Joint Inquiry report notes that two of the 9/11 
hijackers had numerous contacts with a longtime FBI informant, 
yet despite this and earlier information linking them to 
suspected al-Qaeda members no further action was taken to 
investigate, detain or question either of them.
    Can you explain to us in this open setting, to the extent 
possible, the problems that the FBI encountered within its own 
structure, how these men were able to hide not only from our 
own intelligence but from paid informants within the Islamic 
community as well?
    Ms. Hill. Well, let me just start out briefly, and it is a 
complicated story. But briefly, part of what the Inquiry found 
was that these two individuals, Mihdhar and Hazmi, were known 
to the CIA and other parts of the Intelligence Community as 
early as January of 2000, and there was information in January 
of 2000 that Mihdhar had a visa to come to the United States, 
would likely come here. That information, as best as we can 
tell, was not passed to the FBI, from the weight of the 
evidence the Inquiry found, until August of 2001.
    The CIA had information in March, I believe, of 2000 that 
Mr. Hazmi had in fact traveled to the United States. That 
information, as best as we could tell, the weight of the 
evidence was that it was not passed to the FBI until August of 
2001.
    The informant had contacts with those two individuals in 
the year 2000, after that information was in the CIA. However, 
the San Diego office of the FBI did not know about those two 
individuals. They didn't know the full names of the 
individuals, they didn't know they were coming to the United 
States. They had no reason to be looking for them. The 
informant had given the names, the first names, of the two 
individuals to the FBI agent that was responsible for that 
informant. But according to the FBI, and according to the 
agent, there was no reason for them to focus on those two 
individuals. I believe the informant described them as young 
Saudi youths by first name only. The agent testified he never 
got their last names. In August, 2001, on August 23rd, when the 
FBI learned the full name of the these individuals and that 
they had come to the United States, there was an effort, an 
investigation by the FBI, to find them in the United States.
    However, that effort did not entail tasking FBI informants 
for information about those two individuals. So the informant 
in San Diego was not asked at that point whether that informant 
knew those two individuals. And it also did not entail any 
information about them being sent the San Diego FBI office.
    The agent in San Diego who was responsible for the 
informant testified that had that agent gotten those names at 
that point, even at that late point, the agent believes he 
could have found them. He believes he could have, through the 
informant and his other sources found those individuals. He 
also testified that had the CIA gotten that information to the 
FBI and had the FBI, in turn, gotten it to their San Diego 
office back in the year 2000, that FBI agent in San Diego 
strongly believes that if he had had the names he would have 
tasked his sources, and he would have found them at the time 
living in San Diego. Because that office would have had the 
tremendous opportunity of having a long-time FBI informant 
having contacts with those two individuals, he thinks through 
that informant and through surveillance, both physical, 
electronic, whatever, he would have used the ``full-court 
press'' in investigative techniques on those two individuals, 
and he believes that he would have found them.
    He believes that he would have had a very good chance to 
crack open what the plot was and what they were doing in this 
country. Obviously it didn't happen. He didn't have that 
information. The information never got to the San Diego FBI 
until after September 11th.
    Chairman Cox. Well, I can't think of a more compelling 
illustration of why we need intelligence fusion and sharing of 
information within Washington between intelligence and law 
enforcement between Washington, State, local governments at all 
levels.
    The gentleman from Texas, Mr. Turner, is recognized for his 
questions.
    Mr. Turner. Thank you, Mr. Chairman. Governor, you have 
been working on homeland security for about as long as anyone I 
know, and you have certainly been able to develop insights that 
many of us have not had the opportunity to develop. I think it 
is always helpful to us, even though I know this calls for some 
value judgment here, but it is always helpful to us if you can 
just share with us what you think might be the two or three or 
four or whatever is on your priority list of homeland security 
tasks, that you think we really need to get done as soon as 
possible to make this country more secure.
    Where would you tell us to place our priorities? What needs 
to be done that is not being done? And I heard this same 
question posed the other day in the Senate committee where 
Chairman Cox and I were kindly invited to testify. The same 
question was posed to Senator Rudman and Richard Clarke, and I 
suspect you probably won't give the same answers, but it was 
insightful just to hear their views, and I would like to hear 
yours.
    Mr. Gilmore. Congressman, one could go burrow down into 
this issue a level and begin to address some of the specific 
vulnerabilities. Ports comes to mind. While our Commission 
doesn't think that it is a high likelihood that we would see a 
classic weapons of mass destruction used in this country, it is 
clear that we have to be very cautious about the issue, 
particularly of bioterrorism.
    So one can go down and begin to address this, but--and you 
should, one should do that. But you arrive at a point where you 
begin to catalog lists of vulnerabilities. And this nation--any 
nation really--most authoritarian nations are not free from 
threat, much less free countries, such as the United States, 
and one as big as this country is.
    So it seems to me that we have to focus on several more 
strategic points, and that comes down to the big question of 
trying to get everybody placed into a national strategy so we 
understand what everybody's function is. Even to this day the 
localities are still divided as to whether they are going to 
try to get grants that come directly to them or whether they 
are going to go through the States.
    It is clear that the national strategy and structure that 
has been set out would be to have that organized on a State 
basis. What good does it do to talk about--to argue over the 
question of whether chemical plants are the most vulnerable, 
because they are very vulnerable, but lots of things are 
vulnerable, railroads, bridges. One can talk all day and create 
a parade of potential horribles.
    I think what we really have to do is focus our attention on 
trying to make some policy decisions. The Congress, it seems to 
me, and the executive branch have to make policy decisions 
about how you set up the proper national strategy in order to 
deal with what is most likely that could occur, threat 
assessment, as one of the Congressman said a little while ago, 
and then playing off that. You understand that you may not be 
able to foresee every evil thing that a well-financed, 
militarily trained enemy could do, but you can foresee 
reasonably what they may be prepared to do and then prepare 
against that to the greatest extent possible.
    The most important thing is this. How do you develop a 
national strategy that works with the States and create the 
State plans which have been directed and to make sure that 
those State plans take into consideration what the locals 
believe that they have to have in order to respond to 
reasonable risks, which they don't know what they are, by the 
way.
    It seems to me that the national government has to help 
identify what the real threats might be so that the localities 
can respond and say, well, we don't need a fire truck, we need 
something else, and to make sure that the money that is 
requested and the grants that go on are appropriate to a 
genuine overarching, hanging together national strategy that 
puts money into the proper places so that you can train and 
exercise and prepare in that way, and that is the overarching 
need that we see right now.
    Mr. Turner. Well, I appreciate that observation. I know on 
this committee we have all shared the concern that the first 
task that our new Department of Homeland Security must complete 
as soon as possible is that national threat assessment, 
assessment of our vulnerabilities, so that we can develop some 
prioritization of what we need to be doing first, because you 
are correct, there are many risks that we can face, many 
vulnerabilities out there. But selecting the ones we need to 
deal with first cannot be successfully done unless we have that 
national threat assessment, that vulnerability assessment, and 
the matching of the threats and the vulnerabilities.
    So I think that is a number one. I am also impressed with 
your comments about developing the necessary definition of 
preparedness. One of the things that I think we must have is a 
clear definition of what are the essential capabilities that 
our States and local governments need to respond, and I know 
you have spent some time working on that. I would welcome your 
comment on that issue as well.
    Mr. Gilmore. Yes, sir. And let me refer you, Congressman, 
if I could, to our 1999 report, which was virtually exclusively 
a threat assessment. After the 2001 attack we heard a lot of 
things in the papers, on the radio and TV and in the halls of 
Congress and everywhere about threat that did not match up to 
what we had said in 1999, and the Commission suggested that we 
do a reassessment of the threat, which we did again in our 
report of 2002.
    So I would direct you to those. And, by the way, we didn't 
feel the threat was different at all when we took a second look 
at it in 2002.
    And, Congressman, your specific question was?
    Mr. Turner. Well, I picked up your remark earlier about 
trying to establish a definition of preparedness, I believe is 
the way you expressed it. I have thought of it in terms of 
establishing those essential capabilities to respond that we 
need to have available in our States, and in our communities 
that would protect us in the event of--
    Mr. Gilmore. Yes, sir. The strategy, Congressman, is 
everything. If you understand what it is you are trying to 
protect in this country, specifically and you understand what 
the locals need, only then does the grant to them make any 
sense. Otherwise you end up with local agencies and 
organizations simply following their old priorities they have 
always followed. That then becomes what we all know as pork 
barrel. I guess there will be plenty of that.
    But the fact is it would be nice if we can get most of this 
money focused into an actual direction of a strategy against 
real threats. Now, that means that of course the threat picture 
in Montana will look different from the threat picture in 
Virginia, for example.
    But the locals working together with the executive branch 
within the respective States ought to be able to create a State 
plan. That isn't the end of it, however. I am one who believes, 
that while you can create things from the bottom down, you 
really need top up, top down leadership also, to then make all 
of that harmonize so that we all understand that we are playing 
on the same sheet of music, and that is where I think the 
direction is that we are going and where we should go.
    Mr. Turner. Thank you.
    Mr. Gilmore. I hope that was responsive.
    Chairman Cox. I thank the gentleman. The vice chairwoman, 
Ms. Dunn, is recognized for questions.
    Ms. Dunn. Thank you very much. Ms. Hill, I wanted to ask 
you a question. In your recommendations for reform it 
emphasizes the need for the development of a national watch 
list for terrorists. It is my understanding that the 
development of this watch list has not yet happened, and I am 
wondering how important this component of reform is, how close 
are we to making it reality, what obstacles exist in its way, 
and ought we, DHS, ought the Department of Homeland Security, 
actually be its home?
    Ms. Hill. Well, I think it is very important. I mean, one 
of the things that we saw when we did our investigation was 
that there were many different watch lists. As with a lot of 
other things in the government, we have more than one agency 
handling one watch list. And I think, like the fusion center 
the important point the committees wanted to make is that we 
should have all of this information together in one place. We 
should have a watch list in one place that people can go to and 
everyone can get access to those names so that we can be sure 
that people do not fall through the cracks.
    I have not, since the conclusion of the Inquiry, continued 
to work on this at the committee. I am no longer with the 
committee. So I have not addressed what is the current status 
of the watch list situation. So I really cannot, you know, 
speak to how far they have come along in correcting that and 
getting it into one agency.
    But it is extremely important, because of what we found. 
Not only did Mihdhar and Hazmi not make it to the watch list 
until very late in the game, we found that after September 11th 
the CIA provided a lot more information to the State Department 
for the watch list and more individuals were watch listed after 
September 11th. So there was clearly some, you know, lack of 
getting those names to the list for use by the other agencies 
at a time when obviously it could have made a big difference, 
particularly with those two individuals.
    So it is extremely important. We were told during the 
course of our investigation that there was anything from 
several watch lists to 50, 60 watch lists in the U.S. 
Government. So it is a big job to put it all in one place, but 
it should be done.
    Ms. Dunn. And it is a scary term, isn't it? I think it 
frightens people out there until they understand how the lack 
of such a watch list caused us huge horror the last time.
    In your testimony, you also outlined your findings that 
clearly point to systemic communications problems across the 
Federal intelligence agencies and law enforcement agencies.
    On the Federal level has the Intelligence Community 
responded to correct those situations? And would you suggest 
that Congress exercise more aggressive oversight in this area, 
in this area or some other area, to help in the effort?
    Ms. Hill. Well, both Director Tenet and Director Mueller 
testified in front of our inquiry, and both stated that they 
were doing everything in their power to increase communication 
and cooperation between the two agencies, and between the rest 
of the Intelligence Community. So we clearly were told that 
things were changing and things had improved.
    Part of the problem is we have a huge Intelligence 
Community. We have, I believe, 13 different agencies and you 
need to have good communication and good exchange of 
information. Not just the top leaders have to agree to do it, 
but it has to filter all the way down through these agencies to 
the people on the front lines, to the field agents who are in 
the offices dealing with the Intelligence Community. As 
Governor Gilmore knows, it is also critically important to then 
get cooperation and exchange of information between our Federal 
community, law enforcement and intelligence, and the State and 
locals, who we also heard from in our investigation.
    So I believe, and again, as I said, I have not continued to 
update and focus in depth on what is happening right now, but I 
believe that given the events of 9/11, given the focus and the 
level of interest in that, that people are clearly more alerted 
now to the need for that kind of exchange. I would be surprised 
if every piece of the problem has been eliminated, just simply 
because of the size of the problem. We are talking about all of 
the Federal intelligence agencies, the rest of the Federal 
Government, the gap between law enforcement and intelligence 
and then the State and local. So it is a huge area where we 
need to focus attention.
    I think there is more attention now, more direction to 
share information, but we need to sustain that emphasis on 
information sharing.
    Ms. Dunn. Thank you. May I ask the Governor a question, Mr. 
Chairman?
    Chairman Cox. Without objection.
    Ms. Dunn. Governor, let me just ask you one question. We 
heard testimony yesterday from former Speakers Tom Foley and 
Newt Gingrich that was very useful in laying out why they 
believed this committee, the Select Committee on Oversight of 
the Department of Homeland Security ought to be made a 
permanent standing committee.
    The most recent report of your panel includes the 
observation that Congress is, quote, still not well organized 
to address issues involving homeland security in a cohesive 
way, and certainly we have seen that overlapping jurisdictions 
lead to lack of focus.
    I am wondering if you could expand on your recommendation 
for improving this oversight aspect.
    Mr. Gilmore. See, Congresswoman, that is the trouble with 
the Commission, it just doesn't mince words. The Commission 
believes and has discussed over years and still believes that 
there needs to be the greatest concentration possible in both 
Houses of the Congress of oversight and budgetary authority of 
the Department of Homeland Security.
    It is hard to set up a new department. That also has been 
discussed extensively in our reports, very difficult to do. Our 
emphasis has been on the implementation of appropriate strategy 
and policy. That has to be the focus, not so much the 
organizational aspects that can in fact get in the way of that.
    If the Congress contributes to that, by having so many 
different committees that are dealing with different monetary 
aspects or different aspects of the organization, and so on, it 
is going to be even harder for Governor Ridge to make that 
Department the effective tool that I believe that he will make 
it be.
    So, yes, our recommendation is the greatest possible 
concentration of these resources and assets into one, even a 
joint committee, but at least one committee in each House.
    Chairman Cox. The gentleman from the State of Washington, 
Mr. Dicks.
    Mr. Dicks. I would point out that both of the 
Appropriations committees, House and Senate, have created 
subcommittees to do that. I think that brings some focus, 
though I strongly support the effort of having this as a 
permanent committee. You know, the one thing that always 
worried me about this, your Inquiry, Ms. Hill, was that there 
was some good work done and in one of the findings it talks 
about the July 10th, 2001, Phoenix FBI field office agent who 
sent an electronic communications to four individuals in the 
Radical Fundamentalist Unit, and two people in the Osama bin 
Laden Unit at FBI headquarters, and two agents on international 
terrorism squads in the New York field office.
    In the communication the agent expressed his concerns, 
based on his firsthand knowledge, that there was a coordinated 
effort underway by bin Laden to send students to the United 
States for civil aviation related training. He noted that there 
was an inordinate number of individuals of investigative 
interest participating in this type of training in Arizona and 
expressed his suspicions that this was an effort to establish a 
cadre of individuals in civil aviation who would conduct future 
terrorist activity.
    The Phoenix EC requested that FBI headquarters consider 
implementing four recommendations: Accumulate a list of civil 
aviation university colleges around the country, establish 
liaison with these schools, discuss the theories contained in 
the Phoenix EC with the Intelligence Community, and consider 
seeking authority to obtain visa information concerning 
individuals seeking to attend flight schools.
    However, the FBI headquarters personnel did not take the 
action requested by the Phoenix agent prior to September 11th, 
2001. The communication generated little or no interest at 
either FBI headquarters or the FBI's New York field office.
    In your inquiry, what was the reason for that? That still 
to me is so shocking that--even though they had information 
going back to 1994 that an aircraft could be used, and you had 
these people who were highly questionable, that this did not 
spark any interest in either the FBI national headquarters or 
at their New York office, which was in charge of 
counterterrorism. Why is that?
    Ms. Hill. Well, there were several, I guess, contributing 
factors. The agent who wrote that communication told us that he 
knew how big the FBI is, how many other things were going on. I 
think he used the words that he thought it would go to ``the 
bottom of the pile,'' which it pretty much did. It didn't get 
much attention.
    Part of the problem was the FBI's electronic systems for 
data and sending data. There are questions whether or not it 
went to all of the people it should have gone to. It went to 
some intelligence specialists in FBI headquarters. They told us 
they were going to act on it, but that they didn't get around 
to getting back to it.
    They looked at it more in terms of what case would this be 
relevant to. And they sent it to one field office where there 
was a case where it might have potentially been relevant. They 
weren't looking at it as a national kind of analytical product.
    The New York FBI office, which was heavily involved in 
counterterrorism, did get it but it wasn't considered 
particularly unusual to the New York agents, because they knew 
through, I believe some of the testimony in the embassy bombing 
case, for example, that pilots or al-Qaeda related pilots had 
come to light before.
    So they didn't focus on whether the pilot might be for 
another reason, or this might be something else. Basically, it 
didn't get a lot of attention. And the FBI agent in Phoenix who 
wrote it, of course, I don't think he expected it would get a 
lot of attention. That is what he told us. But he sent it up 
anyway.
    Mr. Dicks. Did he try to follow up or go back a second 
time?
    Ms. Hill. No, he didn't. Well, that memo went out in July 
of 2001. So it was within a month or two of the September 11th 
bombings. And he did not. Because he--as I said, he thought it 
would take a long time.
    One of the things that we heard repeatedly throughout the 
whole course of this was how long it took for things to get 
turned around, the problems with the FBI's data systems and 
electronic messaging and all of that.
    Mr. Dicks. What is wrong with a phone call? What is wrong 
with picking up the phone and calling somebody if you have a 
very strong suspicion? Did he ever think about that? I know we 
live in an era of e-mail, but I think that sometimes people 
forget that you can pick up the phone and call your superior 
and say, why are we not doing something about this?
    Ms. Hill. Well, I don't believe that he did that. And I 
think he would tell you, you know, that he felt he did what he 
could. It was about his theories. It was a theory to him. He 
was kind of saying, this is what it looks like to me, and sent 
it up with some recommendations. But I don't think--
    Mr. Dicks. We had a similar situation in Minneapolis, isn't 
that correct?
    Ms. Hill. Well, Minneapolis was a little bit different. 
That relates to Moussaoui, the arrest of Mr. Moussaoui in 
Minneapolis. And the agents, they were very concerned that he 
might be involved in some sort of terrorist plot with airlines. 
And they went back and forth with FBI headquarters on the issue 
of whether or not they could get a warrant and whether or not 
they had enough on him to move forward under FISA, and there 
was a misconception of what they needed to allege under FISA. 
They spent a lot of time looking for some connections that they 
actually didn't need legally. So there was a lot of that back 
and forth and their request never went, as I remember, never 
went beyond the FBI to the Justice Department.
    But the interesting thing about both of those cases, and 
what concerned I think our two committees, was that, number 
one, they both occurred in the summer of 2001, which was a time 
when there was a very high peak threat level for some sort of 
terrorist attack against U.S. interests.
    The Phoenix agent did not know about Zacarias Moussaoui. 
The agents handling Zacarias Moussaoui didn't know about the 
Phoenix electronic communication. And neither of them knew 
about Mihdhar and Hazmi, before August, coming into this 
country. And, of course, the FBI didn't know that in June and 
July because they hadn't got the information from the CIA.
    So, you know, what we found, and that is the classic 
example of it, is we found all of those pieces, these threads 
of information, that if somebody had been able to see the whole 
picture and put this together, you know, you would have known, 
here we have a huge threat. We have two guys, al-Qaeda 
associates, coming into this country. We have another 
suspicious individual in Arizona, we have a memo out of Phoenix 
saying that he believes bin Laden is sending people for civil 
aviation related training.
    None of those people knew all of it, none of the people who 
had one piece knew what all of the others had, including the 
agent in California who had the informant. That informant knew, 
among other things, and told the FBI after September 11th, 
that, for instance, Mr. Hazmi was going to, of all places, 
Arizona for flight training, for civil aviation training.
    And that is where the Phoenix agent--at that time was 
sitting there in July of 2001 and later, with that information. 
None of that was connected. And Moussaoui wasn't connected to 
it. So, you know, we will never know what would have happened 
if they had put it all together. But they certainly would have 
been a lot closer to seeing the big picture than what history 
shows that they were.
    Mr. Dicks. What worries me here is you can have very good 
field work, but you have to have people in the supervisory 
level who take that information and act upon it. There have 
been so many situations in our history where we had the 
information but the people at the higher levels didn't respond 
to the information and didn't act and didn't do anything.
    And, you know, first--President Bush I, the first thing he 
said after Desert Storm/Desert Shield, when the Iraqis attacked 
into Kuwait, was that it was not an intelligence failure, it 
was a failure of his administration to act because he was told 
by all of the leaders of the governments in the area that 
Saddam Hussein wouldn't make this attack. And even though we 
had the information, we didn't act on it.
    So I bring this up, I think this is an important part of 
this committee's deliberations. We have got to get all of this 
information and do a better job of collecting, but you also 
have to have some people with judgment who analyze and then get 
it to their superiors to act upon.
    And I think these examples that we discussed here show an 
example in this very important situation, where we had good 
information, but we didn't have people who acted on the 
information or didn't recognize the importance of the 
information, and I hope it is something that we continue to 
consider in our committee deliberations.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman. The gentleman from 
Connecticut, Mr. Shays, is recognized for questions.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for conducting this hearing and thank you to our very 
distinguished witnesses.
    When my National Security Subcommittee was holding hearings 
before September 11th, we had you, Governor, before our 
committee on more than one occasion, along with Hart, Rudman 
and Bremer, and all three of you agreed on the following: We 
have a terrorist threat. We need to develop a strategy to 
respond to the terrorist threat. And you only disagreed really 
on the nuances of how you reorganize, because you all said we 
needed to reorganize to implement that strategy. So we had a 
loud message from three very distinguished commissions.
    My first question to you is: When we did reorganize, we 
basically did it before we really described what the threat was 
or developed a strategy, and do you think that we have been 
hindered and maybe didn't reorganize the way we should have 
because we did not do what we needed to do--in my judgment--
which was state the strategy and state the threat and develop 
the strategy?
    Mr. Gilmore. Yes, Congressman. I think that is a pretty 
good summary of where I think that strategically we may have 
fell behind a little bit. I would point out that there is still 
not a consensus yet as to the nature of the threat. Our 
Commission does not believe that threat of a classic weapon of 
mass destruction is as great as frankly has been discussed in 
the newspapers and perhaps in this body as well.
    But on the other hand, we have hedged. We have not ruled it 
out. We believe that the consequences would be so great that we 
have to at least take it into consideration. But the thrust of 
our Commission has been that we need to think more about what 
the capability, the true capability of the enemy is, and the 
true capability of the enemy is more along the lines of 
conventional weapons, an explosion, a bomb, hijacking a plane, 
hijacking a train, something of this nature, not a nuclear 
device or something of that nature here in the homeland.
    But, yes, thinking through the strategy then lends itself I 
think very well to the proper type of structure that needs to 
go into place.
    Mr. Shays. I had hoped that having reorganized that the 
Department of Homeland Security would then, even though it 
seemed to follow, have stated threat analysis and its strategy, 
to my knowledge, this has not been done.
    Ms. Hill, to your knowledge has this been done?
    Ms. Hill. Mr. Shays, I am not--as I said, I have not been 
following what has been going on within the--what we looked at 
was what happened before 9/11. I haven't been following up on 
everything that has happened since.
    Mr. Shays. I hear you. Governor?
    Mr. Gilmore. Strategy or a threat assessment?
    Mr. Shays. Well, both the threat assessment--to--I had 
hoped by now the Department of Homeland Security would have 
stated clearly what the threat was and what our strategy is. I 
have not yet seen a document that does either. Have you?
    Mr. Gilmore. Well, there are about eight strategies, as you 
know, that are in print right now: Critical infrastructure, 
cyberterrorism, bioterrorism, a general overarching national 
strategy as well. So there is a lot of work.
    Mr. Shays. Based upon a response to what they stated is the 
threat?
    Mr. Gilmore. Not so much. I think that we probably do need 
to have a clearer thought through threat assessment. Again, we 
have taken a couple of cuts at it for you--
    Mr. Shays. Right.
    Mr. Gilmore.--as a foundation. But that I think lends 
itself to--the strategy comes into clearer picture. It makes no 
sense to spend a lot of money preparing against something that 
is unlikely, when the very likely is right before you.
    Mr. Shays. I hear you.
    Ms. Hill, on the whole issue of fusion and the issue that 
we have one place, and it seems to me that should be the 
Department of Homeland Security. It is one of four pillars. It 
gets information from our security folks. But I happen to 
believe, and I am curious if you do as well, that had we just 
paid attention to what was said in public that we would have 
known about the terrorist attack?
    I base that based on our hearings, but also my travels, 
particularly to Israel and the documents that we saw, the 
articles in the Egyptian newspaper about a debate among 
scholars before September 11th about whether it was a religious 
doctrine that would allow for a Muslim to, in fact, attack the 
Twin Towers.
    So when we talk about fusion--and Governor Gilmore as 
well--we are not just talking about Federal, State and local. 
We are also talking about providing public documentation in it 
as well.
    Would you comment, Ms Hill?
    Ms. Hill. I think that public documentation and open source 
information is very important. I mean, ideally you would want 
all of the information. Because, you know, we found there was a 
tremendous amount of informationSec. . You know, we didn't have 
one single piece of intelligence that said: It is going to 
happen on September 11th with planes at the World Trade Center. 
We don't have that, but we had a whole lot of little pieces. We 
had a tremendous amount of information out there on the scope 
of the threat, on tactics. We knew these specific individuals, 
two of them at least, were coming into this country that 
ultimately ended up on these planes.
    So, you know, we did have a lot of information, but it 
wasn't brought together. And I think open source information is 
also critically important. And, you know, ideally if you had a 
fusion center, not only would that brings in intelligence 
information, but also law enforcement information.
    As Governor Gilmore points out, and he is absolutely right, 
State and local law enforcement can be a tremendous source of 
valuable information.
    Mr. Gilmore. The central problem--first of all, you are 
correct, Congressman Shays, absolutely correct, about the need 
for open source material. Not all intelligence is secret 
intelligence. In fact some of the best intelligence is what the 
enemy tells you.
    But put that aside for a moment. The critical problem is 
culture. The problem is within the fusion center and within 
intelligence organizations we have ingrained in for many 
decades a reluctance to share information. Hopefully the fusion 
center, the TTIC or whatever format ultimately survives, will 
gain the esprit de corps, confidence and team work to give 
information back and forth and to bring in the States and 
locals.
    The central concern we hear is the States and locals say we 
are happy to give the feds information, but it is a one-way 
street, after a while we get tired of it.
    Mr. Shays. Would either of you comment on what former 
Senator Hart has done with the Council on Foreign Relations in 
the whole sense that we are underfunding our first responders 
because we have not created standards, and therefore don't know 
how to judge what they need, and their estimate that we could 
be a hundred billion dollars short in 5 years?
    Ms. Hill. I have--we did not look at first responders. We 
looked at intelligence. And I would defer to Governor Gilmore.
    Mr. Gilmore. We have extensively discussed standards in our 
reports over the years. Yes, standards are necessary, because 
you have to know what kind of gas masks, what kind of materials 
you need and so on. But that isn't so much the central point. 
It is standards to do what? It is buy personnel to prepare for 
what? It isSec. ut together organizations to respond to what 
threat, and to what type of response is necessary? What kind of 
vehicles do you need? It is not just a matter of which vehicle.
    Mr. Shays. Now, follow up with my yellow light. Should we 
require the Department of Homeland Security in the next 9 
months to do that? They are giving out money and should we be 
saying you are giving it out under what basis?
    Mr. Gilmore. Well, they are not giving much money out, and 
you hear that from the locals all of the time, and I am not so 
sure that is bad, to tell you the truth, and it ought to go out 
sparingly.
    Mr. Gilmore. The answer is--the question is, should the 
Department do it? Yeah, but they have got a lot on their plate. 
It is hard to put together these agencies--these disparate 
agencies with different cultures. I think the administrative 
burden is enormous, but to the extent that strategic thinking 
could be done by the Department under your direction, I think 
it should be.
    Mr. Shays. Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman.
    The gentleman from Mississippi, Mr. Thompson, is recognized 
for purposes of questions.
    Mr. Thompson. Thank you, Mr. Chairman. I, too, have enjoyed 
the testimony of both witnesses.
    Taking off from Congressman Dicks' comments earlier, Ms. 
Hill, if that agent sent that same memo today, do you think it 
would be treated any differently?
    Ms. Hill. I certainly hope it would. I think Director 
Mueller is very much aware of that situation and is very much 
aware of our report and has indicated in his statements that 
the FBI is taking our recommendations very seriously. The 
committees have made a long list of things that we pointed out 
in this report to the FBI that need to be done to improve their 
own internal communication and their focus this these kinds of 
intelligence issues.
    As I understand it, Director Mueller has said that they are 
in fact very actively implementing reforms that he says are 
designed to address the same areas of problems and reform that 
we have recommended in this report. So I obviously have not had 
the opportunity since I have left the committee to be briefed 
on what the FBI is doing, but my understanding is that that is 
certainly his intent.
    The other thing I would say is that, hopefully, if nothing 
else, by making the facts of the missteps and the lack of focus 
that happened before 9/11 very public and having discussed it 
with the agencies many times, I would certainly hope that all 
of them are very sensitive to these kinds of issues and are 
doing their best to try and prevent a similar problem in the 
future.
    Mr. Thompson. Thank you.
    On a broader note, if we take the 13 intelligence gathering 
agencies from Congress and say, well, you all should cooperate 
and get along and share information, do I hear from your 
testimony that that is only as good as the people who work for 
those agencies agreeing to do that?
    Ms. Hill. Well, ultimately, it depends on people. It is 
like any part of government. It is basically made up of people. 
A lot of it is what Governor Gilmore has said. It is culture. 
Lot of the issue between intelligence and law enforcement, 
which has been part of this problem, was historically based on 
some valid legal reasons. There were some concerns. The 
Intelligence Community has always been very concerned about 
protecting their sources. They don't want to give too much to 
the law enforcement side, because they don't want it to end up 
in a courtroom where they are going to have to disclose their 
sources, those sorts of legitimate concerns.
    We heard, for example, that analysts in the law enforcement 
side were being told not to write down analysis, because 
analysis really is not always fact. It is analyzing and 
theorizing about what all of these facts may mean. We were 
told, and I can understand this, that sometimes analysts at the 
FBI were told not to write down paper analysis because the 
prosecutors did not want that in their files when they go to 
try criminal cases. Having been a prosecutor years ago, I know 
that there is a legitimate concern there.
    So some of these things were driven by the law, by the 
differences between the mission and the function of law 
enforcement and intelligence. Some of it was driven simply by 
agency cultures, by agency turf. There are a lot of reasons.
    Also, I think in the Intelligence Community, as the 
Governor said, it is true that they have a culture that is 
grounded in secrecy, for some very good reasons, and it is 
difficult for them I think to go too far beyond that. They 
guard their information very carefully because of the 
sensitivity of that information.
    So there are a lot of reasons, some of them very valid, for 
all of this, but I think the agencies have to recognize--and I 
hope they do now--that we are living in a world where things 
changed after 9/11. We are living in a different time, and 
there is now a need, a very real need, for realtime information 
not just for people in the Intelligence Community but also in 
law enforcement and in State and local governments and State 
and local law enforcement. So we have to somehow get beyond 
those cultures and those legal issues.
    Mr. Thompson. Thank you very much.
    Governor, do you think as we move forward in this country 
is there ever or will there ever be a time when we could 
consider ourselves safe? And, if so, help frame how we measure 
it.
    Mr. Gilmore. Well, as I have said in other forums, 
Congressman, I don't believe that the country can ever be 
completely secure, and I think there is a real risk here, a 
dramatic moment in time I think in this country when there is a 
dramatic risk that we will work so hard to create security that 
we will overlook everything else that is of value in the 
American system, and I am concerned about it. And the 
Commission I think will have more to say about this in December 
as well.
    I don't believe that you can be completely secure. We don't 
think that that is the right approach. The correct approach, it 
seems to us, is to not focus on vulnerabilities, because 
everything is vulnerable unless you put it inside a wall, and 
even then it may be vulnerable. Instead, focus on risk. Focus 
on the capability of the enemy. What can they actually do? And 
that means that you circle back to the intelligence issue, 
because the better your intelligence, the better your knowledge 
of what the enemy can actually do, what their capability is, 
and then you begin to know what you need to protect against. 
That is the assessment that needs to be done.
    In terms of measurement, I think that it can be measured. I 
think that the intelligence organizations, the 13 or so 
organizations, when they trade notes and they exchange 
information in a TTIC or another fusion center and reach 
consensus as a group, can come to policymakers and make good 
decisions about the level of security of the country.
    Understand, Congressman, that we can never be completely 
secure, and a well-financed, militarily trained enemy will try 
to find the vulnerabilities to the greatest extent they can, 
but we can reduce the risk, and we can make the country 
reasonably secure.
    Mr. Thompson. Thank you.
    Mr. Chairman, I have one other question.
    Chairman Cox. Without objection.
    Mr. Thompson. Governor, you now moved on to another point 
in your life, and part of it is dealing with issues of homeland 
security in the private sector. I would like to know, have we 
established within the Department of Homeland Security the 
opportunities for private business to come and explain their 
products and wares good enough to move the issue alongSec. Do 
you understand what--if we have someone who has an idea that 
may or may not fall within the area of homeland security, have 
we created within that Department a willingness to accept a 
point of entry for those individuals to come?
    Mr. Gilmore. Let me try to answer this on two levels, if I 
can hold this in my mind. The direct answer is I think we are 
doing pretty well with that now. Governor Ridge has said that 
he wants to consolidate that into one office and one intake 
point where people can come in and look at this, and I think 
that we are making progress on that.
    We still haven't answered the question, the relevancy of 
any particular product that is coming in the door. That is the 
challenge. Unless the strategy is set and we understand that we 
need sensors or we don't need gas masks as the best and highest 
use of our money and priorities, then there is no way for a 
government official to make a good priority decision about what 
to spend the money on. That is the central challenge I think.
    Organizationally, I think Governor Ridge is pulling that 
together pretty well, and we all know that what is really at 
work here is that everybody that can create anything at this 
point related to homeland security is sure trying to sell it to 
the Federal Government as hard as they possibly can.
    The second level, though, of discussion is more intricate, 
and it is the question of how you tie in the private sector, 
the owners of all the critical infrastructure in this country 
into a homeland security strategy when they don't work for the 
government. This is a more difficult issue. They actually want 
to do things, but there aren't a lot of systems in place to fit 
them in very, very well. At the end of the day, they are still 
accountable to their bottom line of their shareholders, and 
that is a different priority from the government. So that 
challenge remains ahead of us, and that is why we took 
testimony from Mike Armstrong from the Business Roundtable.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman.
    The gentleman from New York, Mr. King, is recognized for 
purposes of questions.
    Mr. King. Thank you, Mr. Chairman.
    First, if I could make a remark to Governor Gilmore, I lost 
more than a hundred constituents in my district. Ray Downey 
didn't actually live in my district, he was in the adjoining 
district, but he certainly was a legend, and I thank you for 
paying tribute to him in your statement today. It was well 
deserved, and I thank you for that.
    Ms. Hill, I want to commend you for the work you did on 
this report. One of the things that struck me in reading the 
report and listening to your testimony today and also thinking 
back to September 11th is that certainly I think most Members 
of Congress, if not all, and many people in the executive 
department were also taken totally by surprise by the type of 
attack that occurred on September 11th, the fact that it was so 
coordinated, planes being used as missiles. You mention here on 
page 7 of your statement today that there was no--little or no 
analytical focus about reports of terrorist activity and 
aircraft as weapons. I know that Congressman Dicks touched on 
this.
    But what I would like to follow up on is, what is your 
concern that there can be something going on out there today 
that we haven't even conceived of or is almost off the charts 
as this type of attack was? We hear so many random type of 
attacks--bridges, tunnels, subways, et cetera, agriculture--but 
is there--and I guess--I don't know. Maybe the question answers 
itself. But could there be things out there that aren't even 
being conceived of right now by the intelligence agencies or by 
the policy planners?
    Ms. Hill. You know, this is just my personal opinion. I 
think 9/11 has shown they can think totally out of the box and 
they can think of things that are unimaginable to many people. 
So I would say, you know, yes, it is very possible they could 
be thinking of something. I mean, I don't know that for a fact, 
but I am just going by what they have done before. I think they 
would look for our vulnerabilities and look for things that we 
are not looking at.
    So part of the problem is this is a huge country. We have 
many ways of people coming into this country, of container 
cargo coming in ports and airports and we have huge borders and 
everything else. Plus we have the issue of whether there are 
people already here that are working for groups like al Qaeda. 
So there are tremendous vulnerabilities, and I don't think you 
can guarantee that even the best intelligence is going to 
absolutely know every single possible tactic that some 
terrorist out there has thought up.
    It is a very scary thing, it is a very hard thing to defend 
against, and you just have to have the best intelligence, the 
best sources, the best cooperation and sharing of information 
that people can have and look at it all and put it all together 
the best you can and look for what makes sense in terms of 
where will they go next.
    Mr. King. You have spoken about trying to change the 
culture in various agencies and departments. There was a story 
in this week's Newsweek where it talks about how many people in 
the FBI, CIA over the years became gunshy, the fact that they 
are afraid of doing something this year which will be 
questioned later on.
    How much fear is--how much of a problem do you think it is, 
let's say, that an agent or an analyst would be afraid to 
propose something in the fact that it would be ridiculed or put 
down as crazy and the impact of that? Has that mentality 
changed at all?
    Ms. Hill. Well, I don't know that the mentality has 
changed. I will tell one of the issues that we saw on analysis 
was not so much that they were gunshy, but one of the things we 
heard complaints about was that there was a tendency in 
intelligence to go with the majority view on analytical 
product. In other words, if there was a dissent, the dissent 
would not be fed into the final product, so that what 
ultimately would come out would be an analysis based on what 
most people thought made sense.
    The problem with that in intelligence, is that because 
intelligence is a dynamic thing, it changes, you keep getting 
new intelligence every day. What happens if you lock it into 
the majority view at that point and it continues to go down the 
chain like that, later when some new intelligence comes in that 
may actually change the whole picture if you had linked it with 
what they were saying originally, you have lost that ability to 
do that. You have kind of locked yourself into a view that may 
not get to the whole picture and may not get the most creative 
way to look at intelligence.
    So we heard about that as a problem, and we also heard, and 
the committees found, that there just was not a lot of real 
creative, aggressive analytical products on this particular 
issue.
    Mr. King. One final question. I know it opens up a whole 
new area, and maybe we can talk about it some other time, but 
the whole issue of sleeper cells. I have had numerous 
discussions with police intelligence people in New York City 
who say that they are getting very little cooperation from, for 
instance, people within the mosques. Again, I know that opens 
up whole other issues about separation of church and state, et 
cetera, but how significant an issue do you believe the sleeper 
cells are, and from your analysis, is there any way of 
estimating, again, the extent of it, how many of them are out 
there, what parts of the country?
    Ms. Hill. Well, that I probably cannot do. What I can do is 
tell you, certainly based on what we saw and what we have--
    Mr. King. Do you think it is a real threat, I guess?
    Ms. Hill. Yes. What I was going to say was, yes, I do. I 
think there was intelligence before 9/11, and we cite it in the 
report, that suggests that. For instance, regarding Khalid 
Shaikh Mohammed there was a June, 2001, report that said that 
he had been travelling to the United States recruiting 
individuals to come here and to establish contacts with 
colleagues already here.
    There was also an FBI analysis that we cite in the report 
that talks about the hijackers having a web of contacts in this 
country. The Phoenix agent testified that he believed his 
theory that there was a support network in this country for al 
Qaeda. There was information the FBI received--it is mentioned 
in the report--after September 11th from an al Qaeda associate 
who said that basically he believed they were trying to do 
multiple attacks in this country and that there were people 
positioned in--already positioned in this country--that they 
could call on to assist for those types of plans.
    So there is a wealth of information I think, based on what 
we saw, indicating that there very well may be terrorist 
sleeper cells or a support network in this country. The report 
goes on in great detail about the fact that we found, from our 
review of FBI and CIA files, that the hijackers had contacts 
with at least 14 different individuals in this country, all of 
whom had been known to the FBI previously through FBI 
counterterrorist investigations or inquiries. So these were not 
just individuals that had perfectly clean backgrounds. These 
were individuals that the FBI had reason to believe were 
connected with terrorist groups to start with. Lo and behold, 
what we found in those files was that the hijackers themselves 
were having contacts with those individuals.
    So I think it is a very serious issue, and I think it needs 
to be absolutely prioritized in terms of investigation and 
focus by our law enforcement community and our Intelligence 
Community.
    Mr. King. Thank you, Ms. Hill. Thank you, Governor.
    Chairman Cox. The gentleman from Florida is no longer with 
us. The gentlelady from Texas, Ms. Jackson-Lee, is recognized 
for purposes of questions.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman; and 
thank the witnesses very much for the work that you have done. 
Forgive those of us who have been in and out because of other 
meetings and hearings that we have had to participate in.
    But I do want to raise the question and probe what probably 
has been probed during my absence by other members, and that is 
what the Intelligence Community knew and how they acted upon 
it. In particular, Ms. Hill, I would like to refer to the 
testimony and statement that you presented and just explore 
that with you a little bit.
    The paragraph that I am reading now--and I would like to 
even--I am not sure if you read verbatim your statement, but I 
would like to refer to it on page 3:
    ``Although prior to September 11th relevant information 
that is significant in retrospect regarding the attacks was 
available to the Intelligence Community, the Community failed 
to focus on that information and to appreciate its collective 
significance in terms of a probable terrorist attack. As a 
result, the report concludes that the Community missed 
opportunities to disrupt the September 11th plot by denying 
entry to or detaining would-be hijackers, to at least try to 
unravel the plot through surveillance and other investigative 
work within the United States and to generate a heightened 
state of alert and thus harden the homeland against attack.''
    Let me just add a few more comments before I ask you to 
respond. On page 8, I think something positive occurred, or at 
least you noted something that we have improved on, from my 
perspective. Because my perspective is that we are not safer 
than we were after 9/11. We are certainly more aware. We are 
far more aware than we have ever been. So that is a positive.
    On page 8 you note, ``Prior to September 11th, U.S. 
counterterrorism efforts operated largely without the benefit 
of an alert, mobilized and committed American public. The 
assumption prevailed in the U.S. Government that attacks of the 
magnitude of September 11th could not happen here and, as a 
result, there was insufficient effort to alert the American 
public to the reality and the gravity of the threat.''
    I think the establishment of the Homeland Security 
Department, this Homeland Security Committee which I am hoping 
and praying will be a committee of action, and also what has 
occurred in our local jurisdictions on the home front, the 
neighborhoods, the cities, the counties, is a great success. We 
are aware, we are alert, we are sensitive, but it begs the 
question whether or not we have made any strides as relates to 
this singular question of whether or not September 11th could 
have been prevented, not whether it could have been prevented 2 
months out, 3 months out, but let's just take the whole ball of 
wax. Let's take it on several years of encountering and asking 
the question whether or not it could have been prevented.
    I say that because parallel to this hearing--and might I 
say a day before the second anniversary of September 11th--we 
certainly owe those who lost their lives not a tribute that I 
know that they will get but certainly a response that their 
lives were not lost tragically in long, extended--in vain.
    So I believe we are at a point that gives me discomfort 
that we have not yet answered the question. I believe that this 
whole issue warrants public hearings around the Nation, in 
large cities, in small cities, that the classified 
information--I wonder the basis of its classification inasmuch 
as the tragedy has already occurred. I might be convinced if 
some of that classified information triggers into ongoing 
investigations.
    But the bottom-line question of this, we have, as my 
colleague noted, several intelligence entities that exist. We 
do have sort of this infrastructure that is across the street 
from the Homeland Security or the Pentagon, which I am not sure 
anyone understands what they do or what they do. So the 
question to you is, have we answered this question of complete 
absence of connectedness with the Intelligence Community?
    General Sanchez said, ``I don't need more troops.'' And 
whether I disagree or agree with him, I need better 
intelligence in Iraq. We need better intelligence here in the 
United States, and I don't see where we have made the 
improvement where the action items have occurred on this.
    My last point is I note in this material that the 
individuals, two of them, that came over did not get on a watch 
list to the FBI until August of 2001. What a tragedy. What a 
crisis. Where are we today in terms of correcting that and 
paying true tribute to the thousands who lost their lives of 
whom we will pay tribute to tomorrow on 9/11, the anniversary?
    Ms. Hill. I can talk about--certainly you have raised a lot 
of the issues that were problems before 9/11. What has happened 
today, are we there, have we fixed all those problems, I do not 
know to what extent all the reforms have been put into place, 
because my job was looking at what occurred before 9/11. I have 
not done the same kind of in-depth scrub that we did on pre 9/
11 on the issue of what has happened since 9/11. That was not 
our mandate.
    I can tell you several things that are positive.
    One is I would agree with what you said. One of the 
problems we noted was that the American public was not really 
alert to this threat, and I think the American public is now, 
if for no other reason than because of September 11th, very 
alert to this, as is the law enforcement community and the 
Intelligence Community. So our alert level has clearly risen.
    In terms of sharing information and actual reform at the 
FBI, as I mentioned a few minutes ago, Director Mueller has 
stated he is very familiar with our report and what we have 
found and the problems, and he has said that he is actively 
pursuing reform within the FBI in the areas the committees have 
recommended.
    Again, I have not had the opportunity to be briefed as to 
what is being done, so I can't speak to that, but I know that 
is his stated intent.
    On intelligence, I believe Senator Graham in the Senate has 
actually introduced legislation that would implement the actual 
recommendations of the report. In the House I believe Chairman 
Goss and Ms. Harman, the ranking member, are actively pursuing 
with the agencies through oversight hearings and through the 
authorization bill ways to address the issues that we raised 
concerns about in the report. So there is a lot of activity 
focusing on this.
    Again, I feel really unqualified to give you a flat opinion 
as to whether what is going on is actually solving the problem, 
because I have not examined it and I haven't done the type of 
review that I would feel more comfortable with before I made 
that conclusion. I do know that people are aware of what we 
have said and they are addressing it and they are saying they 
are addressing it. Now, how good that is, I can't tell you at 
this point.
    Ms. Jackson-Lee. Mr. Chairman, Governor Gilmore would like 
to--he is raising his hand to answer.
    Chairman Cox. By all means.
    Ms. Jackson-Lee. I appreciate your indulgence.
    Mr. Gilmore. To Congressman Jackson-Lee, we had a raging 
debate on this topic in the year 2002 on the Commission, and 
the issue was what type of reform needs to be done in order to 
bring better domestic intelligence into play. There was a--
usually, our Commission operates on a consensus. The goal is to 
achieve consensus. That is usually the right answer. We failed 
on this one.
    The argument had two camps. The one camp was led by me that 
believed that the FBI should be reformed and made to create a 
real intelligence division instead of the simple law 
enforcement function that it seems to specialize in.
    The other camp was led by Paul Bremer, who said that we 
should not have the FBI do this, that they are not capable of 
doing it and never will be, and therefore we should create an 
MI-5 organization akin to the British model to conduct domestic 
terrorist information in this country.
    Bremer won that debate. I put a dissent in the report. It 
is actually very entertaining stuff, if you wanted to take a 
look at it.
    But the fact of the matter is that since that report was 
published the Director has appeared twice before our 
Commission. I think he is very concerned about the report of 
the Commission and the recommendation. He has been over to 
explain to us that he is trying to change the culture at the 
FBI, not to diminish its law enforcement capacity but to add to 
it a domestic intelligence capacity.
    But the jury is out. They will need to change their way of 
thinking about this. They will need to put good agents into 
counterterrorism and give them good career paths and promote 
them just the way that they would somebody that wants to bust a 
counterfeiter or a drug addict.
    So there is a lot to be done here, and we will have to see, 
but it is clear that Director Mueller intends to create that 
capacity to make it a success in the United States.
    Ms. Jackson-Lee. Mr. Chairman, if I would, I will end. I 
don't know if you were listening, and I just hope that this 
might be the work of the committee. I think this is a very 
striking point that the Governor has made, despite the debate 
in his committee.
    I can't imagine the FBI in the 21st century without an 
antiterrorism or intelligence component balancing--and maybe 
where Ambassador Bremer was going was civil liberties and our 
concerns there, but we can balance that. But here is a domestic 
Federal law enforcement that we have always looked to for 
excellence and that they are deprived of the opportunity to 
create an excellent intelligence unit that really would have 
been helpful pre-September 11 so they would have been able to 
digest what they have gotten even though they got it a few days 
out, 2 days out, they might have been able to move quickly.
    I don't think we can operate without that kind of 
component, and it is interesting that that is one aspect that 
maybe has been dragging its feet because of this debate that 
has been going on. I think it is crucial for this committee.
    I thank the chairman very much. I don't know your comment 
on it, but I hope we can work on it and the ranking--
    Chairman Cox. I thank the gentlelady.
    The chairman recognizes himself for 5 minutes. I would like 
to return to this question of the fusion center.
    I was recognizing a member on this side, but there isn't 
any reason. You are quite right. I will yield instead to the 
gentlelady from the Virgin Islands, Dr.para.hristensen, for 8 
minutes of questions.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I was encouraged to see the Governor raise his hand to 
answer a question after almost 3 hours. I am glad to see that 
you are still being patient with us and willing to answer.
    I want to thank the chairman and the ranking member for 
holding this hearing on this very appropriate day, the eve of 
the second anniversary, and I would say certainly it is 
important on this second anniversary for us and the American 
people to know what has been done to reduce our risk of a 
terrorist attack and to improve our ability to respond. I just 
wish that we had a better report 2 years out.
    Governor, I will say I agree with you on your priority of 
the need for structure and framework, for assessment and a 
clear definition of what capabilities are needed for us to 
develop. I think that has been a great source of frustration to 
us on the committee but even more so of course to those who are 
on the front lines.
    I have about two or three questions, and I think they are 
pretty brief.
    The first one, the Commission recommended that the 
President clearly define the responsibilities of the Department 
of Homeland Security and other Federal entities. He noted that 
this was especially important in the case of a bioterrorist 
terrorist attack. To your mind, have these roles and 
responsibilities been clarified? Specifically, if we were to 
have a bioterror attack today, would we know who was in charge?
    Mr. Gilmore. Well, that is really an excellent question and 
one that has troubled the Commission greatly. In the very first 
year of our Commission, in 1999, when we did the threat 
assessment we raised that fundamental question, who is in 
charge, because we didn't think that answer existed at that 
time.
    I think that you have today a dual role in the bioterrorism 
area, and that is the Department of Homeland Security and the 
Department of Health and Human Services at the same time. We 
made a recommendation that I think that HHS--I will have to 
look back now and make sure my memory serves correctly. I think 
we recommended HHS be the lead agency in conjunction with DHS, 
or it may have been the other way around. I am not sure. But we 
have to define this. We have to define exactly who will, in 
fact, be responsible in a bioterrorism attack.
    If I could just take one moment, Mrs. Christensen, to say 
this, that while we think it is exceedingly difficult for a 
terrorist organization to get their hands on a bioterrorist 
weapon, we think that is a hard thing to do and hard thing to 
deliver and there has been a history of it being difficult to 
do, if it did occur it would be the worst possible thing that 
could happen. You could put a police tape around a nuclear 
explosion, but you can't around a contagious disease that was 
put into the population.
    There are ways of dealing with us. HHS is certainly the 
agency with the greatest expertise. I think the correct answer 
would be to have a clear designation as to which agency will be 
in response and which one will be in support. Clearly, the 
expertise rests with HHS.
    Mrs. Christensen. Thank you.
    Being representative of a U.S. territory, I wanted to also 
ask, based on the Commission reports and the one to come, are 
you satisfied that the needs of territories and also native 
American reservations are being adequately factored in as we 
assess where we are and where we need to be?
    Mr. Gilmore. Well, that is another excellent question. The 
Indian reservations ought to be part of the State plans 
developed wherein those reservations reside. They ought to be 
included within those State plans, as to whether or not there 
is a substantial risk that needs to be taken into consideration 
in the State plans.
    Territories are a different issue, and I am afraid I can't 
answer whether the territories have been included in the 
structure and planning for a territorial plan which would then 
fit into the national strategy when it finally emerges, but I 
will say that I think you are right. They should be. And I 
suspect they are.
    Mrs. Christensen. We are. I just want to always make sure 
that we are considered when all of the discussions are taking 
place, because many times we are an afterthought, and this is 
too important for us to be an afterthought.
    One recommendation involved fund reimbursement to State and 
localities and the private sector for expenditures to increase 
security. I am a ranking member on National Parks, Recreation 
and Public Lands, and they were recently cited for their lack 
of security, not providing adequate security. I have heard from 
the Director that they may take up to $65,000 a day during an 
Orange Alert to beef up security, and that comes from other 
funding needs within the Park Service.
    Is it also your recommendation that agencies include in 
their budget a specific set-aside for homeland security in 
addition to the regular costs that they need to cover?
    Mr. Gilmore. You mean for national parks?
    Mrs. Christensen. Well, I think other agencies face the 
same problem. There hasn't been anything in their budget for--
when the need arises, for them to increase security because we 
are on a higher alert, and that is what has happened in the 
Park Service. And it is a significant amount of money that is 
expended. You talked about States, locality and the private 
sector, but the departments haven't--they have been taking it 
out of their normal budget.
    Mr. Gilmore. I think that--I am not sure the Commission has 
heard this, in all honesty, but my reaction is I think I am at 
this from a little different direction, and it is not simply to 
fund everybody that feels like that they have a security need. 
To the contrary, I think you have to instead look at the 
national strategy and ask yourself where your priorities are 
and then what you can reasonably afford to fund without 
breaking the back of the economy of the Nation.
    The enemy has said that they wish to break the economy. We 
can do that for them by spending ourselves into oblivion trying 
to protect every vulnerability. So I think that a careful 
assessment has to be done as to the greatest vulnerabilities 
and the greatest priorities so that we move down the line until 
we run out of money and then at that point we just have to stop 
and say that we are stopping.
    Mrs. Christensen. Thank you, Governor. I agree with you.
    Chairman Cox. Thank the gentlelady.
    Governor Gilmore, your fourth report describes the 
importance of a fusion center located outside the CIA. You went 
so far as to recommend that the CIA analysts that work for the 
fusion center should not be detailed but permanently employed. 
As you know, we have TTIC up and running. We have referred to 
it throughout this hearing. We also have an intelligence 
analytical capability being built at the Department of Homeland 
Security in response to the statutory command that the fusion 
center be constructed there. What do you make of the fact that 
we have two competing fusion centers now under construction?
    Mr. Gilmore. The Commission's report recommended--it was, I 
believe, the first to recommend a fusion center, I think, and 
we did that on December the 15th of 2002, prior to the 
President's State of the Union address. We always envisioned 
that there would be one, that it would not be centered in any 
one agency.
    Now I happen to be a personal fan of the CIA, but the 
concern that the Commission has expressed is that the fusion 
center should not become loyal to one agency only but instead 
should be an independent stand-alone with the capacity to do 
the kind of independent work with people permanently detailed 
to it so that they were not accountable to or answerable to 
some other agency somewhere and that all agencies of the 
Federal Government should then become customers of the one 
independent stand-alone. That is the recommendation of the 
Commission, and duplication we think would be 
counterproductive.
    Chairman Cox. That goes to the nub of my question, because 
there is, quite obviously, duplication in construction of a 
fusion center in DHS and construction of a fusion center at 
TTIC. Your recommendation--because it made clear that this was 
not supposed to be under the direction of the CIA--also is not 
therefore reflected in TTIC which is under the direction of the 
DCI.
    The President, when he announced in his State of the Union 
in January of this year the creation of TTIC, also put out 
materials from the White House contemporaneously that stated 
that TTIC would not be headquartered at CIA. But of course it 
is, and it will be until sometime next year under current 
plans.
    When the Congress wrote the Homeland Security Act, we 
considered at great length many of the issues that undoubtedly 
you wrestled with when you were debating, for example, whether 
to have an MI-5 in the United States. Homeland security is 
about what goes on here inside the United States domestically. 
Homeland Security, the Department, is going to have an enormous 
liaison function with State and local agencies, law enforcement 
and otherwise. So the question arises, if this is going to be 
CIA, would we want the CIA to be more involved in our domestic 
life for a variety of reasons which you would immediately 
recognize. The Congress chose not to do that and yet we find 
ourselves now with--despite a Presidential promise that TTIC 
would not be headquartered at the CIA, despite the legislation 
that is on the books, something running persistently in the 
opposite direction.
    From a policy standpoint, the easiest way to capitalize on 
this, look at it as a glass half full, it strikes me, is that 
we can appreciate what is being built at TTIC, recognize that 
if it is not going to be permanent it certainly is substantial 
and of indefinite duration and that perhaps this should be made 
to fulfill the mandate of the Department and that TTIC and what 
the Department is building could be merged so that ultimately 
TTIC can fulfill the statutory mandate in the Homeland Security 
Act if it is under the control not of the DCI but the 
Secretary. What is your view of that?
    Mr. Gilmore. Congressman, let me be very clear. The 
Commission has never for an instant lost sight of the fact that 
it is a recommending body only, that the policy decisions have 
to be made by the elected officials in the Congress and in the 
executive branch, and we have no priority ownership on any of 
this.
    We recommended an independent body and stated our reasons 
as to why we did that. If it is the wisdom of the Congress to 
place in the Department of Homeland Security in order to 
centralize those functions in one place, that is a decision 
that rests with the Congress.
    Chairman Cox. Let me ask the question, then--and I 
appreciate that response, and I recognize that neither what has 
happened nor what seems likely to happen in the future is a 
precise reflection of your recommendations, although having 
recommended a fusion center early on, I think you can take 
great credit for what--as a result of Ms. Hill's work--is 
obviously a recommendation that solves a lot of problems we 
have experienced.
    But let me ask both of you this question. Is there any role 
assigned to TTIC at present that DHS could not itself perform?
    Ms. Hill. Again, I am not--I have not studied in depth how 
TTIC is being set up or what they precisely are doing, so I 
don't know that I am the best person to answer that. I do agree 
that we need to have one center. I don't see much point in us 
having two. And wherever that center is, it needs to have the 
authority and the clout, if you would, to get the agencies to 
share information. That is the most critical thing.
    Mr. Gilmore. Congressman, this is a very complicated 
question, because a fusion center clearly can do what it is 
supposed to do wherever it is if it is properly managed and 
given very specific direction. I guess our concern has been 
that if it is placed in one location that other agencies will 
not get the same dibs on the capacity that others might or the 
same access to it or the same attention from it that others 
might.
    Clearly, we all understand the importance of the Department 
of Homeland Security having total access and, furthermore, even 
tasking capabilities we believe for gathering information and 
having information analyzed. We place a great high value on the 
Department of Homeland Security and certainly we would 
understand the Congress's approach on that. Our only 
reservation just is simply to make sure that whoever is in it 
that they--within their culture--provide the same access and 
information and attention to all the agencies in equal measure.
    Ms. Hill. Mr. Chairman, I would just add one thing on this 
and just point out that our report does point out, at least 
before 9/11, that the DCI, even though he was the head of the 
Intelligence Community, was--I believe the words the report 
uses, was ``unable or unwilling to marshall all the resources 
of the Intelligence Community.'' So the point being that, at 
least prior to 9/11, the DCI was not able even to bring the 
Intelligence Community together, let alone those beyond the 
Intelligence Community. So perhaps that has been fixed, but 
that was certainly the case before 9/11, and we need to make 
sure whoever runs the fusion center has a much better ability 
than that, at least in terms of what was going on before 9/11, 
to bring together all of that information.
    The other issue that did come up that is I think relevant 
to this point, we heard from many Intelligence Community 
analysts some concerns about the CIA was not really taking in 
their viewpoints on analysis. There was some, I guess, agency 
back and forth between CIA and other parts of the Intelligence 
Community in the analytical area. So that--if the CIA is going 
to run TTIC, that has to be addressed and fixed, because that 
was a problem before 9/11.
    Mr. Gilmore. Congressman, if I could add to that thought. I 
guess the concern is that, knowing the intelligence agencies, 
including the FBI, they are going to be very excited about the 
prospect that analysis is going to be done elsewhere. The FBI 
was most unhappy with the idea that their information would be 
analyzed elsewhere, and I think that is just going to be a 
problem that you are going to have to confront and cope with 
and find the best possible solution. If you place it in DHS, at 
least surely they will get access to the information which they 
must have. What you have to guard against then is all the other 
agencies that contribute to us decide to go their own way and 
the fusion center just becomes basically a sterile function. I 
think that is the administrative challenge.
    Chairman Cox. Finally, Governor Gilmore, shifting gears 
dramatically, your Commission has recommended concerning 
immigration and border control as an element of our national 
security strategy, of our antiterrorism strategy and you have 
served as Governor of Virginia which issued fraudulent drivers' 
licenses to the 9/11 terrorists. I know you have an abiding 
interest as a result of that because so many of them did have 
Virginia driver's license, and the GAO yesterday issued a 
report that many States now have a problem with their drivers' 
licenses being easily forged and that if the driver's license 
is going to serve as identification to buy weapons, to board 
airplanes and so on, we have got to take this much more 
seriously.
    They issued a classified report. Some of it was made public 
yesterday. I wonder if you wanted to comment on that.
    California, as you know, legislation was just signed on 
Friday that in my view takes a giant leap backward, that 
liberalizes the requirements for obtaining a driver's license 
and does away with the only reliable identifier that was part 
of the California system which was a social security number, 
substituting an IRS-issued number which the IRS says it can't 
back up. I wonder if you want to comment on that.
    I know also the White House has an ongoing effort to look 
at the question of uniform Federal minimum standards for State 
drivers' licenses.
    Mr. Gilmore. The irony is that the policy of my 
administration was to be as public service oriented as we could 
possibly be, and then that opened up a vulnerability which the 
enemy exploited.
    I think that it is common sense that you would want to have 
a reliable identity indicator before a driver's license is 
issued.
    Chairman Cox. Governor, let me interject. I don't want 
anyone to infer from the way I put the question that the 
driver's license requirements in the State of Virginia were 
anything that you constructed as Governor. I mention only that 
you have an interest in this because you are from Virginia.
    Mr. Gilmore. I understand.
    Chairman Cox. You are the leading expert in our 
counterterrorism efforts.
    Mr. Gilmore. It seems to me that the objective here is to 
make sure that there is an identifier, and I would think that 
it becomes a Federal issue, doesn't it, as to whether the 
Federal Government is going to require a certain base level 
requirement to the States on a driver's license. That becomes a 
pretty tough Federalism issue.
    But if some States are moving to the point where they are 
basically going to not have reliability indicators, then they 
are going to raise a public policy issue that the Congress 
probably has to address.
    Chairman Cox. I appreciate that.
    Mr. Turner, would you like to be recognized for a second 
round of questions?
    Oh, I am sorry. Mr. Meek has returned.
    The gentleman from Florida, Mr. Meek, is recognized for 
purposes of questions.
    Mr. Meek. Thank you, Mr. Chairman.
    I want to apologize for dipping in and out, and I kind of 
faked you out to the fact that I was back in, but I want to 
thank both of our panelists for being here, and I want to 
apologize. I have been trying to squeeze in a few meetings on 
the side here, but I have been watching on the monitor some of 
your responses that have been responsive--responses to 
questions that I had prior to reading your prepared statements.
    I know that we are here today to really talk about the 
functions of government and how can we work together to prevent 
terrorist attacks in the future. As we start looking at 
communications, that was one of the main functions, I would 
assume, even breaking through the walls of who is talking to 
who as it relates to our intelligence institutions. But I know 
that the people of this country place a very strong role in 
being able to help the Intelligence Community as it relates to 
our information about strange events that may take place, 
either local government or Federal Government.
    Y'all have listened to--you have had hours and hours and 
hours of hearings, different individuals coming in to testify, 
either be it classified or unclassified. I am very concerned 
about the communications from not only our Intelligence 
Community but I would say our law enforcement community to 
general Americans about what is going on.
    I know that the Department of Homeland Security has 
performed many test sites throughout the country in trying to 
get our first responders in practice to be able to respond to 
the different terrorist events that could take place in this 
country. We want to prevent that from happening. But what is 
going to happen as it relates--and I think the biggest exercise 
we have had thus far was the power outage in New York and the 
Northeast. I saw via television many individuals not knowing 
where to go, what to do or how to leave Manhattan, since it was 
the most televised city in the Northeast due to the fact that 
it is the hub for many of the national television and cable 
outlets. No one knew what to do and when to do it.
    Now, law enforcement did the best that they could do by 
directing individuals to either take a ferry, or whatever the 
case may be, but there was a lot of what we saw on 9/11, a lot 
of folks standing on the corner telling people where to go, how 
to get there, people not knowing what to do. They had phone 
service.
    I introduced, with some other Members of this Congress, a 
bill called the ready-call bill that would allow the Homeland 
Security or local law enforcement to contact people at work, 
contact individuals at home or wherever they may be to give 
them some instructions about, number one, what is going on, 
number two, what they should do to protect themselves and 
hopefully, number three--not necessarily in this order--not to 
hinder first responders from responding to wherever they need 
to respond to.
    I want to talk a little bit about--I wanted you to respond 
a little bit to the fact, both of you, of what you heard out 
there and how we can communicate better with Americans, number 
one, as it relates to knowing about terrorist events or them 
reporting possible terrorist individuals or sleeper cells or 
what have you to our Intelligence Community; and, number two, 
as it relates to how can we communicate with the public better 
so it doesn't hinder first responders being able to contain a 
possible terrorist event that may take place.
    Ms. Hill. I would only say--you know, just comment that one 
of the things that we did find in the 9/11 inquiry was that, in 
fact, before 9/11 the American public had not really been 
sufficiently alerted to the threat of bin Laden and the very 
high, immediate, peak-level threat that we had in 2001.
    The committees drew the conclusion--and this was an area 
where we got a little beyond intelligence, because it was more 
a policy issue and we didn't dwell at length on it, but they 
did make the comments that an alert American public is a 
tremendous benefit to our intelligence and law enforcement 
authorities.
    It is not just that the public has the right to know. It is 
also that the public can help in the fight against terrorism by 
simply being alert to things that they may see that otherwise 
may go unnoticed by our law enforcement and intelligence 
people.
    So that is an area before 9/11 where we found more could 
have been done to alert them to the type of threat we were 
facing, the immediacy of that threat and how serious it was.
    Having said that, in terms of what we can do the next time 
for when something happens to better prepare people, my own 
personal viewpoint is I think a lot of it must be in educating 
the public not just on the scope of the threat but on the 
emergency preparedness regarding what they should be doing 
before the event happens. And we obviously didn't look at that 
in the course of our review. That is something I am sure 
Governor Gilmore can speak more to.
    But it is important to keep the public alert. It is 
important to let them know what some of the intelligence is to 
the extent you can do it without harming national security, and 
that is where the whole issue, that we saw again and again, of 
classification comes in. There were so many threats coming in 
about bin Laden in 2001. Yet a lot of that was lost in terms of 
getting it to the public, and I think part of it was because of 
classification. Most of that information was classified until 
we had our hearings in 2002 and got some of that information 
declassified to release to the American public, but it was late 
in coming.
    Mr. Meek. Very quickly, how do you see--Mr. Chairman, if I 
may, how do you see that--our government preventing that from 
happening in the future? Because, as a past law enforcement 
individual, no one wants to tell the next person about what 
they know, especially after Director Tenet was kind of thrown 
from the train earlier this year as it relates to information 
that he provided to the White House. And that is so very, very 
important.
    Sometimes we hold things so close to our chest to the 
detriment of the country, and we have to make sure that we get 
that information out. Because just like in Iraq when we were 
able to find Saddam Hussein's sons by someone just walking into 
one of our task forces and saying, guess what, I know where 
they are, maybe they walk into wherever it may be, could be 
somewhere in Florida, a police department, somebody will say, 
well, carry on about your business, sure.
    Ms. Hill. Right. An alert public can really provide a lot 
of valuable information, but they have to be alert to do it. 
They have to know there is a threat.
    The committee has recommended--there is a recommendation in 
the report-that the whole issue of classification be reviewed 
both by the President and the Congress, with an eye towards 
looking at ways to get more realtime information not only to 
our State and local authorities, our law enforcement agencies, 
our intelligence agencies, but also to the public.
    You know, having just gone through 7 months of the 
declassification of this report, I can tell you, my own 
personal view is that we classify an awful lot of material 
beyond where we need to classify it.
    In my prior life, when I worked on the Senate Subcommittee 
on Investigations years ago, we did a hearing on security 
clearance and classification I believe in the mid 1980s, and 
one of the findings at that hearing was that too much was 
classified. I think that is still true, and it is very hard to 
get some of this stuff declassified, but there are valid public 
interests in getting a lot of this information out to the 
American public. That is what these committees felt was the 
case, and that is why we spent 7 months trying to get a lot of 
this declassified in our report.
    But that needs to go beyond the post mortem and go to 
threat information. The danger is that you never want to give 
people threat information that causes them to later doubt your 
credibility and say, well, you were overdoing it. You are 
scaring people. So there is a very fine line, and I am not 
saying it is easy. It is very difficult, but we need to find 
that fine line so that the public gets an accurate and clear 
picture of what the threat level is.
    Mr. Gilmore. Congressman Meek, if I could just add to that, 
I would certainly concur that we have to find the best ways to 
communicate the best information we can to the locals so that 
they are in a position to communicate to the public with their 
feet on the street when the time comes that the crisis occurs, 
that they are alert to the plan and exactly what type of 
planning is necessary, and they have to be heads up. They have 
to know earlier than just all of a sudden it falling on them. 
So that ability to communicate up and down the line, Federal, 
State and local, is very critical.
    The second piece is the complicated question of how do you 
deal with the communication with the public. This is going to 
continue to be a matter of a lot of discussion about how you do 
this. I personally think that the best thing to do is to give 
the best possible information we can as to what the actual 
threat is so that the public is aware of what the actual threat 
might be.
    We are not doing that in--the popular media is not doing 
that today. They are focusing on the vulnerability, and instead 
saying to the American people, we are vulnerable, we are 
vulnerable, we are vulnerable. And we are, but unless the enemy 
can actually use that vulnerability against us, it is not 
really a threat.
    So, for example, I have seen an awful lot of hyping on a 
lot of these popular shows about certain things that could 
happen theoretically, but unless the Intelligence Community 
believes that there is a practical reason to believe that the 
event could occur, it is not fair to the American people to 
tense them all up and make them think they are going to die 
next morning from a contagious disease when there is no 
evidence that there is one that is possible against the 
American people. This is complicated stuff, the second half of 
it.
    Mr. Meek. Just in closing, Mr. Chairman, Governor, I know 
exactly what you are saying; and, Ms. Hill, I hear what you are 
saying also as it relates to tensing the American people up. I 
mean, my constituents, they don't know what color it is. They 
just know we went up a color and what does that mean. Do I fly? 
Do I stay home? Do I pray? What do I do?
    But I think that the real issue is making sure that we can 
break through and allow the American people to play a role in 
this. What works for local law enforcement in any given 
community in preventing crime is an educated and also 
responsive public. The public doesn't feel that they can 
communicate not only with our Federal agencies, because people, 
nine times out of ten, they don't know who to call or where to 
go.
    Making sure that we work with those agencies and sharing 
information, not putting anything to the side, number two, 
being able to--when I mention communicating with the public, if 
the power went out, we don't know why it went out, but this is 
what you should do, and this is where you should go.
    I mean, in New York, the City of New York, they are putting 
together a report--and I am interested in seeing it--they did 
have phone service. Someone could have called them from an 
emergency center and said, this is the way you leave the island 
of Manhattan, and this is what is working, these are the 
outlets that are taking place. And they have a plan.
    So that is what I was mainly addressing. I was thinking 
through the hours and hours of testimony that y'all have heard, 
and if your staff or anyone has heard anything to what I am 
trying to get more information on as it relates to 
communications, I will be more than happy to have that, because 
I think that it is important that we inform the American people 
on what they should do in a time of national emergency.
    Mr. Gilmore. Yes, sir. I think we can agree that people of 
New York did awfully well in that blackout. That could have 
been a really bad situation, and the people in the City of New 
York took it in stride. I guess they are used to seeing 
everything, aren't they?
    Chairman Cox. I thank the gentleman. This brings our 
hearing to a conclusion. The September 11 anniversary is a 
particularly poignant and sad remembrance, but your work has 
helped us bring constructive change out of tragedy, and I want 
to thank you for that.
    Ms. Hill, your leadership on the Congressional Joint 
Inquiry of the House and Senate Intelligence Committees has 
been extremely valuable. To the extent you have been able to 
declassify your work, the public can now access it on the Web. 
It is very a unhappy document to read but a very instructive 
one as well.
    Governor Gilmore, your continued leadership as chairman of 
the Congressional Advisory Panel is a most welcome 
contribution. You have contributed to the Congress in so many 
ways and to the executive branch. Even during your tenure as 
Governor you were moonlighting in other capacities, and I just 
am amazed at your ability to do so much and to carry so much 
responsibility. I want to thank you for it.
    I can't think of any better way to summarize and conclude 
our work today than to read the conclusion of your testimony in 
which you admonish us to always be cautious as those who are 
responsible for the Nation's security not to simply redefine 
away our freedoms in the name of security. It is preparedness 
that must be defined, not our definition of freedom that has 
already gained its meaning by the blood of American patriots, 
including those who died on September 11th.
    Many of the members of this committee when you said those 
words commented, you have got it just right. That is why we are 
here. So we shall, of course, meet again between now and the 
next September 11th, but thank you in realtime for what you 
have done and for the help that you have given the Congress and 
the American people.
    The hearing is adjourned.
    [Whereupon, at 5:47 p.m., the committee was adjourned.]

                        Materials for the Record

 Questions submitted for the Record for the Honorable Jim Gilmore, III

    Questions from the Honorable Dave Camp
    1. In your opinion, do we have adequate recruitment and training 
capacity to meet human intelligence needs? What are your 
recommendations for improving our human intelligence capacity?
    [No Response received by the Committee.]
    2. How can Congress assist DHS and intelligence agencies in 
creating ``a seamless system for the intelligence community and law 
enforcement for storing and exchanging information''?
    [No Response received by the Committee.]
    3. Governor Gilmore, your commission noted the importance of 
coordination with the private sector in preparing and responding to 
terrorist attacks. Could you please comment on your recommendations for 
improving participation, inclusion, and communication between DHS and 
the private sector?
    [No Response received by the Committee.]

    Questions from the Honorable Jim Turner, Ranking Member
    1. Several agency officials from the Department of Homeland 
Security, the FBI, the CIA, and the Terrorist Threat Integration Center 
have testified to this Committee that information sharing between 
government agencies is improving. However, state and local officials 
who have appeared before our Committee have pointed to continuing 
problems, a position borne out in a GAO report issued on August 27, 
2003 that shows that no level of government is satisfied with the 
current status of information sharing. In addition, there remain 
questions on how many security clearances are needed for state and 
local officials to handle sensitive intelligence information.
    Based on your commission's work, who at the federal level needs to 
make the changes necessary to improve the flow of information to state 
and local officials? Are there barriers to information sharing that the 
Commission has identified that Congress can help to remove?
    [No Response received by the Committee.]
    2. You recommended that DHS should be able to levy requirements on 
other intelligence agencies to help it carry out its mission. To your 
knowledge, has DHS levied such requirements on the Intelligence 
Community? What types of requirements should the DHS be developing? 
What is your sense of how DHS is interacting with other members of the 
Intelligence Community? Has this been done adequately?
    [No Response received by the Committee.]
    In addition, , which should DHS be able to levy the same type of 
requirements for information from the private sector owns and operates 
many of the potential terrorist targets in the country? If so, how 
should DHS go about getting that information? Has such information been 
flowing to date?
    [No Response received by the Committee.]
    3. The Homeland Security Act included several mechanisms for the 
Department to conduct various analytic tasks. These include providing 
Secretary Ridge with an Advisory Committee, calling for a ``Homeland 
Security Institute'' to perform studies like RAND did for the Pentagon 
in the Cold War, and drawing upon academic expertise by establishing 
university centers. From your expertise as Chairman of a terrorism 
advisory commission, what recommendations do you have for gathering and 
implementing suggestions from the private sector and academia to 
improve DHS operations?
    [No Response received by the Committee.]

             Questions for the Record for Ms. Eleanor Hill

    Questions from the Honorable Dave Camp
    4. In your opinion, do we have adequate recruitment and training 
capacity to meet human intelligence needs? What are your 
recommendations for improving our human intelligence capacity?
    [No Response received by the Committee.]
    5. How can Congress assist DHS and intelligence agencies in 
creating ``a seamless system for the intelligence community and law 
enforcement for storing and exchanging information''?
    [No Response received by the Committee.]
    6. The Joint Inquiry reported that there was a lack of 
implementation of new technology within the Intelligence Community and 
a lack compatible technologies and databases between agencies. I would 
appreciate your comments on achievements being made in these areas and 
recommendations for further progress.
    [No Response received by the Committee.]

    Questions from the Honorable Jim Turner, Ranking Member
    1. The Joint Inquiry found problems with classification and 
information sharing. This Committee has heard from several agency 
officials from DHS, FBI, CIA, and the TTIC about how information 
sharing is improving and how they are disseminating threat information 
to state and local officials. But the Committee has received a 
different impression when speaking to state and local officials. On 
August 27, 2003, GAO released a report with detailed surveys that show 
that no level of government is satisfied with the levels of information 
sharing.
    First, how did the Joint Inquiry determine that information 
sharing, especially with non-federal entities, was inadequate? Based on 
your investigations, how might the Department of Homeland Security and 
the rest of the Intelligence Community, implement better information 
sharing measures? According to the Joint Inquiry, are there steps that 
this Congress can take to remove barriers to information sharing and/or 
excessive classification?
    [No Response received by the Committee.]
    2. Which of the Joint Inquiry recommendations could be implemented 
in the short term--say, in the next year? Do you see evidence that this 
is happening?
    [No Response received by the Committee.]
    3. The Joint Inquiry found that our domestic intelligence 
capability was lacking, but didn't recommend a clear course of action 
in response. While the FBI is nominally in charge of domestic 
intelligence collection, DHS is, at least in theory, building the 
relationships with first responders and the general public that you 
would want for domestic intelligence. What specific lessons on the 
collection and dissemination of domestic intelligence emerged from the 
Joint Inquiry's recommendations as relate to the Department of Homeland 
Security?
    [No Response received by the Committee.]
    4. The Joint Inquiry called for a government-wide strategy for 
combating terrorism. The Administration has produced eight strategies, 
including ones for homeland security, national security, and combating 
WMD. A strategy sets priorities and should have some connection to 
budgets and resources. Do you believe that the existing strategy 
documents constitute the government-wide strategy for combating 
terrorism called for by the Joint Inquiry?
    [No Response received by the Committee.]

                                 <all>

</pre></body></html>
